<html>
<title> - AVIATION SECURITY</title>
<body><pre>[Senate Hearing 108-999]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 108-999

                           AVIATION SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 5, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-547 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 5, 2003.................................     1
Statement of Senator Boxer.......................................    37
Statement of Senator Lautenberg..................................    33
Statement of Senator McCain......................................     1
Statement of Senator Snowe.......................................    35

                               Witnesses

Berrick, Cathleen A., Director, Homeland Security and Justice 
  Issues, United States General Accounting Office................     1
    Prepared statement...........................................     4
McHale, Stephen, Deputy Administrator, Transportation Security 
  Administration; accompanied by Penrose A. Albright, Ph.D., 
  Assistant Secretary for Plans, Programs, Budgets, Science and 
  Technology Directorate, Department of Homeland Security........    19
    Prepared statement of Dr. Penrose C. Albright, Assistant 
      Secretary for Plans, Programs, Budgets; Science and 
      Technology Directorate; Stephen J. McHale, Deputy 
      Administrator, Transportation Security Administration; and 
      William H. Parrish, Acting Associate Secretary, Information 
      Analysis and Infrastructure Protection Directorate, 
      Department of Homeland Security............................    25

                                Appendix

Response to written questions submitted to Cathleen A. Berrick 
  by:
    Hon. Ernest F. Hollings......................................    47
    Hon. John D. Rockefeller IV..................................    52
Response to written questions submitted to Stephen McHale by:
    Hon. Ernest F. Hollings......................................    53
    Hon. Daniel K. Inouye........................................    60
    Hon. John D. Rockefeller IV..................................    66
    Hon. Ron Wyden...............................................    61

 
                           AVIATION SECURITY

                              ----------                              


                      WEDNESDAY, NOVEMBER 5, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:48 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John McCain 
[Chairman], presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. All right, we will begin. We will begin our 
hearing. We thank the witnesses for their patience and we thank 
those who are waiting to attend the hearing for their patience.
    Ms. Berrick, we will begin with you. Go ahead, and pull the 
microphone over.

          STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR,

             HOMELAND SECURITY AND JUSTICE ISSUES,

            UNITED STATES GENERAL ACCOUNTING OFFICE

    Ms. Berrick. Thank you. Thank you, Mr. Chairman, and 
Members of the Committee, for the opportunity to participate in 
today's hearing to discuss the security of commercial aviation.
    It has been 2 years since the attacks of September 11, and 
since that time, billions of dollars have been spent on a 
variety of initiatives to enhance security. However, recent 
reviews and testing conducted by GAO and others, as well as 
recent media reports, have revealed continuing vulnerabilities 
in the system.
    My testimony today focuses on three areas that we believe 
were fundamental to TSA's success in enhancing security. These 
areas include: measuring the effectiveness of TSA's current 
initiatives, including its passenger screening program; second, 
fully implementing risk management tools to prioritize future 
efforts; and third, addressing several key programmatic and 
management challenges.
    I would like to first talk about TSA's efforts to measure 
the effectiveness of its security initiatives. We found that 
TSA has collected limited information on the effectiveness of 
its initiatives, but it is taking steps in the right direction. 
For example, we recently reported that TSA's primary source of 
information on the effectiveness of its passenger screening 
program is through covert testing conducted at security 
checkpoints. However, we reported that TSA had only tested 
about 1 percent of its screening workforce.
    We also reported that another key source of performance 
data, the threat image projection system, or TIP, was 
deactivated after September 11 and has not fully been 
redeployed. TIP places images of threat objects on an X-ray 
machine, X-ray screen, during actual operations to record 
whether or not a screener detects a threat.
    We also found that TSA had not fully deployed an annual 
screener certification program that will provide additional 
performance data.
    As I mentioned, TSA is taking a number of actions to 
collect more performance data on their programs, including 
increasing its number of covert testings, actually doubling it, 
reactivating TIP at all airports by 2004, and they are 
establishing an annual screener certification program. We are 
encouraged by these steps and believe that TSA should continue 
to enhance their performance measurement efforts.
    In addition to measuring the effectiveness of security 
initiatives, we believe that TSA must fully implement risk 
management tools to prioritize its future efforts. The purpose 
of a risk management approach is to set priorities so that 
resources can be focused on the most needed security 
enhancements. Using this approach to prioritize efforts is 
especially important due to TSA's responsibility for securing 
all modes of transportation. TSA has agreed with our past 
recommendations to implement such an approach and they plan to 
fully have it implemented by September 2004.
    Finally, TSA must overcome some key programmatic and 
management challenges as they move forward. For example, TSA is 
developing a new computer-assisted passenger pre-screening 
system, or CAPPS, to identify passengers who require additional 
screening. CAPPS will rely on existing data bases to generate a 
risk score to determine the level of screening that a passenger 
will undergo.
    TSA faces a number of challenges in implementing CAPPS, 
including addressing concerns regarding the protection of 
passenger data, the accuracy of data bases being used by CAPPS, 
and potential identity theft, in which someone steals relevant 
data and impersonates another individual, thereby negating any 
security benefits of the system. GAO has an ongoing review of 
the CAPPS program.
    TSA also faces funding and human capital challenges. A 
significant funding challenge is paying for the integration of 
explosive detection systems in the airport baggage handling 
systems, which is estimated to cost from $3 billion to $5 
billion over the next 5 years. TSA is also faced with the 
challenge of appropriately sizing its workforce as efficiencies 
improve through technology and new processes. For example, as 
explosive detection systems are integrated with baggage 
handling systems, the use of more labor-intensive screening 
methods, such as trace detection and manual bag searches, can 
be reduced. Other planned enhancements such as CAPPS and the 
registered traveler program also have the potential to make 
screening more efficient.
    As TSA moves forward in addressing these concerns, it needs 
the information and tools necessary to ensure that its efforts 
are appropriately focused and are achieving expected results.
    Mr. Chairman, this concludes my opening statement. I would 
be happy to respond to any questions at the appropriate time.
    [The prepared statement of Ms. Berrick follows:]

                               Highlights
Aviation Security

        Efforts to Measure Effectiveness and Address Challenges

Why GAO Did This Study
    It has been 2 years since the attacks of September 11, 2001, 
exposed vulnerabilities in the nation's aviation system. Since then, 
billions of dollars have been spent on a wide range of initiatives 
designed to enhance the security of commercial aviation. However, 
vulnerabilities in aviation security continue to exist. As a result, 
questions have been raised regarding the effectiveness of established 
initiatives in protecting commercial aircraft from threat objects, and 
whether additional measures are needed to further enhance security. 
Accordingly, GAO was asked to describe the Transportation Security 
Administration's (TSA) efforts to (1) measure the effectiveness of its 
aviation security initiatives, particularly its passenger screening 
program; (2) implement a risk management approach to prioritize efforts 
and focus resources; and (3) address key challenges to further enhance 
aviation security.
What GAO Recommends
    In prior reports and testimonies, GAO has made numerous 
recommendations to strengthen aviation security and to improve the 
management of federal aviation security organizations. We also have 
ongoing reviews assessing many of the issues addressed in this 
testimony and will issue separate reports on these areas at a later 
date.
What GAO Found
    TSA has implemented numerous initiatives designed to enhance 
aviation security, but has collected limited information on the 
effectiveness of these initiatives in protecting commercial aircraft. 
Our recent work on passenger screening found that little testing or 
other data exist that measures the performance of screeners in 
detecting threat objects. However, TSA is taking steps to collect data 
on the effectiveness of its security initiatives, including developing 
a 5-year performance plan detailing numerous performance measures, as 
well as implementing several efforts to collect performance data on the 
effectiveness of passenger screening-such as fielding the Threat Image 
Projection System and increasing screener testing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Source: FAA.

    TSA has developed a risk management approach to prioritize efforts, 
assess threats, and focus resources related to its aviation security 
initiatives as we previously recommended, but has not yet fully 
implemented this approach. A risk management approach is a systematic 
process to analyze threats, vulnerabilities, and the criticality (or 
relative importance) of assets to better support key decisions. TSA is 
developing and implementing both a criticality and a vulnerability 
assessment tool to provide a basis for risk-based decision-making. TSA 
is currently using some components of these tools and plans to fully 
implement its risk management approach by the summer 2004.
    TSA faces a number of programmatic and management challenges as it 
continues to enhance aviation security. These include the 
implementation of the new computer-assisted passenger prescreening 
system, as well as strengthening baggage screening, airport perimeter 
and access controls, air cargo, and general aviation security. TSA also 
must manage the costs associated with aviation security and address 
human capital challenges, such as sizing its workforce as efficiency is 
improved with security-enhancing technologies-including the integration 
of explosive detection systems into in-line baggage-handling systems. 
Further challenges in sizing its workforce may be encountered if 
airports are granted permission to opt out of using federal screeners.
                                 ______
                                 
 Prepared Statement of Cathleen A Berrick, Director, Homeland Security 
      and Justice Issues, United States General Accounting Office
    Mr. Chairman and Members of the Committee:

    I appreciate the opportunity to participate in today's hearing to 
discuss the security of our Nation's aviation system. It has been more 
than 2 years since the attacks of September 11, 2001, exposed 
vulnerabilities in commercial aviation. Since then, billions of dollars 
have been spent and a wide range of programs and initiatives have been 
implemented to enhance aviation security. However, recent reviews and 
covert testing conducted by GAO and Department of Homeland Security 
Office of Inspector General, as well as media reports, revealed 
continuing weaknesses and vulnerabilities in aviation security. For 
example, the recent incident involving a college student who placed box 
cutters, clay resembling plastic explosives, and bleach on commercial 
aircraft illustrated that aviation security can still be compromised. 
As a result of these challenges, the Transportation Security 
Administration (TSA), which is responsible for ensuring the security of 
aviation, is faced with the daunting task of determining how to 
allocate its limited resources to have the greatest impact in 
addressing threats and enhancing security.
    My testimony today focuses on three areas that are fundamental to 
TSA's success in allocating its resources and enhancing aviation 
security. These areas are: (1) the need to measure the effectiveness of 
TSA's aviation security initiatives that have already been implemented, 
particularly its passenger screening program; (2) the need to implement 
a risk management approach to prioritize efforts, assess threats, and 
focus resources; and (3) the need to address key programmatic and 
management challenges that must be overcome to further enhance aviation 
security. This testimony is based on our prior work, reviews of TSA 
documentation, and discussions with TSA officials.
    In summary:
    Although TSA has implemented numerous programs and initiatives to 
enhance aviation security, it has collected limited information on the 
effectiveness of these programs and initiatives. Our recent work on 
TSA's passenger screening program showed that although TSA has made 
numerous enhancements in passenger screening, it has collected limited 
information on how effective these enhancements have been in improving 
screeners' ability to detect threat objects. The Aviation and 
Transportation Security Act (ATSA), which was enacted with the primary 
goal of strengthening the security of the Nation's aviation system, 
requires that TSA establish acceptable levels of performance for 
aviation security initiatives and develop annual performance plans and 
reports to measure and document the effectiveness of those 
initiatives.\1\ Although TSA has developed an annual performance plan 
and report as required by ATSA, to date these tools have focused on 
TSA's progress in meeting deadlines to implement programs and 
initiatives mandated by ATSA, rather than on the effectiveness of these 
programs and initiatives. TSA has recognized that its data on the 
effectiveness of its aviation security initiatives are limited and is 
taking steps to collect objective data to assess its performance, which 
is to be incorporated in DHS's 5-year performance plan.
---------------------------------------------------------------------------
    \1\ P.L. 107-71.
---------------------------------------------------------------------------
    TSA has developed a risk management approach to prioritize efforts, 
assess threats, and focus resources related to its aviation security 
initiatives as recommended by GAO, but has not yet fully implemented 
this approach. TSA's aviation security efforts are varied and vast, and 
its resources are fixed. As a result, a risk management approach is 
needed to better support key decisions, linking resources with 
prioritized efforts.\2\ TSA has not yet fully implemented its risk 
management tools because until recently its resources and efforts were 
largely focused on meeting the aviation security mandates included in 
ATSA. TSA has acknowledged the need for a risk management approach and 
expects to complete the development and automation of its risk 
management tools by September 2004.
---------------------------------------------------------------------------
    \2\ A risk management approach is a systematic process to analyze 
threats, vulnerabilities, and the criticality (or relative importance) 
of assets to better support key decisions by linking resources with 
prioritized efforts.
---------------------------------------------------------------------------
    TSA faces a number of programmatic and management challenges as it 
continues to address threats to our Nation's aviation system. These 
challenges include implementing various aviation security programs, 
such as the Computer-Assisted Passenger Prescreening System \3\--CAPPS 
II--and addressing broader security concerns related to the security of 
air cargo and general aviation.\4\ TSA also faces challenges in 
managing the costs of aviation security and in strategically managing 
its workforce of about 60,000 people, most of whom are deployed at 
airports to detect weapons and explosives. TSA has been addressing 
these and other challenges through a variety of efforts. We have work 
in progress that is examining TSA's efforts in addressing many of these 
challenges.
---------------------------------------------------------------------------
    \3\ CAPPS II is a system intended to perform a risk assessment of 
all airline passengers to identify those requiring additional security 
attention.
    \4\ General aviation consists of all civil aircraft and excludes 
commercial and military aircraft.
---------------------------------------------------------------------------
Background
    Ensuring the security of our Nation's commercial aviation system 
has been a long-standing concern. As demonstrated by the 1988 bombing 
of a U.S. airliner over Lockerbie, Scotland, and the 1995 plot to blow 
up as many as 12 U.S. aircraft in the Pacific region discovered by 
Philippine authorities, U.S. aircraft have long been a target for 
terrorist attacks. Many efforts have been made to improve aviation 
security, but as we and others have documented in numerous reports and 
studies, weaknesses in the system continue to exist. It was these 
weaknesses that terrorist exploited to hijack four commercial aircraft 
in September 2001, with tragic results.
    On November 19, 2001, the President signed into law the Aviation 
and Transportation Security Act, with the primary goal of strengthening 
the security of the Nation's aviation system. ATSA created TSA as an 
agency within the Department of Transportation with responsibility for 
securing all modes of transportation, including aviation. ATSA mandated 
specific improvements to aviation security and established deadlines 
for completing many of them. TSA's main focus during its first year of 
operation was on meeting these ambitious deadlines, particularly 
federalizing the screener workforce at commercial airports nationwide 
by November 19, 2002, while at the same time establishing a new Federal 
organization from the ground up. The Homeland Security Act, signed into 
law on November 25, 2002, transferred TSA from the Department of 
Transportation to the new Department of Homeland Security.\5\
---------------------------------------------------------------------------
    \5\ P.L. No. 107-296.
---------------------------------------------------------------------------
    Virtually all aviation security responsibilities now reside with 
TSA, including the screening of air passengers and baggage, a function 
that had previously been the responsibility of air carriers. TSA is 
also responsible for ensuring the security of air cargo and overseeing 
security measures at airports to limit access to restricted areas, 
secure airport perimeters, and conduct background checks for airport 
personnel with access to secure areas, among other responsibilities.
Limited Information Exists on the Effectiveness of Aviation Security 
        Initiatives
    TSA has implemented numerous initiatives designed to enhance 
aviation security but has collected little information on the 
effectiveness of these initiatives. ATSA requires that TSA establish 
acceptable levels of performance and develop annual performance plans 
and reports to measure and document the effectiveness of its security 
initiatives.\6\ Although TSA has developed these performance tools, as 
required by ATSA, it currently focuses on progress toward meeting ATSA 
deadlines, rather than on the effectiveness of its programs and 
initiatives. However, TSA is taking steps to collect objective data to 
assess its performance.
---------------------------------------------------------------------------
    \6\ An annual performance plan is to provide the direct linkage 
between the strategic goals outlined in the agencies' strategic plan 
and the day-to-day activities of managers and staff. Additionally, 
annual performance plans are to include performance goals for an 
agency's program activities as listed in the budget, a summary of the 
necessary resources that will be used to measure performance, and a 
discussion of how the performance information will be verified. An 
annual performance report is to review and discuss an agency's 
performance compared with the performance goals it established in its 
annual performance plan.
---------------------------------------------------------------------------
Evaluation of Program Effectiveness
    TSA currently has limited information on the effectiveness of its 
aviation security initiatives. As we reported in September 2003,\7\ the 
primary source of information collected on screeners' ability to detect 
threat objects is the covert testing conducted by TSA's Office of 
Internal Affairs and Program Review. However, TSA does not consider the 
results of these covert tests to be a measure of performance but rather 
a ``snapshot'' of a screener's ability to detect threat objects at a 
particular point in time, and as a system-wide performance indicator. 
At the time we issued our report, the Office of Internal Affairs and 
Program Review had conducted 733 covert tests of passenger screeners at 
92 airports. Therefore, only about 1 percent of TSA's nearly 50,000 
screeners had been subject to a covert test.
---------------------------------------------------------------------------
    \7\ U.S. General Accounting Office, Airport Passenger Screening: 
Preliminary Observations on Progress Made and Challenges Remaining, 
GAO-03-1173 (Washington, D.C.: Sept. 24, 2003).
---------------------------------------------------------------------------
    In addition to conducting covert tests at screening checkpoints, 
TSA conducts tests to determine whether the current Computer-Assisted 
Passenger Screening System is working as designed, threat objects are 
detected during the screening of checked baggage, and access to 
restricted areas of the airport is limited only to authorized 
personnel.\8\ While the Office of Internal Affairs has conducted about 
2,000 access tests, it has conducted only 168 Computer-Assisted 
Passenger Screening System and checked baggage tests. Based on an 
anticipated increase in staff from about 100 in Fiscal Year 2003 to 200 
in Fiscal Year 2004, the Office of Internal Affairs and Program Review 
plans to conduct twice as many covert tests next year.\9\
---------------------------------------------------------------------------
    \8\ The original Computer Assisted Passenger Screening System is a 
stand-alone application residing in an air carrier's reservation system 
that analyzes certain behavioral patterns to score and calculate each 
passenger's need for additional screening.
    \9\ Currently, the Office of Internal Affairs and Program Review 
has 7 team leaders assigned full-time to covert testing and plans to 
have a total of 14 full-time team leaders by the end of December 2003. 
The team leaders draw from the remaining staff within the office, such 
as auditors and analysts, to perform the testing. According to TSA 
officials, overall, 95 percent of the staff in the Office of Internal 
Affairs and Program Review participate in covert testing as a 
collateral responsibility.
---------------------------------------------------------------------------
    Another key source of data on screener performance in detecting 
threat objects is the Threat Image Projection (TIP) system, which 
places images of threat objects on the X-ray screen during actual 
operations and records whether screeners identify the threat 
object.\10\ The Federal Aviation Administration began deploying TIP in 
late 1999 to continuously measure screener performance and to train 
screeners in becoming more adept at detecting hard-to-spot threat 
objects. However, TIP was shut down immediately following the September 
11 terrorist attacks because of concerns that it would result in 
screening delays and panic, as screeners might think that they were 
actually viewing a threat object. Although TSA officials recognized 
that TIP is a key tool in measuring, maintaining, and enhancing 
screener performance, they only recently began reactivating TIP on 
wide-scale basis because of competing priorities, a lack of training, 
and a lack of resources needed to deploy TIP activation teams. Once TIP 
is fully deployed and operational at every checkpoint at all airports, 
as it is expected to be in April 2004, TSA headquarters and Federal 
security directors \11\ will have the capability to analyze this 
performance data in a number of ways, including by individual 
screeners, checkpoints, terminals, and airports.
---------------------------------------------------------------------------
    \10\ TIP is designed to test screeners' detection capabilities by 
projecting threat images, including guns and explosives, into bags as 
they are screened. Screeners are responsible for positively identifying 
the threat image and calling for the bag to be searched. Once prompted, 
TIP identifies to the screener whether the threat is real and then 
records the screener's performance in a database that could be analyzed 
for performance trends.
    \11\ Federal security directors oversee security at each of the 
Nation's commercial airports.
---------------------------------------------------------------------------
    When fully deployed, the annual screener recertification test 
results will provide another source of data on screener performance. 
ATSA requires that TSA collect performance information on each screener 
through conducting an annual proficiency review to ensure he or she 
continues to meet all qualifications and standards required to perform 
the screening function. Although TSA began deploying Federal screeners 
to airports in April 2002, TSA only recently began implementing the 
annual recertification program and does not expect to complete testing 
at all airports until March 2004. The recertification testing is 
comprised of three components: (1) image recognition; (2) knowledge of 
standard operating procedures; and (3) practical demonstration of 
skills, to be administered by a contractor. TSA officials consider 
about 28,000 screeners as having already completed the first two 
components because they successfully passed competency tests TSA 
administered at many airports as part of a screener workforce reduction 
effort. However, these competency tests did not include the third 
component of TSA's planned annual screener recertification program--the 
practical demonstration of skills. TSA officials awarded a contract for 
this component of the annual proficiency reviews in September 2003.
    TSA's Performance Management Information System for passenger and 
baggage screening operations is designed to collect performance data, 
but it currently contains little information on screener performance in 
detecting threat objects. The Performance Management Information System 
collects a wide variety of metrics on workload, staffing, and equipment 
and is used to identify some performance indicators, such as the level 
of absenteeism, the average time for equipment repairs, and the status 
of TSA's efforts to meet goals for 100 percent electronic baggage 
screening.\12\ However, the system does not contain any performance 
metrics related to the effectiveness of passenger screeners. TSA is 
planning to integrate performance information from various systems into 
the Performance Management Information System to assist the agency in 
making strategic decisions. TSA further plans to continually enhance 
the system as it learns what data are needed to best manage the agency. 
In addition to making improvements to the Performance Management 
Information System, TSA is currently developing performance indexes for 
both individual screeners and the screening system as a whole. The 
screener performance index will be based on data such as the results of 
performance evaluations and recertification tests, and the index for 
the screening system will be based on information such as covert test 
results and screener effectiveness measures. TSA has not yet fully 
established its methodology for developing the indexes, but it expects 
to have the indexes developed by the end of Fiscal Year 2004.
---------------------------------------------------------------------------
    \12\ The Performance Management Information System also contains 
metrics on human resources, sizing, checkpoint, feedback, and 
incidents.
---------------------------------------------------------------------------
    In conjunction with measuring the performance of its passenger 
screening operations, TSA must also assess the performance of the five 
pilot airports that are currently using contract screeners to determine 
the feasibility of using private screening companies instead of Federal 
screeners.\13\ Although ATSA allows airports to apply to opt out of 
using Federal screeners beginning in November 2004, TSA has not yet 
determined how to evaluate and measure the performance of the pilot 
program. In early October 2003, TSA awarded a contract to BearingPoint, 
Inc., to compare the performance of pilot screening with Federal 
screening, including the overall strengths and weaknesses of both 
systems, and determine the reasons for any differences.\14\ The 
evaluation is scheduled to be completed by March 31, 2004.\15\ TSA has 
acknowledged that designing an effective evaluation of the screeners at 
the pilot airports will be challenging because key operational areas, 
including training, assessment, compensation, and equipment, have to a 
large extent been held constant across all airports, and therefore are 
not within the control of the private screening companies.\16\ In its 
request for proposal for the pilot airport evaluation, TSA identified 
several data sources for the evaluation, including the Performance 
Management Information System and the Office of Internal Affairs and 
Program Review's covert testing of passenger screeners. However, as we 
recently reported, data from both of these systems in measuring the 
effectiveness of screening operations is limited. As a result, it will 
be a challenge for TSA to effectively compare the performance of the 
contract pilot airports with the performance of airports using Federal 
screeners.
---------------------------------------------------------------------------
    \13\ ATSA requires TSA to implement a pilot program using contract 
screeners at five commercial airports--one in each of the five airport 
categories. The purpose of the pilot program is to determine the 
feasibility of using private screening companies rather than Federal 
screeners.
    \14\ According to the August 8, 2003, request for quotation for the 
evaluation of the contract screening pilot program, BearingPoint must 
include informed performance comparisons, both quantitative and 
qualitative, of private versus Federal screeners overall and within 
different sizes and categories of airports.
    \15\ Based on the time frames established in the request for 
quotation, BearingPoint, Inc. is required to develop a project plan and 
evaluation model no later than December 12, 2003.
    \16\ TSA's request for proposal for the pilot program evaluation 
notes that there are a significant number of operational and managerial 
elements at the discretion of the private screening companies that 
should be considered in the evaluation, including supervision, 
overhead, materials, recruiting, and scheduling.
---------------------------------------------------------------------------
TSA Is Developing Performance Evaluation Tools
    TSA has recognized the need to strengthen the assessment of its 
performance, and has initiated efforts to develop and implement 
strategic and performance plans to clarify goals, establish performance 
measures, and measure the performance of its security initiatives. 
Strategic plans are the starting point for an agency's planning and 
performance measurement efforts. Strategic plans include a 
comprehensive mission statement based on the agency's statutory 
requirements, a set of outcome-related strategic goals, and a 
description of how the agency intends to achieve these goals. The 
Government Performance and Results Act (GPRA)\17\ establishes a 
framework for strategic plans that requires agencies to
---------------------------------------------------------------------------
    \17\ The Government Performance and Results Act of 1993 shifts the 
focus of government operations from process to results by establishing 
a foundation for examining agency mission, performance goals and 
objectives, and results. Under the Act, agencies are to prepare 5-year 
strategic plans that set the general direction for their efforts, and 
annual performance plans that establish connections between the long-
term strategic goals outlined in the strategic plans and the day-to-day 
activities of managers and staff. Finally, the Act requires that each 
agency report annually on the extent to which it is meeting its annual 
performance goals and the actions needed to achieve or modify those 
goals that have not been met.

  <bullet> clearly establish results-oriented performance goals in 
        strategic and annual performance plans for which they will be 
---------------------------------------------------------------------------
        held accountable,

  <bullet> measure progress toward achieving those goals,

  <bullet> determine the strategies and resources to effectively 
        accomplish the goals,

  <bullet> use performance information to make programmatic decisions 
        necessary to improve performance, and

  <bullet> formally communicate results in performance reports.

    Although the Department of Homeland Security plans to issue one 
strategic plan for the Department, it plans to incorporate strategic 
planning efforts from each of its component agencies. TSA recently 
completed a draft of its input into the Department of Homeland 
Security's strategic plan. TSA officials stated that the draft is 
designed to ensure their security initiatives are aligned with the 
agency's goals and objectives, and that these initiatives represent the 
most efficient use of their resources. TSA officials submitted the 
draft plan to stakeholders in September 2003 for their review and 
comment. The Department of Homeland Security plans to issue its 
strategic plan by the end of the year.\18\
---------------------------------------------------------------------------
    \18\ TSA is also developing a National Transportation Security 
System Plan, a draft of which is currently under review within TSA. TSA 
plans to promote consistent and mutually supporting intermodal planning 
in cooperation with administrators and in collaboration with key 
stakeholders from all modes of transportation. TSA designed the plan 
for use by agencies, owners, and operators of the transportation system 
to guide them as they develop their individual security plans. 
Accordingly, the National Transportation System Security Plan will 
include national modal plans to capture and tailor transportation 
security requirements for each mode of transportation, with particular 
emphasis on intermodal connections. Each modal plan will focus on 
security for people (workforce and passengers), cargo (baggage and 
shipments), infrastructure (vehicles, facilities, and right of ways), 
and response preparedness.
---------------------------------------------------------------------------
    In addition to developing a strategic plan, TSA is developing a 
performance plan to help it evaluate the current effectiveness and 
levels of improvement in its programs, based on established performance 
measures. TSA submitted to the Congress a short-term performance plan 
in May 2003, as required by ATSA, that included performance goals and 
objectives. The plan also included an initial set of 32 performance 
measures, including the percentage of bags screened by explosive 
detection systems and the percentage of screeners in compliance with 
training standards. However, these measures were primarily output-based 
(measuring whether specific activities were achieved) and did not 
measure the effectiveness of TSA's security initiatives. TSA officials 
acknowledge that the goals and measures included in the report were 
narrowly focused, and that in moving forward additional performance-
based measures are needed.
    In addition to developing a short-term performance plan, ATSA also 
requires that TSA develop a 5-year performance plan and annual 
performance report, including an evaluation of the extent to which its 
goals and objectives were met. TSA is currently developing performance 
goals and measures as part of its annual planning process and will 
collect baseline data throughout Fiscal Year 2004 to serve as a 
foundation for its performance targets. TSA also plans to increase its 
focus on measuring the effectiveness of various aspects of the aviation 
security system in its 5-year performance plan. According to TSA's 
current draft strategic plan, which outlines its overall goals and 
strategies for Fiscal Years 2003 through 2008, its efforts to measure 
the effectiveness of the aviation security system will include

  <bullet> random and scheduled reviews of the efficiency and 
        effectiveness of security processes;

  <bullet> oversight of compliance with security standards and approved 
        programs through a combination of inspections, testing, 
        interviews, and record reviews--to include TIP;

  <bullet> measurement of performance against standards to ensure 
        expected standards are met and to drive process improvements; 
        and

  <bullet> collection and communication of performance data using a 
        state-of-the-art data collection and reporting system.

    In our January 2003 report on TSA's actions and plans to build a 
results-oriented culture, we recommended next steps that TSA should 
take to strengthen its strategic planning efforts.\19\ These steps 
include establishing security performance goals and measures for all 
modes of transportation that involves stakeholders, and applying 
practices that have been shown to provide useful information in agency 
performance plans. We also identified practices that TSA can apply to 
ensure the usefulness of its required 5-year performance plan to TSA 
managers, the Congress, and other decision makers or interested 
parties. Table 1 outlines the practices we identified for TSA.
---------------------------------------------------------------------------
    \19\ U.S. General Accounting Office, Transportation Security 
Administration: Actions and Plans to Build a Results-Oriented Culture, 
GAO-03-190 (Washington, D.C.: Jan. 17, 2003).

 
 
------------------------------------------------------------------------
 


  Table 1.--Summary of Opportunities to Help Ensure Useful Annual Plans
                          and Applied Practices
------------------------------------------------------------------------
   Opportunities to help
 ensure useful annual plans               Applied practices
------------------------------------------------------------------------
Articulate a results          1. Create a set of performance goals and
 orientation                  measures that addresses important
                              dimensions of program performance and
                              balances competing priorities.
                              2. Use intermediate goals and measures to
                              show progress or contribution to intended
                              results.
                              3. Include explanatory information on the
                              goals and measures.
                              4. Develop performance goals to address
                              mission-critical management problems.
                              5. Show baseline and trend data for past
                              performance.
                              5. 6. Identify projected target levels of
                              performance for multiyear goals.
                              7. Link the goals of component
                              organizations to departmental strategic
                              goals.
------------------------------------------------------------------------
Coordinate cross-cutting      8. Identify programs that contribute to
 programs                     the same or similar results.
                              9. Set complementary performance goals to
                              show how differing program strategies are
                              mutually reinforcing and establish common
                              or complementary performance measures, as
                              appropriate.
                             10. Describe--briefly or refer to a
                              separate document--planned coordination
                              strategies.
------------------------------------------------------------------------
Show how strategies will be  11. Link strategies and programs to
 used to achieve goals        specific performance goals and describe
                              how they will contribute to the
                              achievement of those goals.
                             12. Describe strategies to leverage or
                              mitigate the effects of external factors
                              on the accomplishment of performance
                              goals.
                             13. Discuss strategies to resolve mission-
                              critical management problems.
                             14. Discuss--briefly or refer to a separate
                              plan--plans to ensure that mission-
                              critical processes and information systems
                              function properly and are secure.
------------------------------------------------------------------------
Show performance             15. Show how budgetary resources relate to
 consequences of budget and   the achievement of performance goals.
 other resource decisions    16. Discuss--briefly and refer to the
                              agency capital plan--how proposed capital
                              assets (specifically information
                              technology investments) will contribute to
                              achieving performance goals.
                             17. Discuss--briefly or refer to a separate
                              plan--how the agency will use its human
                              capital.
------------------------------------------------------------------------
Build the capacity to        18. Identify internal and external sources
 gather and use performance   of data.
 information                 19. Describe efforts to verify and validate
                              performance data.
                             20. Identify actions to compensate for
                              unavailable or low-quality data.
                             21. Discuss implications of data
                              limitations for assessing performance.
------------------------------------------------------------------------
Source: GAO.

    TSA agreed with our recommendation and plans to incorporate these 
principles into the data it provides DHS for the department's 5-year 
performance plan and annual performance report. DHS plans to complete 
its 5-year performance plan and annual performance report by February 
2004, as required by GPRA.
    The Congress has also recognized the need for TSA to collect 
performance data and, as part of the Federal Aviation Administration's 
(FAA) reauthorization act--Vision 100: Century of Aviation 
Reauthorization Act--is currently considering a provision that would 
require the Secretary of the Department of Homeland Security to conduct 
a study of the effectiveness of the aviation security system.
Risk Management Approach Needed To Focus Security Efforts
    As TSA moves forward in addressing aviation security concerns, it 
needs adequate tools to ensure that its efforts are appropriately 
focused, strategically sound, and achieving expected results. Because 
of limited funding, TSA needs to set priorities so that its resources 
can be focused and directed to those aviation security enhancements 
most in need of implementation. In recent years, we have consistently 
advocated the use of a risk management approach to respond to various 
national security and terrorism challenges, and have recommended that 
TSA apply this approach to strengthen security in aviation as well as 
in other modes of transportation.\20\ TSA agreed with our 
recommendation and is adopting a risk management approach.
---------------------------------------------------------------------------
    \20\ U.S. General Accounting Office, Homeland Security: A Risk 
Management Approach Can Guide Preparedness Efforts, GAO-02-208T 
(Washington, D.C.: Oct. 31, 2001); and GAO-03-344.
---------------------------------------------------------------------------
    Risk management is a systematic and analytical process to consider 
the likelihood that a threat will endanger an asset, an individual, or 
a function and to identify actions to reduce the risk and mitigate the 
consequences of an attack. Risk management principles acknowledge that 
while risk cannot be eliminated, enhancing protection from existing or 
potential threats can help reduce it. Accordingly, a risk management 
approach is a systematic process to analyze threats, vulnerabilities, 
and the criticality (or relative importance) of assets to better 
support key decisions. The purpose of this approach is to link 
resources with efforts that are of the highest priority. Figure 1 
describes the risk management approach.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO.
    Figure 2 illustrates how the risk management approach can guide 
decision making and shows that the highest risks and priorities emerge 
where the three elements of risk management overlap.

    Source: GAO.

    For example, an airport that is determined to be a critical asset, 
vulnerable to attack, and a likely target would be at most risk and 
therefore would be a higher priority for funding compared with an 
airport that is only vulnerable to attack. In this vein, aviation 
security measures shown to reduce the risk to the most critical assets 
would provide the greatest protection for the cost.
    Over the past several years, we have concluded that comprehensive 
threat, vulnerability, and criticality assessments are key in better 
preparing against terrorist attacks, and we have recommended that TSA 
apply this risk management approach to strengthen security in aviation. 
TSA agreed with our recommendation and is adopting a risk management 
approach in an attempt to enhance security across all modes of 
transportation. According to TSA officials, once established, risk 
management principles will drive all decisions--from standard setting 
to funding priorities to staffing. TSA has not yet fully implemented 
its risk management approach, but it has taken steps in this direction. 
Specifically, TSA's Office of Threat Assessment and Risk Management is 
developing four assessment tools that will help assess threats, 
criticality, and vulnerabilities. Figure 3 illustrates TSA's threat 
assessment and risk management approach.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: TSA.

    The first tool, which will assess criticality, will determine a 
criticality score for a facility or transportation asset by 
incorporating factors such as the number of fatalities that could occur 
during an attack and the economic and sociopolitical importance of the 
facility or asset. This score will enable TSA, in conjunction with 
transportation stakeholders, to rank facilities and assets within each 
mode and thus focus resources on those that are deemed most important. 
TSA is working with another Department of Homeland Security office--the 
Information and Analysis Protection Directorate--to ensure that the 
criticality tool will be consistent with the Department's overall 
approach for managing critical infrastructure.
    A second tool--the Transportation Risk Assessment and Vulnerability 
Tool (TRAVEL)--will assess threats and analyze vulnerabilities at those 
transportation assets TSA determines to be nationally critical. The 
tool will be used in a TSA-led and facilitated assessment that will be 
conducted on the site of the transportation asset.\21\ Specifically, 
the tool will assess an asset's baseline security system and that 
system's effectiveness in detecting, deterring, and preventing various 
threat scenarios, and it will produce a relative risk score for 
potential attacks against a transportation asset or facility. In 
addition, TRAVEL will include a cost-benefit component that compares 
the cost of implementing a given countermeasure with the reduction in 
relative risk to that countermeasure. TSA is working with economists to 
develop the cost-benefit component of this model and with the TSA 
Intelligence Service to develop relevant threat scenarios for 
transportation assets and facilities. According to TSA officials, a 
standard threat and vulnerability assessment tool is needed so that TSA 
can identify and compare threats and vulnerabilities across 
transportation modes. If different methodologies are used in assessing 
the threats and vulnerabilities, comparisons could be problematic. 
However, a standard assessment tool would ensure consistent 
methodology.
---------------------------------------------------------------------------
    \21\ A vulnerability assessment using the TRAVEL tool requires the 
participation of TSA subject matter experts along with representatives 
from the transportation asset. Operations management, facilities 
management, security personnel, and law enforcement agents are examples 
of the individuals involved in analyzing each threat scenario and 
corresponding security system.
---------------------------------------------------------------------------
    A third tool--the Transportation Self-Assessment Risk Module 
(TSARM)--will be used to assess and analyze vulnerabilities for assets 
that the criticality assessment determines to be less critical. The 
self-assessment tool included in TSARM will guide a user through a 
series of security-related questions in order to develop a 
comprehensive security baseline of a transportation entity and will 
provide mitigating strategies for when the threat level increases. For 
example, as the threat level increases from yellow to orange, as 
determined by the Department of Homeland Security, the assessment tool 
might advise an entity to take increased security measures, such as 
erecting barriers and closing selected entrances. TSA had deployed one 
self-assessment module in support of targeted maritime vessel and 
facility categories.\22\
---------------------------------------------------------------------------
    \22\ TSA's Maritime Self-Assessment Risk Module was developed in 
response to requirements outlined in the Maritime Transportation 
Security Act of 2002. The Act mandates that any facility or vessel that 
the Secretary believes might be involved in a transportation security 
incident will be subject to a vulnerability assessment and must submit 
a security plan to the United States Coast Guard by January 1, 2004.
---------------------------------------------------------------------------
    The fourth risk management tool that TSA is currently developing is 
the TSA Vulnerability Assessment Management System (TVAMS). TVAMS is 
TSA's intended repository of criticality, threat, and vulnerability 
assessment data. TVAMS will maintain the results of all vulnerability 
assessments across all modes of transportation. This repository will 
provide TSA with data analysis and reporting capabilities. TVAMS is 
currently in the conceptual stage and requirements are still being 
gathered.
    TSA is now using components of these risk management tools and is 
automating others so that the components can be used remotely by 
stakeholders, such as small airports, to assess their risks. For 
example, according to TSA officials, TSA has conducted assessments at 9 
of 443 commercial airports using components of its TRAVEL tool. Three 
of these assessments were conducted at category X airports (the largest 
and busiest airports), and the remaining 6 assessments were conducted 
at airports in lower categories. TSA plans to conduct approximately 100 
additional assessments of commercial airports in 2004 using TRAVEL and 
plans to begin compiling data on security vulnerability trends in 2005. 
Additionally, TSA plans to fully implement and automate its risk 
management approach by September 2004.
TSA Faces Additional Programmatic And Management Challenges
    In addition to collecting performance data and implementing a risk 
management approach, TSA faces a number of other programmatic and 
management challenges in strengthening aviation security. These 
challenges include implementing the new Computer-Assisted Passenger 
Prescreening System; strengthening baggage screening, airport perimeter 
and access controls, air cargo, and general aviation security; managing 
the costs of aviation security initiatives; and managing human capital. 
TSA has been addressing these challenges through a variety of efforts. 
We have work in progress that is examining TSA's efforts in most of 
these areas, and we will be reporting on TSA's progress in the future.
Computer-Assisted Passenger Prescreening System (CAPPS II)
    ATSA authorized TSA to develop a new Computer-Assisted Passenger 
Prescreening System, or CAPPS II. This system is intended to replace 
the current Computer-Assisted Passenger Screening program, which was 
developed in the mid-1990s by the Federal Aviation Administration to 
enable air carriers to identify passengers requiring additional 
security attention. The current system is maintained as a part of the 
airlines' reservation systems and, operating under Federal guidelines, 
uses a number of behavioral characteristics to select passengers for 
additional screening.
    In the wake of the September 11, 2001, terrorist attacks, a number 
of weaknesses in the current prescreening program were exposed. For 
example, although the characteristics used to identify passengers for 
additional screening are classified, several have become public 
knowledge through the press or on the Internet. Although enhancements 
have been made to address some of these weaknesses, the behavioral 
traits used in the system may not reflect current intelligence 
information. It is also difficult to quickly modify the system to 
respond to real-time changes in threats. Additionally, because the 
current system operates independently within each air carrier 
reservation system, changes to each air carrier's system to modify the 
prescreening system can be costly and time-consuming.
    In contrast, CAPPS II is planned to be a government-run program 
that will provide real-time risk assessment for all airline passengers. 
Unlike the current system, TSA is designing CAPPS II to identify and 
compare personal information with commercially available data to 
confirm a passenger's identity. The system will then run the 
identifying information against government databases and generate a 
``risk'' score for the passenger. The risk score will determine the 
level of screening that the passenger will undergo before boarding. TSA 
currently estimates that initial implementation of CAPPS II will occur 
during the fall of 2004, with full implementation expected by the fall 
of 2005.
    TSA faces a number of challenges that could impede their ability to 
implement CAPPS II. Among the most significant are the following:

  <bullet> concerns about travelers' privacy rights and the safeguards 
        established to protect passenger data;

  <bullet> the accuracy of the databases being used by the CAPPS II 
        system and whether inaccuracies could generate a high number of 
        false positives and erroneously prevent or delay passengers 
        from boarding their flights;

  <bullet> the length of time that data will be retained by TSA;

  <bullet> the availability of a redress process through which 
        passengers could get erroneous information corrected;

  <bullet> concerns that identify theft, in which someone steals 
        relevant data and impersonates another individual to obtain 
        that person's low risk score, may not be detected and thereby 
        negate the security benefits of the system; and

  <bullet> obtaining the international cooperation needed for CAPPS II 
        to be fully effective, as some countries consider the passenger 
        information required by CAPPS II as a potential violation of 
        their privacy laws.

    We are currently assessing these and other challenges in the 
development and implementation of the CAPPS II system and expect to 
issue a final report on our work in early 2004.
Checked Baggage Screening
    Checked baggage represents a significant security concern, as 
explosive devices in baggage can, and have, been placed in aircraft 
holds. ATSA required screening of all checked baggage on commercial 
aircraft by December 31, 2002, using explosive detection systems to 
electronically scan baggage for explosives. According to TSA, 
electronic screening can be accomplished by bulk explosives detection 
systems (EDS)\23\ or Explosives Trace Detection (ETD) systems.\24\ 
However, TSA faced challenges in meeting the mandated implementation 
date. First, the production capabilities of EDS manufacturers were 
insufficient to produce the number of units needed. Additionally, 
according to TSA, it was not possible to undertake all of the airport 
modifications necessary to accommodate the EDS equipment in each 
airport's baggage handling area. In order to ensure that all checked 
baggage is screened, TSA established a program that uses alternative 
measures, including explosives sniffing dogs, positive passenger bag 
match,\25\ and physical hand searches at airports where sufficient EDS 
or ETD technology is not available. TSA was granted an extension for 
screening all checked baggage electronically, using explosives 
detection systems, until December 31, 2003.
---------------------------------------------------------------------------
    \23\ Explosives detection systems use probing radiation to examine 
objects inside baggage and identify the characteristic signatures of 
threat explosives. EDS equipment operates in an automated mode.
    \24\ Explosive trace detection works by detecting vapors and 
residues of explosives. Human operators collect samples by rubbing bags 
with swabs, which are chemically analyzed to identify any traces of 
explosive materials.
    \25\ Positive passenger bag match is an alternative method of 
screening checked baggage, which requires that the passenger be on the 
same aircraft as the checked baggage.
---------------------------------------------------------------------------
    Although TSA has made progress in implementing EDS technology at 
more airports, it has reported that it will not meet the revised 
mandate for 100 percent electronic screening of all checked baggage. 
Specifically, as of October 2003, TSA reported that it will not meet 
the deadline for electronic screening by December 31, 2003, at five 
airports. Airport representatives with whom we spoke expressed concern 
that there has not been enough time to produce, install, and integrate 
all of the systems required to meet the deadline.
    In addition to fielding the EDS systems at airports, difficulties 
exist in integrating these systems into airport baggage handling 
systems. For those airports that have installed EDS equipment, many 
have been located in airport lobbies as stand-alone systems. The chief 
drawback of stand-alone systems is that because of their size and 
weight there is a limit to the number of units that can be placed in 
airport lobbies, and numerous screeners are required to handle the 
checked bags because each bag must be physically conveyed to the EDS 
machines and then moved back to the conveyor system for transport to 
the baggage handling room in the air terminal. Some airports are in the 
process of integrating the EDS equipment in-line with the conveyor 
belts that transport baggage from the ticket counter to the baggage 
handling area; however, the reconfiguring of airports for in-line 
checked baggage screening can be extensive and costly.\26\ TSA has 
reported that in-line EDS equipment installation costs range from $1 
million to $3 million per piece of equipment. In February 2003, we 
identified letters of intent \27\ as a funding option that has been 
successfully used to leverage private sources of funding.\28\ TSA has 
since written letters of intent covering seven airports promising 
multiyear financial support totaling over $770 million for in-line 
integration of EDS equipment.\29\ Further, TSA officials have stated 
that they have identified 25 to 35 airports as candidates for further 
letters of intent pending Congressional authorization of funding. We 
are examining TSA's baggage screening program, including its issuance 
of letters of intent, in an ongoing assignment.
---------------------------------------------------------------------------
    \26\ In-line screening involves incorporating EDS machines into 
airport baggage handling systems to improve throughput of baggage and 
to streamline airport operations.
    \27\ A letter of intent represents a nonbinding commitment from an 
agency to provide multiyear funding to an entity beyond the current 
authorization period. Thus, that letter allows an airport to proceed 
with a project without waiting for future Federal funds because the 
airport and investors know that allowable costs are likely to be 
reimbursed.
    \28\ U.S. General Accounting Office, Airport Finance: Past Funding 
Levels May Not Be Sufficient to Cover Airports' Planned Capital 
Development, GAO-03-497T (Washington, D.C.: Feb. 25, 2003).
    \29\ The seven airports include Denver International Airport, Las 
Vegas McCarran International Airport, Los Angeles International 
Airport, Ontario International Airport, Seattle/Tacoma International 
Airport, Dallas/Fort Worth International Airport, and Boston Logan 
International Airport. The purpose is to help defray the costs of 
installing permanent explosive detection systems that are integrated 
with airports' checked baggage conveyor systems.
---------------------------------------------------------------------------
Perimeter and Access Controls
    Prior to September 2001, work performed by GAO, and others, 
highlighted the vulnerabilities in controls for limiting access to 
secure airport areas. In one report, we noted that GAO special agents 
were able to use fictitious law enforcement badges and credentials to 
gain access to secure areas, bypass security checkpoints, and walk 
unescorted to aircraft departure gates.\30\ The agents, who had been 
issued tickets and boarding passes, could have carried weapons, 
explosives, or other dangerous objects onto aircraft. Concerns over the 
adequacy of the vetting process for airport workers who have unescorted 
access to secure airport areas have also arisen, in part, as a result 
of Federal agency airport security sweeps that uncovered hundreds of 
instances in which airport workers lied about their criminal history, 
or immigration status, or provided false or inaccurate Social Security 
numbers on their application for security clearances to obtain 
employment.
---------------------------------------------------------------------------
    \30\ U.S. General Accounting Office, Security: Breaches at Federal 
Agencies and Airports, GAO/T-OSI-00-10 (Washington, D.C.: May 25, 
2000).
---------------------------------------------------------------------------
    ATSA contains provisions to improve perimeter access security at 
the Nation's airports and strengthen background checks for employees 
working in secure airport areas, and TSA has made some progress in this 
area. For example, Federal mandates were issued to strengthen airport 
perimeter security by limiting the number of airport access points, and 
they require random screening of individuals, vehicles, and property 
before entry at the remaining perimeter access points. Further, TSA 
made criminal history checks mandatory for employees with access to 
secure or sterile airport areas. To date, TSA has conducted 
approximately 1 million of these checks. TSA also has plans to develop 
a pilot airport security program and is reviewing security technologies 
in the areas of biometrics access control identification systems (i.e., 
fingerprints or iris scans), anti-piggybacking technologies (to prevent 
more than one employee from entering a secure area at a time), and 
video monitoring systems for perimeter security. TSA solicited 
commercial airport participation in the program. It is currently 
reviewing information from interested airports and plans to select 20 
airports for the program.
    Although progress has been made, challenges remain with perimeter 
security and access controls at commercial airports. Specifically, ATSA 
contains numerous requirements for strengthening perimeter security and 
access controls, some of which contained deadlines, which TSA is 
working to meet. In addition, a significant concern is the possibility 
of terrorists using shoulder-fired portable missiles from locations 
near the airport. We reported in June 2003 that airport operators have 
increased their patrols of airport perimeters since September 2001, but 
industry officials stated that they do not have enough resources to 
completely protect against missile attacks.\31\ A number of 
technologies could be used to secure and monitor airport perimeters, 
including barriers, motion sensors, and closed-circuit television. 
Airport representatives have cautioned that as security enhancements 
are made to airport perimeters, it will be important for TSA to 
coordinate with the Federal Aviation Administration and the airport 
operators to ensure that any enhancements do not pose safety risks for 
aircraft. To further examine these threats and challenges, we have 
ongoing work assessing TSA's progress in meeting ATSA provisions 
related to improving perimeter security, access controls, and 
background checks for airport employees and other individuals with 
access to secure areas of the airport, as well as the nature and extent 
of the threat from shoulder-fired missiles.
---------------------------------------------------------------------------
    \31\ U.S. General Accounting Office, Transportation Security: 
Federal Action Needed to Help Address Security Challenges, GAO-03-843 
(Washington, D.C.: June 30, 2003).
---------------------------------------------------------------------------
Air Cargo Security
    As we and the Department of Transportation's Inspector General have 
reported, vulnerabilities exist in ensuring the security of cargo 
carried aboard commercial passenger and all-cargo aircraft. TSA has 
reported that an estimated 12.5 million tons of cargo are transported 
each year--9.7 million tons on all-cargo planes and 2.8 million tons on 
passenger planes. Potential security risks are associated with the 
transport of air cargo--including the introduction of undetected 
explosive and incendiary devices in cargo placed aboard aircraft. To 
reduce these risks, ATSA requires that all cargo carried aboard 
commercial passenger aircraft be screened and that TSA have a system in 
place as soon as practicable to screen, inspect, or otherwise ensure 
the security of cargo on all-cargo aircraft. Despite these 
requirements, it has been reported that less than 5 percent of cargo 
placed on passenger airplanes is physically screened.\32\ TSA's primary 
approach to ensuring air cargo security and safety is to ensure 
compliance with the ``known shipper'' program--which allows shippers 
that have established business histories with air carriers or freight 
forwarders to ship cargo on planes. However, we and the Department of 
Transportation's Inspector General have identified weaknesses in the 
known shipper program and in TSA's procedures for approving freight 
forwarders, such as possible tampering with freight at various handoff 
points before it is loaded into an aircraft.\33\
---------------------------------------------------------------------------
    \32\ Congressional Research Service, Air Cargo Security, September 
11, 2003.
    \33\ U.S. General Accounting Office, Aviation Security: 
Vulnerabilities and Potential Improvements for the Air Cargo System, 
GAO-03-344 (Washington, D.C.: Dec. 20, 2002).
---------------------------------------------------------------------------
    Since September 2001, TSA has taken a number of actions to enhance 
cargo security, such as implementing a database of known shippers in 
October 2002. The database is the first phase in developing a cargo 
profiling system similar to the Computer-Assisted Passenger 
Prescreening System. However, in December 2002, we reported that 
additional operational and technological measures, such as checking the 
identity of individuals making cargo deliveries, have the potential to 
improve air cargo security in the near term.\34\ We further reported 
that TSA lacks a comprehensive plan with long-term goals and 
performance targets for cargo security, time frames for completing 
security improvements, and risk-based criteria for prioritizing actions 
to achieve those goals. Accordingly, we recommended that TSA develop a 
comprehensive plan for air cargo security that incorporates a risk 
management approach, includes a list of security priorities, and sets 
deadlines for completing actions. TSA agreed with this recommendation 
and expects to develop such a plan by the end of 2003. It will be 
important that this plan include a timetable for implementation to help 
ensure that vulnerabilities in this area are reduced.
---------------------------------------------------------------------------
    \34\ See footnote 33.
---------------------------------------------------------------------------
General Aviation Security
    Since September 2001, TSA has taken limited action to improve 
general aviation security, leaving general aviation far more open and 
potentially vulnerable than commercial aviation. General aviation is 
vulnerable because general aviation pilots and passengers are not 
screened before takeoff and the contents of general aviation planes are 
not screened at any point. General aviation includes more than 200,000 
privately owned airplanes, which are located in every state at more 
than 19,000 airports.\35\ More than 550 of these airports also provide 
commercial service. In the last 5 years, about 70 aircraft have been 
stolen from general aviation airports, indicating a potential weakness 
that could be exploited by terrorists. This vulnerability was 
demonstrated in January 2002, when a teenage flight student stole and 
crashed a single-engine airplane into a Tampa, Florida skyscraper. 
Moreover, general aviation aircraft could be used in other types of 
terrorist acts. It was reported that the September 11th hijackers 
researched the use of crop dusters to spread biological or chemical 
agents.
---------------------------------------------------------------------------
    \35\ Of the 19,000 general aviation airports, 5,400 are publicly 
owned. TSA is currently focusing its efforts on these publicly owned 
airports. TSA is still unclear about its role in inspecting privately 
owned general aviation airports.
---------------------------------------------------------------------------
    We reported in September 2003 that TSA chartered a working group on 
general aviation within the existing Aviation Security Advisory 
Committee.\36\ The working group consists of industry stakeholders and 
is designed to identify and recommend actions to close potential 
security gaps in general aviation. On October 1, 2003, the working 
group issued a report that included a number of recommendations for 
general aviation airport operators' voluntary use in evaluating 
airports' security requirements. These recommendations are both broad 
in scope and generic in their application, with the intent that every 
general aviation airport and landing facility operators may use them to 
evaluate that facility's physical security, procedures, infrastructure, 
and resources. TSA is taking some additional action to strengthen 
security at general aviation airports, including developing a risk-
based self-assessment tool for general aviation airports to use in 
identifying security concerns. We have ongoing work that is examining 
general aviation security in further detail.
---------------------------------------------------------------------------
    \36\ U.S. General Accounting Office, Aviation Security: Progress 
since September 11th, and the Challenges Ahead, GAO-03-1150T 
(Washington, D.C.: September 9, 2003).
---------------------------------------------------------------------------
Aviation Security Funding
    TSA faces two key funding and accountability challenges in securing 
the commercial aviation system: (1) paying for increased aviation 
security and (2) ensuring that these costs are controlled. The costs 
associated with the equipment and personnel needed to screen passengers 
and their baggage alone are huge. The Department of Homeland Security 
appropriation includes $3.7 billion for aviation security for Fiscal 
Year 2004, with about $1.8 billion for passenger screening and $1.3 
billion for baggage screening. ATSA created a passenger security fee to 
pay for the costs of aviation security, but the fee has not generated 
enough money to do so. The Department of Transportation's Inspector 
General reported that the security fees are estimated to generate only 
about $1.7 billion during Fiscal Year 2004.
    A major funding challenge is paying for the purchase and 
installation of the remaining explosives detection systems, including 
integration into airport baggage-handling systems. Integrating the 
equipment with the baggage-handling systems is expected to be costly 
because it will require major facility modifications. For example, 
modifications needed to integrate the equipment at Boston's Logan 
International Airport are estimated to cost $146 million. Modifications 
for Dallas/Fort Worth International Airport are estimated to cost $193 
million. According to TSA and the Department of Transportation's 
Inspector General, the cost of integrating the equipment nationwide 
could be $3 billion.
    A key question that must be addressed is how to pay for these 
installation costs. The Federal Aviation Administration's Airport 
Improvement Program (AIP) and passenger facility charges have been 
eligible sources for funding this work.\37\ During Fiscal Year 2002, 
AIP grant funds totaling $561 million were used for terminal 
modifications to enhance security. However, using these funds for 
security reduced the funding available for other airport development 
and rehabilitation projects. To provide financial assistance to 
airports for security-related capital investments, such as the 
installation of explosives detection equipment, proposed aviation 
reauthorization legislation would establish an aviation security 
capital fund that would authorize $2 billion over the next 4 years. The 
funding would be made available to airports in letters of intent, and 
large and medium hub airports would be expected to provide a match of 
10 percent of a project's costs. A 5 percent match would be required 
for all other airports.
---------------------------------------------------------------------------
    \37\ The Airport Improvement Program trust fund is used to fund 
capital improvements to airports, including some security enhancements, 
such as terminal modifications to accommodate explosive detection 
equipment.
---------------------------------------------------------------------------
    In February 2003, we identified letters of intent as a funding 
option that has been successfully used to leverage private sources of 
funding.\38\ TSA has since signed letters of intent covering seven 
airports--Boston Logan, Dallas/Fort Worth, Denver, Los Angeles, 
McCarran (Las Vegas), Ontario (California), and Seattle/Tacoma 
international airports. Under the agreements, TSA will pay 75 percent 
of the cost of integrating the explosives detection equipment into the 
baggage-handling systems. The payments will stretch out over 3 to 4 
years. TSA officials have identified more airports that would be 
candidates for similar agreements.
---------------------------------------------------------------------------
    \38\ U.S. General Accounting Office, Airport Financing: Past 
Funding Levels May Not Be Sufficient to Cover Airports' Planned Capital 
Development, GAO-03-497T (Washington, D.C.: Feb. 25, 2003).
---------------------------------------------------------------------------
    Another challenge is ensuring continued investment in 
transportation research and development. For Fiscal Year 2003, TSA was 
appropriated about $110 million for research and development, of which 
$75 million was designated for the next-generation explosives detection 
systems. However, TSA proposed to reprogram $61.2 million of these 
funds to be used for other purposes, leaving about $12.7 million to be 
spent on research and development in that year. This proposed 
reprogramming could limit TSA's ability to sustain and strengthen 
aviation security by continuing to invest in research and development 
for more effective equipment to screen passengers, their carry-on and 
checked baggage, and cargo. In ongoing work, we are examining the 
nature and scope of research and development work by TSA and the 
Department of Homeland Security, including their strategy for 
accelerating the development of transportation security technologies.
Human Capital Management
    As it organizes itself to protect the Nation's transportation 
system, TSA faces the challenge of strategically managing its workforce 
of about 60,000 people--more than 80 percent of whom are passenger and 
baggage screeners. Additionally, over the next several years, TSA faces 
the challenge of sizing and managing this workforce as efficiency is 
improved with new security-enhancing technologies, processes, and 
procedures. For example, as explosives detection systems are integrated 
with baggage-handling systems, the use of more labor-intensive 
screening methods, such as trace detection techniques and manual bag 
searches, can be reduced. Other planned security enhancements, such as 
CAPPS II and the registered traveler program, also have the potential 
to make screening more efficient. Further, if airports opt out of the 
Federal screener program and use their own or contract employees to 
provide screening instead of TSA screeners, a significant impact on TSA 
staffing could occur.
    To assist agencies in managing their human capital more 
strategically, we have developed a model that identifies cornerstones 
and related critical success factors that agencies should apply and 
steps they can take.\39\ Our model is designed to help agency leaders 
effectively lead and manage their people and integrate human capital 
considerations into daily decision making and the program results they 
seek to achieve. In January 2003, we reported that TSA was addressing 
some critical human capital success factors by using a wide range of 
tools available for hiring, and beginning to link individual 
performance to organizational goals.\40\ However, concerns remain about 
the size and training of that workforce, the adequacy of the initial 
background checks for screeners, and TSA's progress in setting up a 
performance management system. TSA is currently developing a human 
capital strategy, which it expects to be completed by the end of this 
year.
---------------------------------------------------------------------------
    \39\ U.S. General Accounting Office, A Model of Strategic Human 
Capital Management, GAO-02-373SP (Washington, D.C.: March 2002).
    \40\ U.S. General Accounting Office, Transportation Security 
Administration: Actions and Plans to Build a Results-Oriented Culture, 
GAO-03-190 (Washington, D.C.: Jan. 13, 2003).
---------------------------------------------------------------------------
    TSA has proposed cutting the screener workforce by an additional 
3,000 during Fiscal Year 2004. This planned reduction has raised 
concerns about passenger delays at airports and has led TSA to begin 
hiring part-time screeners to make more flexible and efficient use of 
its workforce. In addition, TSA used an abbreviated background check 
process to hire and deploy enough screeners to meet ATSA's screening 
deadlines during 2002. After obtaining additional background 
information, TSA terminated the employment of some of these screeners. 
TSA reported 1,208 terminations as of May 31, 2003, that it ascribed to 
a variety of reasons, including criminal offenses and failures to pass 
alcohol and drug tests. Furthermore, the national media have reported 
allegations of operational and management control problems that emerged 
with the expansion of the Federal Air Marshal Service, including 
inadequate background checks and training, uneven scheduling, and 
inadequate policies and procedures. We reported in January 2003 that 
TSA had taken the initial steps in establishing a performance 
management system linked to organizational goals. Such a system will be 
critical for TSA to motivate and manage staff, ensure the quality of 
screeners' performance, and, ultimately, restore public confidence in 
air travel. In ongoing work, we are examining the effectiveness of 
TSA's efforts to train, equip, and supervise passenger screeners, and 
we are assessing the effects of expansion on the Federal Air Marshal 
Service.\41\
---------------------------------------------------------------------------
    \41\ The Federal Air Marshal Service has been transferred out of 
TSA and into the Department of Homeland Security's Bureau of 
Immigration and Customs Enforcement.
---------------------------------------------------------------------------
Concluding Observations
    As TSA moves forward in addressing aviation security concerns, it 
needs the information and tools necessary to ensure that its efforts 
are appropriately focused, strategically sound, and achieving expected 
results. Without knowledge about the effectiveness of its programs and 
a process for prioritizing planned security initiatives, TSA and the 
public have little assurance regarding the level of security provided, 
and whether TSA is using its resources to maximize security benefits. 
Additionally, as TSA implements new security initiatives and addresses 
associated challenges, measuring program effectiveness and prioritizing 
efforts will help it focus on the areas of greatest importance. We are 
encouraged that TSA is undertaking efforts to develop the information 
and tools needed to measure its performance and focus its efforts on 
those areas of greatest need.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other members of the Committee may 
have.

    The Chairman. Thank you very much.
    Mr. McHale, do you have an opening statement?
    Mr. McHale. Yes, Mr. Chairman.
    The Chairman. Dr. Albright, do you?
    Mr. Albright. No, sir. We covered it in the closed session.
    The Chairman. Mr. McHale, thank you for being here. For the 
record, Mr. Stephen McHale is the Deputy Administrator, 
Transportation Security Administration. He is joined by Dr. 
Penrose Albright, Assistant Secretary for Plans, Programs, 
Budget, Science and Technology, of the Department of Homeland 
Security; and Ms. Cathleen Berrick is the Director of Homeland 
Security and Justice, U.S. General Accounting Office.
    Mr. McHale.

       STATEMENT OF STEPHEN McHALE, DEPUTY ADMINISTRATOR,

            TRANSPORTATION SECURITY ADMINISTRATION;

           ACCOMPANIED BY PENROSE A. ALBRIGHT, Ph.D.,

       ASSISTANT SECRETARY FOR PLANS, PROGRAMS, BUDGETS,

              SCIENCE AND TECHNOLOGY DIRECTORATE,

                DEPARTMENT OF HOMELAND SECURITY

    Mr. McHale. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, members of the Committee. On behalf of Secretary 
Ridge and Administrator James Loy, I thank you for the 
opportunity to report on the Transportation Security 
Administration's progress in improving civil aviation security.
    In the 20 months since its creation, TSA has made great 
strides in improving civil aviation security. I can tell you 
with confidence that the civil aviation security is more secure 
today than it has ever been. TSA has built a system of systems 
of security, illustrated on this chart to my right, that is 
based on multiple rings of security, from enhanced use of 
intelligence and better perimeter security, through passenger 
and baggage screening, the National Explosives Detection Canine 
Program, Federal air marshals, hardened cockpit doors, to armed 
pilots.
    [The chart referred to follows:]

    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    To achieve his objective, a terrorist must foil each and 
every obstacle we have laid in his path, and we continue to 
expand and strengthen each of these layers as we move forward.
    TSA inherited a 30-year-old passenger screening system 
designed to detect obvious weapons such as guns, large hunting 
knives, grenades, etcetera. We have transformed that system 
with well-trained, highly motivated professionals who routinely 
detect much smaller and less obvious threats. We know the 
system is working better. Since February 2002, TSA has 
intercepted more than 1,500 firearms and more than 54,000 box 
cutters. We have reduced the list of prohibited items to 
exclude some commonplace innocuous items, yet the number of 
intercepted prohibited items continues to rise. Frankly, we are 
surprised that we continue to find such large numbers of items 
carried by travelers and we will continue to work on educating 
the public on the care they must take before heading to the 
airport to board a flight.
    But it may be valuable, Mr. Chairman, to step back just a 
moment and look at what we have accomplished in a very short 
time. The poster on display tells a simple, factual, and I 
believe impressive story of then and now. For example, before 
9/11 contract screeners had no national program of operating 
procedures or standards. Today Federal screeners meet 
consistent national protocols and receive much more robust and 
comprehensive training than their predecessors. Then, only 5 
percent of bags were screened. Today 100 percent of bags are 
screened. Then, walk-through metal detector technology was 
outdated. Today we have state-of-the-art metal detectors at all 
airports.
    [The poster referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    However, no one element of our system of systems has a zero 
failure rate. As we have so often said, security is a filter, 
not a guarantee. That is why we have our rings of security. In 
case one layer is breached, the other layer will immediately be 
available to counter the threat. We must continue to evolve our 
system of people, technology, and intelligence so that we can 
always state with confidence that we are more secure than we 
were yesterday and that we will be even more secure tomorrow.
    In order to know if we have actually improved security, we 
must be able to understand what our level of security is and 
how we are performing as an agency. To address this, we have 
implemented an aggressive program of testing and evaluation, 
and TSA will manage the overall risk of civil aviation security 
by focusing our efforts and resources on the highest threats. 
We continue to assess the relative risk of various elements of 
aviation in order to help us prioritize resources.
    Let me be clear on one issue. We are well aware of our own 
system vulnerabilities and we take swift action to address 
them. For example, after the recent incident involving a TSA e-
mail that had not been reviewed for 5 weeks, we implemented a 
series of steps to ensure that any potentially threatening e-
mail sent to TSA is addressed immediately. Furthermore, last 
July TSA conducted a screener performance improvement study to 
determine the root causes of screener deficiencies and help us 
to prepare a plan to enhance screener performance.
    Well before recent events involving smuggling of prohibited 
items on board aircraft, TSA began to make screening 
improvements ranging from more robust training to technology to 
increased management performance and accountability.
    We continue to look for short-term improvements. Major 
elements of our short-term screening improvement plan are 
captured on this chart. Two important elements are recurrent 
screener training and supervisory training. All screeners must 
meet annual recertification standards and our first round of 
annual evaluation is under way. Most TSA screeners did not come 
onto the job until September and October of last year, so the 
annual recertification process began on October 1.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    We are implementing an enhanced version of the Threat Image 
Projection System, or TIP, to provide continuous on-the-job 
training and feedback. This is a system that superimposes 
threat images on X-ray screens during actual operations and 
records whether screeners identify the threat object. It is an 
excellent tool for evaluating the skills of each screener that 
enables us to identify screeners that require additional 
training or perhaps disciplinary action. Moreover, we can vary 
the images based on current intelligence so that our screeners 
are attentive to the latest threats.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The FAA installed TIP-ready machines that only had 200 
images and that were not updated on a frequent basis. We now 
have considerably more images, well over 2,000, that we can 
update every day. We already have 1,450 TIP-ready X-ray 
machines in place and by the summer of 2004 all of our 
checkpoint X-ray machines will be equipped with TIP.
    We also continue to research alternative technologies and 
seek short-term technology solutions to identify threats more 
accurately and quickly.
    A very important element of this program and one I know is 
of great interest to this Committee is CAPPS, our automated 
risk assessment tool that we hope to have deployed early next 
year when we have satisfied you that we have addressed your 
concerns.
    TSA now conducts covert testing in airports at over three 
times the annual rate of the old FAA red teams and we are 
increasing unannounced testing even further. Teams of 
engineers, trainers, and technology and management specialists 
work with Federal security directors to make improvements at 
airports that do not meet satisfactory performance levels and 
Federal security directors are held accountable for 
deficiencies.
    This is an important point: We hold the FSD responsible for 
providing security at the airports in his charge and tie their 
performance evaluation directly to this requirement. But 
security is a partnership and we also hold air carriers and 
airports responsible for their contributions to security. To 
ensure that they are doing their part, we are hiring a cadre of 
new regulatory inspectors to monitor compliance with mandatory 
security requirements for aircraft, secure and sterile areas, 
perimeter security, and cargo.
    With the holiday travel season only weeks away, TSA is 
concerned that with the increasing passenger flows we have been 
experiencing we could see longer lines this year than we saw 
last year at some airports. We often forget that travelers are 
also a partner in aviation security and they must do their part 
to prepare for takeoff. As we did last year during this time, 
we will be launching a large-scale public outreach effort so 
that we are not distracted at security checkpoints by false 
alarms or items that passengers merely packed by mistake. We 
want to be able to always focus our efforts on the real threat.
    I can assure you that along with the air carriers and the 
airports and our many other partners, we have come a long way 
in answering the Nation's call to improve civil aviation 
security. But we must always remember that the threat the our 
security is constantly evolving and that we must ensure that we 
are always one step ahead of the terrorists.
    Mr. Chairman, I thank you and the members of the Committee 
for your steadfast support of TSA as we strive to do our best 
for the American people, and I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. McHale follows:]

Prepared Statement of Dr. Penrose C. Albright, Assistant Secretary for 
 Plans, Programs, Budgets; Science and Technology Directorate; Stephen 
       J. McHale, Deputy Administrator, Transportation Security 
  Administration; and William H. Parrish, Acting Associate Secretary, 
    Information Analysis and Infrastructure Protection Directorate, 
                    Department of Homeland Security
    Good morning Mr. Chairman, Senator Hollings, and Members of the 
Committee. On behalf of Secretary Ridge, representatives of the 
Directorate of Information Analysis and Infrastructure Protection 
(IAIP), the Directorate of Science and Technology (S&T), and the 
Transportation Security Administration (TSA) are pleased to appear 
before you to discuss important improvements in civil aviation 
security. Our joint written statement will cover a wide variety of 
topics related to aviation security, and we are available to answer 
your questions in a closed and open forum.
    Secretary Ridge and all of us at the Department of Homeland 
Security (DHS) appreciate the continued support that DHS has received 
from this Committee and the unwavering commitment of the Members to our 
mission to protect the homeland from terrorism, particularly our 
transportation systems and critical infrastructure. This is a vast 
undertaking that requires advancements in technology, improved 
intelligence, a dedicated workforce, a substantial financial 
commitment, the cooperation of industry and the American public, and 
hard work by all.
Understanding the Threat to Aviation Security
    We believe that terrorists will continue to consider attacks 
against commercial aircraft in the United States and abroad likely 
intending to employ suicide hijackings and bombings as the most 
promising methods to destroy aircraft in flight, as well as to strike 
ground targets. Likely cognizant of changes in aviation security 
measures since September 11, 2001, they will seek out new ways to 
circumvent enhancements in aviation security screening and tightening 
immigration requirements. Additionally, the threat posed by terrorists 
equipped with man-portable air defense systems (MANPADS) is of credible 
concern. Indeed, the unsuccessful missile attack on an Israeli 
commercial airliner in Mombasa, Kenya, in November 2002 was a stark 
reminder of the threat posed by terrorists possessing MANPADS. MANPADS 
are widely available on black or gray markets around the world. Even an 
unsuccessful MANPADS attack on a commercial airliner would have a 
devastating economic and political impact. As you can well imagine, 
this is a serious and complex issue with no single solution. It is an 
issue of concern to the security of the homeland because MANPADS are 
relatively easy to operate and are small enough that they can be 
concealed in a vehicle.

  <bullet> It's important to note that the U.S. intelligence community 
        does not have any credible, specific intelligence information 
        about planned MANPADS attacks against commercial aircraft in 
        the United States. MANPADS generally do not pose a threat to 
        commercial aircraft while flying at cruising altitude. They 
        pose the greatest threat while aircraft are landing or taking 
        off from airports.
Continually Striving for Excellence in Aviation Security
    In the 20 months since its creation, TSA has made great strides in 
improving civil aviation security. TSA inherited a 30-year-old 
passenger-screening system designed to detect obvious weapons such as 
guns, hunting knives, and grenades, and has transformed it into a 
system that also finds much smaller but still dangerous items such as 
razor blades. This new system is working. Since February 2002, TSA has 
intercepted more than 1500 firearms and more than 54,000 box cutters. 
TSA screeners take pride in their work; this is not just a job but part 
of an important mission: to protect our Nation's transportation systems 
to ensure freedom of movement for people and commerce. However, recent 
events involving the smuggling of prohibited items aboard aircraft 
validate that our layered approach to security that cannot rely on any 
one system. TSA's layered system, including hardened cockpit doors, 
Federal Air Marshals, armed Federal Flight Deck Officers (FFDO), as 
well as passenger and baggage screening and the National Explosives 
Detection Canine Program, recognizes the fact that there is no such 
thing as a zero failure rate for passenger screening.
    We are cognizant that there is much more to do. TSA has undertaken 
specific initiatives that will improve screening performance, and we 
are formulating a plan that ranges from more robust training to 
increased management performance and accountability to technological 
improvements. In addition, we have taken immediate steps to correct 
internal procedures at our customer response center to identify 
messages of interest from a security standpoint and ensure that 
appropriate action is taken swiftly.
    TSA, working with the Department's S&T Directorate, will begin a 
comprehensive review of the civil aviation security system now that two 
years have passed since the enactment of the Aviation and 
Transportation Security Act and over twelve years have passed since the 
enactment of the Aviation Security Improvement Act of 1990. This is 
part of our constant evaluation of the security measures we have put 
into place, and now we have time to consider other approaches to 
aviation security that may be available to us.
    Today, every passenger entering the sterile area of an airport is 
screened by members of a highly trained force of TSA screeners.\1\ 
National, validated skill standards for all screeners form the 
foundation for an integrated system for hiring, training, certifying, 
and measuring performance. All screeners must demonstrate the 
qualifications, knowledge, skills, and aptitudes necessary to meet 
Federal standards and successfully perform as a transportation security 
screener. They receive a minimum of 40 hours of classroom instruction 
and 60 hours of on-the-job training. Screeners are subject to periodic 
proficiency assessments and unannounced performance testing. They are 
made aware of new threats and methods of concealment. This stands in 
marked contrast to the workforce responsible for U.S. airport security 
screening before the creation of TSA. Screeners employed by the 
airlines, often through contracts with private companies, received 
minimal training and were often poorly motivated. Contract screening 
forces were plagued with high rates of attrition that resulted in an 
average screener tenure of 4.5 months, making it all but impossible to 
develop and maintain the consistent level of proficiency required to 
ensure reliable screening.
---------------------------------------------------------------------------
    \1\ TSA is also operating a pilot program at five airports using 
private screeners that must meet all TSA eligibility, training, and 
performance requirements and receive pay and other benefits equal to 
those of TSA screeners.
---------------------------------------------------------------------------
    Maintaining a high level of screener proficiency requires constant 
diligence. In July of this year, TSA conducted a Screener Performance 
Improvement Study to determine the root causes for deficiencies in 
screener performance. After identifying the desired level of screener 
performance, we gathered data from multiple sources to determine the 
actual, current level of performance and the root causes for the gap 
between desired and actual performance. Based upon this study, we have 
identified an array of solutions and are in the process of further 
evaluating and implementing them.
    Two important elements of TSA's plan for screener improvement are 
recurrent screener training and supervisory training. Recurrent 
training is needed to maintain and enhance the skills of screeners, 
particularly in the areas of X-ray image interpretation, the search of 
persons, and the inspection of property. Supervisory training will 
enhance leadership skills in our workforce and provide the advanced 
technical skills needed to adequately supervise the screening process 
and resolve alarms.
    Screeners who fail any operational test are removed from their 
screener duties and must complete remedial training prior to returning 
to duty. Remedial training includes an out brief by the Internal 
Affairs Agent conducting the testing and a review of all pertinent 
sections of the standard operating procedures (SOP) and Basic Screener 
Training modules. Our recurrent training program is under development, 
though two modules have already been delivered to the field. In the 
meantime, Federal Security Directors (FSDs) have been encouraged to use 
the training modules of the Basic Screener Course to address specific 
recurrent training needs. Many have done so, and others have developed 
their own supplementary training. Also, screeners are required to 
undergo weekly X-ray image interpretation training using state-of-the-
art computer-based training. FSDs at airports have received the first 
of a series of screener performance improvement videos and more than 
350 courses will be available via our new Online Learning Center or via 
will have access to compact discs. We are also certifying over 800 
screeners and training coordinators to teach various topics at each 
airport.
    Recently, approximately 500 of TSA's 3600 screener supervisors were 
enrolled in a U.S. Department of Agriculture (USDA) Graduate School 
Introduction to Supervision course through September. The course is 
being modified to specifically address airport security and will be 
introduced nationally this December. This course will be further 
tailored to meet the needs of screening supervisors, and we expect this 
enhanced course will be offered in March 2004. An advanced course is 
being developed for screener supervisors to provide them with a higher 
level of technical knowledge and skills.
    All screeners must meet annual recertification standards, which 
require passenger screeners to pass an Image Certification Test, SOP 
Job Knowledge Test, and Practical Skills Demonstration, and require 
checked baggage screeners to pass an SOP Job Knowledge Test and 
Practical Skills Demonstration. In addition to passing these tests, 
developed at the national level, FSDs will be responsible for ensuring 
that all screeners have a satisfactory record of performance in 
accordance with their individual performance management plan. 
Recertification for 2003-2004 began on October 1, 2003, and will run 
through approximately March 2004. As part of our recent rightsizing 
effort, approximately 28,000 screeners completed proficiency testing; 
we will consider successful completion of those tests to be a part of 
the annual recertification.
    Another major initiative to improve screener performance is the 
implementation of an enhanced version of the Threat Image Projection 
System (TIP). TIP is a system that superimposes threat images on X-ray 
screens during actual operations and records whether or not screeners 
identify the threat object. This is an excellent tool for evaluating 
the skills of each individual screener so that we can focus directly on 
areas needing skill improvement. By frequently exposing screeners to 
images of a variety of dangerous objects, TIP provides continuous on-
the-job training and immediate feedback and remediation. TIP allows 
supervisors to closely monitor screener performance and improvement.
    TSA is expediting the replacement of approximately 1,800 
conventional X-ray machines with TIP-ready X-ray machines (TRXs). We 
now have over 1,300 new TRXs in place.
    Our TIP system is an improvement over the predecessor FAA system in 
several respects. The Federal Aviation Administration (FAA) created a 
library of only a few hundred images, which when shared with screeners, 
eliminated any real test value. In contrast, we are deploying a more 
comprehensive library of 2,400 images. We expect the new TSA TIP image 
library to be deployed on all TRX machines that are in place by the end 
of this calendar year. Through the combination of increased deployment 
of TRX machines and deployment of the expanded TIP image library, we 
will be able to collect and analyze significant amounts of performance 
data that had not been previously available to us. As we continue to 
deploy the expanded TIP library on all TRXs, we will primarily rely on 
using the limited library as an on-going training tool. Once TSA has 
the expanded TIP library on all TRXs in place, we will collect and 
analyze the data for December. The analysis will allow us to establish 
our first, national baseline view of screener performance, as measured 
by TIP, using the fully expanded TIP library of 2,400 images. This 
baseline view will help us better understand our strengths and 
weaknesses, allowing us to develop and implement appropriate skill 
enhancement strategies.
    Of course, training alone is not sufficient to sustain excellence. 
To improve screener performance, TSA will increase unannounced, covert 
testing at airports across the Nation. Through covert testing, we 
challenge screeners to detect threat objects at screening checkpoints 
and in checked baggage, using simulated terrorist threat devices and 
current techniques. Timely feedback on the results of these tests is 
provided to screeners, FSDs, and other TSA officials to drive change 
and improvement through modification of our SOPs, remedial training, or 
improving technology, as appropriate. The covert tests serve as one of 
many indicators of screener performance. They must be viewed in the 
context of a larger performance measurement system that includes 
individual screener TIP data, annual screener certification, 
supervisory oversight, the adequacy of our SOPs, and the reliability of 
equipment and technology. Between September 2002 and October 2003 our 
Office of Internal Affairs and Program Review (OIAPR) conducted 847 
checkpoint and 2,737 airport security access tests, as well as computer 
assisted passenger prescreening (CAPPS) and checked baggage tests at 
107 airports. We are conducting covert testing at over three times the 
annual rate of the old FAA ``red teams,'' and our testing uses more 
difficult, realistic testing situations. Although TSA cannot discuss 
the results of our tests in detail in this setting, results have shown 
an improvement of approximately 10 percent from September 2002 to 
August 2003. This is particularly significant because the difficulty of 
the tests has increased over the past year. OIAPR's testing plan is 
designed to test all of the airports during a three year period with 
Category X airports tested annually, Category I and II airports tested 
biannually, and contract screener pilot airports tested semiannually. 
Additional testing may be performed by each FSD.
    As part of our continual efforts to improve screener performance, 
airports with below-par performance on covert tests will receive 
special attention. Teams of industrial engineers, trainers, performance 
consultants, and technology and management experts will identify the 
causes for poor performance at these airports and work with FSDs to 
design and implement solutions. Follow up will include additional 
covert testing and FSD accountability for any continued performance 
deficiency. We are also exploring ways to perform controlled studies to 
better understand team errors, communications, and interactions among 
screeners and supervisors with a goal of improving the human 
capabilities that affect screener performance. TSA is making plans for 
delivering high-speed connectivity to all TSA locations within airports 
across the country. This will provide access to real-time training on 
current threats, connectivity with checked baggage areas, and will 
establish a foundation for planned implementations of additional 
administrative, surveillance, CAPPS II, and other security 
enhancements.
    TSA works closely with S&T to develop and deploy technology that 
will help make our operations more effective, more efficient, less time 
consuming, and less costly. To help our screeners better identify 
explosives and weapons that an individual may attempt to carry into the 
cabin of an aircraft, we are testing two explosives trace detection 
portals that analyze the air for explosives as passengers pass through 
them. TSA has also established a new performance standard for walk 
through metal detectors (WTMD) and replaced every WTMD at all U.S. 
commercial airports with the latest technology. We are developing a 
document scanner that will detect traces of explosives on a boarding 
pass type document handled by a passenger. We are also evaluating 
``body scan'' technologies, such as backscatter X-ray, millimeter wave 
energy analysis, and terahertz wave technology, but will not proceed 
with deployment on any of these technologies until sufficient 
safeguards are put in place to ensure the protection of passenger 
privacy.
    We are continuing to work on identifying the next generation of 
explosives detection equipment for use in screening carry-on and 
checked baggage. We are working with the vendors of the currently 
deployed technology to develop enhancements to existing EDS platforms 
to improve alarm rates, throughput, and reliability. We are 
simultaneously working with new vendors to develop technologies that 
will enable us to detect explosives in smaller amounts than are 
currently established in our certification standard and will occupy a 
smaller footprint at already overcrowded airports. TSA is looking at 
new applications of X-ray, electro-magnetic, and nuclear technologies 
to better probe sealed containers for materials that pose a threat.
    Although ATSA mandated the federalization of airport security 
screening, it held open the possibility that airports could return to 
contract screening, provided the high standards required of the Federal 
screening system could be met. TSA is currently operating a pilot 
program at five airports using private screeners that, by law, must 
meet all TSA eligibility, training, and performance requirements and 
receive pay and other benefits equal to those of TSA screeners. 
Beginning on November 19, 2004, any airport operator may apply to have 
screening performed by a contract screening company under contract with 
TSA. In preparation for this option, TSA recently awarded a contract to 
perform a rigorous comparison of the performance of pilot program 
screeners with that of Federal screeners, to determine the reasons for 
any differences, and to develop criteria for permitting airports to opt 
out of the Federal screening program. We will provide all relevant 
information to airport operators well before the November 19, 2004 date 
so that each airport operator can make an informed decision.
    TSA is moving forward with the development of the second-generation 
Computer Assisted Passenger Prescreening System (CAPPS II), which will 
help us to focus our screening resources where they will be most 
effective. CAPPS II is yet another layer in our system of systems to 
address a continuum of security threats with minimal impact on airline 
customers and operations. CAPPS II is intended to identify terrorists 
and other high-risk individuals before they board commercial airplanes. 
CAPPS II will conduct a risk assessment of each passenger using 
national security information and information provided by passengers 
during the reservation process--including name, date of birth, home 
address and home phone number, and provide a ``risk score'' to TSA. The 
``risk score'' includes an ``authentication score'' provided by running 
passenger name record (PNR) data against commercial databases to 
indicate a confidence level in each passenger's identity. CAPPS II will 
be a threat-based system under the direct control of the Federal 
Government and will represent a major improvement over the 
decentralized, airline-controlled system currently in place.
    In developing CAPPS II, TSA is very mindful of the rights, 
liberties, and freedoms that define our Nation and differentiate our 
society from those who seek to harm us.
    CAPPS II is being designed and will be built with the explicit 
requirement that privacy protection not become a cost of increased 
aviation security. CAPPS II is undergoing a rigorous course of testing 
and will not be implemented until it has successfully passed this test 
phase. TSA is cooperating fully with the U.S. General Accounting Office 
(GAO) so that GAO can issue the report called for in the Department of 
Homeland Security Appropriations Act, 2004, by February 15, 2004. 
Moreover, we are committed to continuous testing, evaluation and 
assessment of the system that is designed to ensure compliance with 
privacy policies--by our own experts, independent overseers, and the 
public. DHS is also contemplating creation of an advisory council to 
review DHS programs, including CAPPS II. A Passenger Advocate will be 
available to work directly with individuals to help resolve problems 
caused by incorrect data. In addition, while we are developing CAPPS II 
and to ensure that concerns regarding CAPPS I are addressed, TSA has 
on-site customer support and supervisory personnel at U.S. airports to 
respond to any passenger concerns, as well as a toll-free call line and 
an Office of the Ombudsman at TSA headquarters.
    CAPPS II would not retain data on U.S. passengers who are permitted 
to fly.\2\ Information would be stored only for a sufficient time to 
assess that a U.S. traveler is who he or she claims to be and to 
evaluate Government information related to terrorist threats and 
practices. Information would not be kept after completion of the 
traveler's reserved itinerary, apart from a necessary audit trail that 
would not be searchable by passenger name or other personal identifier.
---------------------------------------------------------------------------
    \2\ Data on non-U.S. citizens may be retained longer to facilitate 
identity authentication if adequate public records used by the CAPPS II 
system do not exist.
---------------------------------------------------------------------------
    As part of its ongoing dialogue with the public on CAPPS II and 
related issues, DHS issued a revised Interim Final Privacy Notice, 
which provides information regarding CAPPS II, including the type of 
data that the system will review, and how the data will be used. The 
Notice requested public comment, and the closing date for submission of 
comments was September 30, 2003. We are now in the process of reviewing 
the many comments we received.
    We are also developing the parameters for a pilot program to test 
key elements of the voluntary ``Registered Traveler'' program, 
including background checks, positive identification, and new 
checkpoint operations. We intend to test these concepts at several 
airports early next year. Our airline partners have expressed strong 
interest in working with us.
    TSA has begun full-scale training of pilots who have volunteered 
for the FFDO program in close cooperation with organizations 
representing many airline pilots such as the Air Line Pilots 
Association (ALPA) and the Coalition of Airline Pilots Associations 
(CAPA). We have transferred FFDO training from the Federal Law 
Enforcement Training Center (FLETC) at Glynco, Georgia, to the new 
permanent site at FLETC's training facility in Artesia, New Mexico. The 
Artesia facility offers the capability to double student throughput 
each week, and we plan to do so in January 2004. FLETC Artesia is also 
the home of the basic training program of the FAMS, and thus, has 
training facilities specifically geared to the unique environment and 
circumstances present on an aircraft. TSA intends to use geographically 
dispersed facilities for semi-annual recertification training required 
of FFDOs, including private facilities. By the end of FY04, at the 
current pilot application rate, we expect to have trained the vast 
majority of pilots who have volunteered for the program and met the 
initial background requirements.
    TSA has recently signed letters of intent (LOI) covering seven 
airports to enable them to efficiently integrate explosives detection 
systems with in-line baggage conveyor systems. The LOI, accompanying 
memorandum of agreement, and TSA-approved final system design plan 
collectively define the specific costs eligible for Federal Government 
reimbursement. Once the eligible reimbursement costs are identified, 
the Federal Government agrees to contribute 75 percent of those costs, 
while the airport invests the remaining 25 percent. We are continuing 
negotiations with additional airports to obtain a LOI where this makes 
practical and economic sense. For those airports that will not be 
covered by an LOI, we continue to work on screening solutions that can 
accommodate 100 percent electronic screening of checked baggage for 
explosives.
    Cargo security on passenger aircraft is a concern for all of us 
engaged in transportation security. Proposals to require the physical 
inspection of every piece of cargo shipped on passenger aircraft 
without a risk-based targeting strategy are no more practical than 
similar calls to physically inspect each of the more than 6 million 
containers that enter the United States each year through our seaports. 
Proposals of this sort would simply prevent cargo from being carried 
on-board passenger aircraft. Rather, TSA has focused its efforts on 
three key components in ensuring the security of air cargo. First, 
cargo deemed suspicious or ``high-risk'' will be subjected to more 
intense security screening under the TSA approach. Part of this process 
involves banning cargo from unknown shippers from passenger aircraft, 
and greatly strengthening the ``Known Shipper'' program. Passenger air 
carriers, all-cargo carriers, and freight forwarders have been given 
added responsibility for verifying a customer's status in the Known 
Shipper Program. TSA performs inspections of these links in the supply 
chain to ensure compliance. TSA is also moving forward with the Known 
Shipper Database and automated Indirect Air Carrier certification/
recertification. TSA plans on the full deployment of this database in 
FY 04. TSA is already working with the Bureau of Customs and Border 
Protection (BCBP) and its National Targeting Center in the development 
of tools for pre-screening air cargo to determine which of it is truly 
high-risk. Finally, TSA will need a toolbox of inspection methodologies 
and technologies for inspecting high-risk cargo, as no one technology 
or technique can be applied in all operating environments. A 
combination of inspection protocols, and EDS, ETD, X-ray devices, 
canine explosives detection teams, or perhaps even emerging 
technologies will need to be made available to the field.
    TSA is grateful for the cooperation that we have received from the 
industry through its participation in cargo working groups, an offshoot 
of the Aviation Security Advisory Committee (ASAC).\3\ On October 1, we 
received 44 recommendations from these groups, covering twenty-two 
topic areas, including enhancements to Known Shipper program, the 
development of additional screening technologies, greater security of 
Indirect Air carriers (freight forwarders), and enhanced security 
measures for the all-cargo air carriers. TSA is reviewing these 
recommendations as part of the development of a strengthened regulatory 
program and the completion of the agency's strategic plan for air 
cargo.
    Our continuing efforts to improve aviation security inevitably 
focus on more accurate information about people who have access to 
various aspects of the aviation and overall transportation system. 
Through our Transportation Worker Identification Credential (TWIC) 
program, TSA is developing a uniform credentialing standard that has 
the potential, if necessary, to be used across transportation modes for 
personnel requiring unescorted physical and/or logical access to secure 
areas of the transportation system. Uniform credentialing standards 
will enhance security and make economic sense to an industry for which 
multiple cards and mixed standards are commonplace. On October 21st TSA 
concluded a technology evaluation in two regions. One was on the East 
Coast covering the Philadelphia-Delaware River area, and the other was 
on the West Coast in the Los Angeles and Long Beach area of California. 
The information that we glean from these technology evaluations will 
enable us to make key decisions about further development of this 
program.
    TSA is focused on four key areas and related technology projects to 
enhance airport perimeter security: (1) security of access control 
through intended entry points; (2) security surveillance of perimeter 
areas; (3) improved security response capability to intrusions and 
security breaches through automated decision aids; and (4) oversight of 
industry compliance with current security requirements. TSA has 
collected and catalogued information on more than 300 applicable 
security technologies that include: biometrics, detection and 
prevention devices, surveillance technologies, and proximity sensors. 
Testing and evaluation of these and other technologies will be 
performed by TSA in partnership with airport operators who have 
volunteered to be participants in the 20 Airport Access Control Pilot 
Program. TSA hopes to select the first 5 airports and technology plans 
by the end of 2003. TSA also has the ability to test and evaluate these 
types of technologies in conjunction with the activities of the 
National Safe Skies Alliance at airports throughout the country
    The realization of and the response to the threat from Man Portable 
Air Defense Systems (MANPADS) are part of our focus on perimeter 
security, an element of the security plan required for each airport. 
With the Directorate of Science and Technology (S&T) of DHS and the 
Department of Defense, TSA is undertaking efforts to come to a cost-
effective, scientifically practical solution to the threat posed by 
MANPADS. Protecting civil aviation from MANPADS remains a multi-faceted 
undertaking--research into technical countermeasures is just one facet. 
Other components include enhanced security beyond the airport 
perimeter, non-proliferation efforts, and border and customs 
enforcement, all key areas that DHS, the State Department, the Defense 
Department, and many other agencies continue to pursue.
The Contribution and Potential of Technology to Improve Aviation 
        Security
    The Department of Homeland Security's S&T Directorate is conducting 
a competitive, multiple phase effort to develop countermeasures to 
shoulder-launched missiles that may be employed by hostile forces and 
terrorist groups against commercial aircraft. This S&T program, 
referred to as Counter-MAN Portable Air Defense Systems (MANPADS), was 
initiated in 2003 to identify existing candidate technologies that 
could lead to an effective and affordable solution for commercial 
aircraft. Clearly, any acquisition plan for such countermeasures must 
include a cost-benefit analysis that addresses the full range of 
relevant issues, including efficacy, cost-effectiveness, training, and 
not least of all, countervailing safety considerations. Proactive 
discussions of all of these issues are currently ongoing between DHS, 
other affected agencies and private industry.
    Military missile countermeasures, such as the Large Aircraft 
InfraRed CounterMeasure (LAIRCM) unit using Directed InfraRed 
CounterMeasure (DIRCM) techniques exist in various stages of 
development and deployment, but are generally restricted to military 
and Heads-of-State aircraft. The defense industry has also performed 
limited evaluation of tower-mounted IRCM subsystems for ground-based 
applications as an alternative to airborne installation.
    Primary challenges to commercializing military IRCM equipment for 
application to civilian aircraft include: affordability in total cost 
of ownership; vastly improved reliability over their military 
counterparts; less labor and time-intensive maintenance interventions; 
lower false alarm rates; and countermeasures that are safely applied in 
operating environments of civilian aircraft. IRCM commercialization 
will require tightly integrated systems engineering, development, test 
and evaluation of existing and emerging military Aircraft Survivability 
Equipment (ASE) for suitable equipment and processes that can be 
redesigned to protect civilian aircraft.
    An Industry Day was held on 15 October 2003 in Washington, DC to 
describe the Counter-MANPADS Program procurement process, which began 
with an invitation for industry to submit White Papers and Corporate 
Qualifications. The conference, hosted by DHS S&T, was attended by over 
200 participants from 91 organizations. To hasten program commencement, 
DHS S&T will utilize the procurement instrument known as Type 845, 
Other Transaction Agreements.
    Twenty-four white papers were received from industry on October 27. 
Invitations for full proposals will follow to those respondents with 
the most promising white papers. At least two awards are projected 
during the first phase of this program, which begin in January, 2004. A 
second program phase will result in a down-selection of the one or two 
most promising design candidates, and prototypes will be tested in 
simulated and live-fire environments.
    An important consideration in the selection and deployment of IRCMs 
aboard DOD Civil Reserve Air Fleet (CRAF) aircraft is the use of 
countermeasures in civilian airspace--specifically, in populated areas. 
In the event of a MANPADS launch, traditional military pyrotechnic 
countermeasures (flares) often represent a major safety hazard to 
property and personnel. Directed countermeasures, such as an on-board 
laser to disrupt the MANPADS sensor and steer the missile away from the 
aircraft appear to be the most promising ASE candidates for application 
to civilian aircraft.
    In conclusion, since the tragic events of 9/11, and we have come a 
long way in answering the Nation's call to improve the civil aviation 
security system. We better understand the threats to security and have 
dramatically improved our capability to share information on threats. 
We have built a highly skilled and professional screening force and 
have worked diligently to assure that imbalances in the initial 
placement of screeners in airports across the Nation are corrected by 
staffing adjustments. We have enhanced security technology at airports 
across the Nation and are exploring potential solutions for new 
threats, including those posed by MANPADS. We are well on our way 
toward implementation of a CAPPS II system that will greatly enhance 
our ability to keep terrorists off of commercial airlines, without 
disturbing the efficient flow of passengers or compromising their 
privacy. We have all learned a great deal very quickly, and will 
continue to do so, always striving to use every tool at our disposal to 
drive toward excellence.

    The Chairman. Thank you very much.
    Mr. McHale, I was not surprised that TSA has experienced 
significant difficulties. This was a huge, massive formation of 
a Federal workforce with significant responsibilities and 
training requirements. What I am concerned about concerns Ms. 
Berrick's testimony and what I have been told is a lack of 
measures of TSA's screening effectiveness. I do not know how we 
make progress or can know what areas need to be improved unless 
we have some measures of determining what progress or lack of 
progress is being made, where our failings are.
    Mr. McHale. Mr. Chairman, the first year, really 14 months, 
of TSA where we were primarily focused in our measurements was 
how we were doing in standing up the agency and how we were 
doing in getting out there to the airports. Having done that, 
we are now very much focused on measuring our performance and 
moving forward with that.
    We have actually worked with GAO to identify ways that we 
should measure that. The TIP system that I mentioned has built 
into it the ability to measure when a screener identifies or 
does not identify a threat image. That gives us very real 
screener by screener feedback on how they are doing on the X-
ray system.
    We also, through our covert testing system, we are trying 
to observe how the screeners actually perform their standard 
operating procedure on the wanding of passengers, etcetera. We 
do have systems in place that work very effectively in testing 
the explosive detection systems, some of those which are wired 
in.
    It is an ongoing issue for us. We did not inherit a system 
in which checkpoints were connected into the computer systems, 
where we could download that kind of data. We are working all 
the 1700 checkpoints in the country over the next couple of 
years to try to get that connectivity in, to give us that sort 
of data. It is a very important issue for me. It is something 
that obviously I look at every day.
    We have I think a very good backbone called the 
``Performance Management Information System'' for gathering 
that data, and every day we are getting more data. We do not 
have enough.
    The Chairman. Ms. Berrick.
    Ms. Berrick. I think the most important step that you have 
to take in measuring performance is first establish a plan on 
how you are going to do that and specifically identify the data 
that you need to collect and what you are going to measure. TSA 
was mandated by the Aviation and Transportation Security Act to 
develop a short-term annual performance plan and they did do 
that. However, that plan was primarily focused on meeting the 
actual mandates: how many screeners do we have in place, how 
are we doing in terms of checked baggage screening. It was not 
really based on how effective they were on those two functions.
    TSA is developing a 5-year annual performance plan, as 
required by the act, that they are focusing on providing more 
performance measures that are outcome versus output measures, 
so they will be measuring effectiveness. An example would be 
their covert testing program. Instead of saying, we need to 
conduct a thousand covert tests during the year, the measure 
would be we need to achieve a pass rate of X percentage related 
to this covert test. I think that is the most important step in 
establishing performance measures.
    Related to the passenger screening program, I think fully 
implementing TIP should be a high priority, which I know it is, 
within TSA. I think also the Performance Management Information 
System that Mr. McHale mentioned should be expanded to collect 
additional performance data. Right now it collects little 
performance data related to passenger screening. It does 
collect some other types of data. I think that should be 
expanded. The annual screener certification program is another 
source of data that should be rolled out.
    So I think that TSA is moving in the right direction, but I 
think the first step is establishing a plan on how they expect 
to achieve this.
    The Chairman. Well, I hope we can get that soon, Mr. 
McHale.
    Dr. Albright, at the first hearing we had with Admiral Loy 
we talked about technology. I do not believe that the airline 
industry is going to return to its fullest capability until 
Americans who want to fly on an airliner have some kind of 
confidence that they will be able to move through the security 
screening process with some degree of predictability and 
dignity.
    I go to the airport at least every Friday and every Monday, 
either National or Phoenix Sky Harbor. Some days I go and you 
go right through security. Some days I arrive and the line is 
all the way out the door and then we experience the panic of 
thinking that I am going to miss the flight even though I am 
there the required amount of time.
    I want to know what your assessment is. What is the state 
of this technology that is going to both preserve security, 
which we all admit is the first priority, but at the same time 
restore some kind of normalcy, stability, and predictability to 
the screening process, which can only in my view be achieved by 
technological advances.
    Mr. Albright. Let me answer that in a couple of ways. First 
let me say that it is my view that TSA has in fact deployed the 
state-of-the-art.
    The Chairman. I do not disagree with that.
    Mr. Albright. But having said that, I think it is also 
important to note that, and it has been a common thread in the 
answer to the prior question, I believe, that what happened was 
about 2 years ago in a fairly ambitious and rapid effort we 
deployed technologies as quickly as we could to protect the 
American public.
    I think what is probably important to do now--and I will 
say that both Secretary Ridge and Admiral Loy have asked the 
Science and Technology Directorate to do this--is to now step 
back a bit and look at this problem from a more fundamental 
system engineering point of view and ask some basic questions: 
Do we have in fact the appropriate technologies, as you are 
pointing out, and the appropriate kinds of performance that we 
need to have at passenger screening checkpoints? Are they 
deployed in a way that is not just intended to make us secure, 
but also intended to be efficient as well?
    Of course, the same holds true for luggage screening and 
for cargo screening. So we are initiating this study at the 
request, again, of Admiral Loy and Secretary Ridge, working 
closely with TSA to do a full end-to-end systems engineering 
study of the aviation security environment and ask the question 
basically, can we make this more efficient, can we make it more 
repeatable than it is today.
    The Chairman. Well, my time has expired, but I wonder if 
there is not some--hopefully, there is some technology in the 
works that would improve this situation, both from the 
passenger standpoint as well as the baggage standpoint.
    Senator Boxer--oh, Senator Lautenberg. Senator Lautenberg. 
I am sorry.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I wanted to talk about the air marshal 
program and ask a simple question: Are we continuing to train 
air marshals and have the numbers of air marshals--I do not 
want to go into too sensitive an area, but people know that we 
have them and do we have more than we had before? They are 
doing a good job and we need them, but we heard testimony in 
private that, without revealing anything, that said that they 
are an effective part of our security system.
    Who can tell me?
    Mr. McHale. We are training new air marshals, Senator, and 
they are an effective part of the system, within our entire 
system of systems. We have, as we have said publicly, thousands 
more than we had pre-9/11, and we think that the numbers are 
about right, although one of the issues behind--one of the 
reasons behind the movement that you referred to in the closed 
session, the movement to the Bureau of Immigration and Customs 
Enforcement, is in fact to cross-train some of the Customs and 
Border Patrol agents to be available in the event of need for 
surge, as you know.
    Also, as you know, law enforcement agents, many of the 
officers, many of them are allowed to fly armed if they are on 
official business in the United States. We are also looking for 
ways to capture that information ahead of time, knowing when 
they will fly, so that we can use them to bolster our force of 
people who are on aircraft who are able to defend the aircraft.
    Senator Lautenberg. This to me sounds a little bit like 
boxing and wrestling. They are both contestants, but they have 
different skills. And I am afraid of kind of watering down the 
possibility that those who are skilled at working in the 
airplane cabin and those who are working along the deserts and 
so forth--the chairman knows about those kinds of guards that 
we need. They are quite different assignments.
    I want to get into something else, because to me this is a 
golden opportunity to talk about another issue. With all the 
focus on baggage screeners and all of the training that we want 
to give and the measurements that we want to develop, this now 
has become an integral part of our security operation. I do not 
understand why in the world that it is possible that we want to 
go private with the FAA when we have now, we have had a 
discussion, without revealing any secrets, about the 
availability of small weapons that can take down airliners--
SAM's, you name it, other kinds, RPG's.
    The fact of the matter is that here we have an organization 
that works effectively. I consider that the FAA is the fifth 
branch of the military. It is 24/7 and do whatever you can. And 
whether it was in reaction to the World Trade Center attack and 
bringing down 5,000 airplanes safely to destinations that were 
not originally planned, and making sure that when the 
Challenger fell out of the sky that they moved the aircraft 
around, it is the strongest measure of safety that we could 
have.
    I do not believe that it makes sense to be so focused on 
baggage screeners while we dismiss the possibility that the FAA 
should stay within government hands. I think it is an outrage 
to propose. It is not a question, Mr. Chairman, but it is a 
statement, when I see how focused we are, properly so, on 
effective baggage screening and here on airplane screening, and 
we are all worried about how we protect airplanes when we know 
that there is a threat out there that a missile or a weapon 
could be fired at an airplane, and not to have the same skills, 
to have Acme Air Service taking care of our flight control, I 
do not think makes sense in any way. It is an issue, Mr. 
Chairman, that I intend to focus on with all of my energy.
    But we have succeeded in having a very good hearing with 
excellent witnesses. Ms. Berrick, we wish you confirmation, 
good luck, and all that to all of you. We thank you for your 
service to your country.
    Ms. Berrick. Thank you.
    Mr. McHale. Thank you, Senator.
    The Chairman. Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    I wanted to raise several issues today. Obviously, we are 
all familiar with the incidents that occurred with the box 
cutters and that also occurred on a plane that left an airport 
in Maine and went to Boston and they discovered, the 
maintenance crew discovered, box cutters on that plane as well.
    I think the real question is whether or not these are 
isolated, random incidents or is it part of a troubling 
pattern, and second whether it is a screening problem or a 
training problem. Now, we have heard both, and I would like to 
have you address that, Mr. McHale, because I think ultimately--
I know that we have come a long way with respect to aviation 
security over the last 2 years, and obviously for billions of 
dollars. So it is the linchpin of our homeland security without 
question.
    I think the real issue is that if these incidents keep 
occurring, it only takes one incident to create a catastrophe, 
as we well know. I think the question is why these are 
occurring, is it the screening or is it the training? Now, I 
know the company that has manufactured these screening machines 
at the airport claims it is the training procedures that are 
deficient in identifying these types of weapons.
    So I would appreciate your response and what you have done 
in the meantime. I understand that in your testimony earlier--I 
am sorry I missed that part of it; I had to leave for a 
minute--that--do you have safeguards in place to identify e-
mails?
    Mr. McHale. Yes, we do, Senator.
    Senator Snowe. What happened in this instance that you 
failed to respond for, what was it, 5 weeks?
    Mr. McHale. 5 weeks. We have put those safeguards in place 
since that incident. What we have done--the e-mail came in to a 
consumer response center, one that we had only recently started 
up and that was receiving a very large volume of e-mails. What 
we realized is that--and probably should have realized earlier, 
but what we recognized was that this was a potential place 
where someone could send in a threat or a threatening e-mail.
    What we have done is established, first of all, an 
automated screening system that pushes these e-mails into a 
special place where we can review them. Second, we have trained 
everyone who receives these types of e-mails on what to look 
for and what to do with them. And then we have procedures for 
the referral of it to the appropriate security personnel who 
can respond.
    So we are pretty confident in the system we have got in 
place. We review that four times a day, including in the middle 
of the night, partly because some of the areas we serve are 
around the world and e-mails can arrive in the middle of the 
night. So we look at that all the time, trying to sort through 
that and identify the threats.
    On the box cutters generally, I think there is a number of 
important things or issues there. One is that we do not regard 
security as any one thing. It is not about equipment, it is not 
about training, it is not about people. It is about all those 
things. It is not about the screening checkpoints, but it is 
also about perimeter security, it is also about the maintenance 
workers and others. We have to look at the entire area for what 
the vulnerabilities are.
    We believe that there may be a little bit of testing of the 
system going on, which may be why we are seeing a little more 
activity in that area. Historically, we have found box cutters 
left on planes by maintenance workers. That is something we are 
working with the airlines to tighten up on and make them aware. 
They are being very helpful in that regard.
    But I think that it is important also to recognize that, at 
least in some areas, while we have, as Assistant Secretary 
Albright said, we have state-of-the-art technology, we need 
better technology. The screening system pre-9/11 detected guns 
and grenades and large knives. We have improved a lot of that 
equipment. We have improved our training, and we pick up a lot 
of smaller items. But as you get to smaller items, smaller and 
smaller items, it gets harder and harder and more difficult to 
see it in the X-ray machines or even with the metal detector 
technology.
    So we try to adjust all--try to look at all of those things 
together and do the best we can. But part of this is going to 
be better technology, 3D X-rays and other things that we are 
working with the Department to get out there and deploy, 
working with industry to see what ideas they have. We will get 
better, but it continues to be a challenge.
    Senator Snowe. Well, as I understand it, according at least 
to an article that was printed recently, that there is a 
divergence of opinion about what is the issue, in terms of 
whether it is training or the X-ray machines. The company that 
manufactures these X-ray machines claims they can be detected.
    So I think the bottom line is here, is that it is obviously 
important to reconcile that difference and address it, whatever 
it is.
    Mr. McHale. Right.
    Senator Snowe. It undermines confidence, in the final 
analysis. As I think as we all know, it only takes a few 
incidents like this to undermine the public's confidence about 
the procedures in aviation security.
    Mr. McHale. I could not agree with you more. I think, 
though, it is a mistake to focus on, try to focus on one thing 
or the other. Machines certainly can detect the equipment in a 
controlled setting, but in an operational environment you need 
to look at the machine, you need to look at the way the bags 
are packed, how they are moving, how fast they are moving, the 
training of the screeners.
    You need to look at all of it, the environment, the 
supervision. You have to look at the whole system in an 
operating environment, and that is what we study every day, 
trying to figure out how we can improve that.
    Senator Snowe. Yes, I have no doubt, and I understand what 
you are saying in terms of the volumes and so on. It is good to 
look at the entire picture.
    Ms. Berrick. Senator, can I make one comment about 
training?
    Senator Snowe. Yes.
    Ms. Berrick. Related to the passenger screening program, we 
recently did some work where we looked at training for 
passenger screeners, and we identified some good aspects of the 
program and some aspects that need to be improved. TSA did 
develop a basic screener training program and a remedial 
screener training program. When a screener fails a test they 
have to go through the remedial training.
    In fact, their basic screener training program is more than 
what was required under FAA. However, we did find some 
weaknesses in terms of recurrent training, having training on a 
periodic basis to reinforce skills and update skills, and also 
supervisory training. TSA is taking some efforts to strengthen 
their recurrent and supervisory training programs, and we are 
going to continue to look at that.
    Regarding the Threat Image Projection system, which TSA is 
fully implementing, that is also a good training tool in 
addition to testing. But there is other training I think that 
needs to be implemented in terms of how to manually search a 
bag, in addition to just recognizing the images on the screen, 
and that is something that we are continuing to look at.
    Senator Snowe. I appreciate that.
    Thank you.
    The Chairman. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you very much.
    Picking up on Senator Snowe, each layer--I understand we 
have a layered defense, but each layer has to be as good as it 
can be. You are totally right, Mr. McHale. It is not one thing. 
It is not one thing, but it is everything, and each layer has 
to be as good as it can be, obviously.
    First, I want to thank my Chairman, because this has been a 
very important morning for me. The session we had before, going 
into some of my concerns, I just appreciate the opportunity, 
Mr. Chairman. And I know you have made that commitment to me 
and you kept it. I thank you.
    I want to say to our witnesses from Homeland Defense that 
you have a huge job. You know that. We appreciate it. It is 
quite a task to take an industry--and I think Senator 
Lautenberg pointed out--that was made more accessible to people 
as the years went on and now try to weed out bad apples. This 
is not easy. So I want you to know in that context, if I am 
tough in my questioning, I understand the challenge you face.
    I also am not one who believes that funds resolve 
everything, because if you do not know what you are doing you 
are going to misspend a dollar or ten. But I think GAO has 
pointed out there are some challenges regarding resources, and 
I think--and I just hope--I am not asking you to comment 
today--that you will let the Chairman know and others know if 
we need to have more of a priority here, because I have some 
concerns about it.
    I want to start off with the shoulder-fired missiles. I 
sound like such a broken record, I apologize. But I am going to 
just keep on this until we are doing this thing and we have got 
a plan and it is going to happen. Have you seen the CRS, either 
of you, the CRS report of September?
    Mr. McHale. Yes.
    Mr. Albright. Yes.
    Senator Boxer. OK. I am just going to highlight this for 
the public, a few things they pointed out. There are 700,000 
shoulder-fired missiles that have been produced worldwide in a 
number of countries--one, two, three--12 countries. There are 
27 militia groups and terrorist groups estimated to have these 
700,000, at least some of these 700,000, not all of them, 
missiles. These missiles are cheap, easy to conceal, easy to 
use, and effective, according to CRS.
    Other important points. The FBI estimates airliners hit at 
least 29 times over the years, causing 550 deaths. Rand says as 
many as 40 civil aircraft were shot down between 1975 and 1992, 
causing up to 760 deaths. The CIA reports in 1997, 400 
casualties up to that point, 27 incidents. We have various 
estimates because sometimes they are not positive on this, but 
this is what, this is the range.
    What I fear is that, because of circumstances now as they 
are in Iraq and in Afghanistan, which Afghanistan I think is 
going much better, I am worried about more access to these 
missiles and I am worried about this being something we are 
going to have to be very concerned about. Needless to say, we 
saw what happened with the helicopter in Iraq. Our beautiful 
young people coming home, trying to get home for R and R, were 
met with this fate, too many of them, 16 I believe, and many 
injured.
    So it is hard to find the people who did it and it is a 
very big challenge for us.
    Have you discussed air traffic control options?
    Mr. McHale. Yes, Senator.
    Senator Boxer. OK, because that is something that they 
recommend we look at in terms of how do you evade and not be so 
predictable.
    Mr. McHale. Yes.
    Senator Boxer. So I think it would be good if we did some 
of that. But we ought to let that out, that we are taking 
some--we do not tell them what it is, but we are doing things a 
little differently. It would throw somebody a little bit off.
    How about airport and local security? You are making these 
threat assessments. I have mentioned many times about my San 
Diego airport. The chairman has pointed out, well, in San Diego 
someone could just be in an office building. That is all true. 
You cannot do the impossible. But in my view, when I am 
standing like on top of the roof of the garage--the airport 
people said, we never really thought about this. They said they 
were going to take action.
    How many of these threat assessments have you made on the 
major airports?
    Mr. McHale. We have done all of the 20 largest airports in 
the United States, the 21 largest airports in the United 
States. We have done--we have done a lot more. I am just trying 
to think of--I do not want to go too far into that.
    Senator Boxer. Are you instituting changes, working with 
those airports on some of the security measures?
    Mr. McHale. Yes. We have worked with the airports and, 
perhaps just as importantly, we have worked with local law 
enforcement. This is not a threat people thought about a long 
time ago.
    Senator Boxer. Of course not.
    Mr. McHale. So there is a lot of education that has to go 
on about what to look for, what the vulnerabilities are, 
etcetera. So we are really engaged in a very big education 
effort at the local, state and local law enforcement level 
about what the vulnerabilities are and how they can work 
together with us to improve the perimeter.
    Senator Boxer. Well, I can assure you my airport people 
want to help.
    Senator Stevens mentioned working with the communities on 
civil defense, because these perimeters are so large. Have you 
looked into that?
    Mr. McHale. We have worked--we have worked with actually 
some of the local industries and companies around airports that 
control a lot of the private land and the security forces. Many 
airports tend to be more in industrial areas. I think that is 
probably what I want to say about that.
    Senator Boxer. Well, perhaps maybe we could be briefed 
privately on this----
    Mr. McHale. I would be happy to do that.
    Senator Boxer.--because I just think if citizens want to 
help this could be a really interesting and important way for 
them to help around the perimeters.
    I see that the red light is on, so I will withhold.
    The Chairman. Please continue, Senator Boxer. I know how 
important this issue is to you. Please continue.
    Senator Boxer. Thank you. Thank you very much.
    I just want to say this. I do not expect any answer from 
you because this is really kind of a fight in the Senate 
family, which is about the future of air traffic control, and 
Senator Lautenberg mentioned it. I just feel like we need to 
consider above all the safety of our people. I know that we 
have this FAA bill. I very much want to see it come forward and 
very much support everything in it.
    I think we should have done more to stop the privatization 
of the air traffic control jobs, because I think Senator 
Lautenberg makes a point: We are focused on screening and all 
the other things, and they are so important, but if we do not 
have people who are thoroughly trained, especially since we 
may, according to your own answer to me, be instituting new 
ways of bringing planes in, new and different ways--I think it 
is important to note that the idea of privatization was so 
frightening to a Congressman over on the other side that he put 
in the FAA bill that it could never ever happen in his State, 
and all the other states could be affected by an Executive 
Order.
    So I do not want to put you on any type of a spot, but I 
know if you ever have the opportunity to think this through, if 
you have opinions, sharing it with our President would be 
great.
    I have other questions. I will wait for another round, on 
different subjects.
    The Chairman. Senator Snowe. Senator Snowe, do you have 
any?
    Senator Snowe. Yes, I just have a couple more questions, 
Mr. Chairman.
    One is on air cargo. I would just like to understand where 
TSA is at this point in time and how effective the Federal 
Known Shipper Program is. As I understand it, in the 
appropriations for next year there is language, the Secretary 
of Homeland Security is directed to research and develop 
certified systems at the earliest date possible. So when will 
TSA be ready to do this?
    This is obviously one of the gaping holes in the system. I 
think that everybody has acknowledged that. I think the General 
Accounting Office has acknowledged that. This is something that 
has to be addressed sooner rather than later.
    MassPort Authority as I understand has created a pilot 
program. So I think obviously some of the airports are going to 
be taking this initiative and that is a good thing, but 
obviously we need a national system as well. I mean, when less 
than 5 percent of all air cargo is being screened that is 
disconcerting, to say the least.
    Mr. McHale. We have actually--I met with the Administrator 
of MassPort a couple weeks ago to talk partly about this and 
what they are doing. We have also talked with the Israelis, 
with a number of other countries that are interested in cargo 
security. Again, the challenge is the technology. X-ray 
machines only tell you so much and they do not necessarily in a 
large cargo container help you with the detection of explosives 
and things like that, and the larger equipment that helps with 
that is very slow.
    So this is an R and D problem and we are very glad that the 
Administration has provided us with quite a bit of funding in 
that area. We are also going to work with the Department very 
closely to do the research here, but we do need some--we do 
need some better technology than we have today to deal with 
this.
    What we are going to do in the mean time as we are going 
down that is really try very hard to identify the high-risk 
cargo. This is something that we have done internationally for 
a number of years. We are going to bring that, bring that over 
domestically so that we can inspect, physically inspect, 100 
percent of high-risk cargo going onto all cargo aircraft.
    We are trying to very much enhance our Known Shipper 
Program. We just completed a round of work with the Aviation 
Security Advisory Committee where they made a number of 
recommendations to us--that Committee is made up, not only of 
industry members, but also consumer groups, passenger groups, 
and others, victims groups--where they made a number of 
recommendations about how to further secure the system, both 
looking into the future but also in the short term with what we 
have got.
    We will have--we are increasing our use of canines, which 
is perhaps the best technology we have got out there in many 
ways today. We are using that extensively with the Postal 
Service and we are just starting a testing program really to 
see how we can use that in the operational cargo environment.
    So we have got a lot of different initiatives going on. I 
think the first one that is going to bear fruit is going to be 
the improvements to the Known Shipper Program.
    Mr. Albright. Senator, if I could add to that. To do much 
beyond what Mr. McHale has just pointed out is going to require 
some significant re-engineering of how we actually deal with 
cargo coming into airports. Clearly the best approach is to do 
it while it is still break-bulk and prior to its assemblage 
into a pallet or into a cargo container. Different 
technologies--and in order to do that would require a 
significant change in the way these freight assemblers who are 
located at airports actually do business.
    The second issue is, or the second point to make, is that 
the technologies you use for different sorts of cargo are very 
different. X-ray technology may work perfectly fine if you are 
looking at a cargo that is clothing, for example. It will not 
work very well at all if you are looking at automotive or 
electronic parts. So you would need a spectrum of technologies 
and some way of separating out the different sorts of cargo 
prior to the inspection process to, again, to significantly 
change or increase the amount of cargo inspections other than 
what Mr. McHale pointed out.
    Senator Snowe. Did you want to say something, Ms. Berrick?
    Ms. Berrick. Sure, I will just make a comment. GAO has done 
some work in the past looking at the security of air cargo and 
we did make specific recommendations to strengthen the Known 
Shipper Program, some of which I know TSA has implemented. For 
example, one vulnerability that we identified was the security 
at transfer points where the cargo is collected before it is 
transported to an aircraft and loaded onto an aircraft. So we 
believe that strengthening, continuing to strengthen, Known 
Shipper Program is important, as well as increasing inspections 
of targeted cargo, as well as focusing on R and D, which I 
believe $55 million is appropriated for for 2004.
    Senator Snowe. One final question concerning carry-on 
explosives. I know the Washington Post published an article on 
the 14th of October outlining the Department of Homeland 
Security's concern about Al-Qaida attempting to create a 
chemical called nitrocellulose. What steps is TSA taking to 
address this threat, because obviously we do not have the 
capabilities at this point to identify plastic explosives?
    Mr. McHale. We do have those capabilities, actually, if we 
do a trace detection----
    Senator Snowe. How prevalent?
    Mr. McHale. If we do trace detection on the item, we could 
discover nitrocellulose.
    What we are doing obviously is looking--I think the 
Washington Post reported a teddy bear or some soft pillow 
stuffed with nitrocellulose. That alone does not make an 
effective explosive, so there has to be additional things 
there, and those are things that we can look for and do look 
for.
    We have trained--we have gone out and informed the 
screeners--we actually send them a daily update on new threats 
and how to look for them and discover them. So we have done 
some training in that area to try to identify the things that 
they have to look for and see.
    Senator Snowe. I see. But plastic explosives could be 
readily identifiable and detected?
    Mr. McHale. They are best detected by explosive detection 
technology. We do not have--and the best things to do that are 
the large baggage kind of machines that we use. We do not have 
those at checkpoints, mostly for reasons of space actually.
    Senator Snowe. Yes, where the checked baggage is----
    Mr. McHale. Checked baggage, they will find it.
    Senator Snowe. But the baggage, though, accompanying the 
passenger going onto the plane is another issue, is that 
correct?
    Mr. McHale. The carry-on bag does not typically go through 
the large EDS machines, unless we have a reason, some reason to 
suspect, in which case we will send it back, send it back down 
and run it through one of the big machines.
    Senator Snowe. But so at that point it could not be 
detected; is that what you are saying?
    Mr. McHale. The X-ray machines could detect some of the 
items that would be, some of the additional items that would be 
needed to actually ignite the nitrocellulose and turn it into a 
bomb.
    Senator Snowe. Thank you.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Have you looked at blast-proof cargo containers made of 
Kevlar?
    Mr. McHale. Yes.
    Mr. Albright. The answer is yes.
    Senator Boxer. What do you think?
    Mr. Albright. The issues in the past--well, firstly, as you 
know, the cargo containers are really only relevant for wide-
body aircraft. We typically do not put into containers cargo 
that is on narrow-body aircraft.
    Generally the issues associated----
    Senator Boxer. But commercial aircraft carry cargo.
    Mr. Albright. They carry cargo, but generally the large 
containers that you are referring to are generally used on 
wide-body aircraft.
    The Chairman. Yes, so go ahead. What do you know about 
this?
    Mr. Albright. In general what has been found--and Steve, 
you can kick in here--is that there is actually a fairly 
enormous--in order to be effective against the types of 
explosives you are concerned about in the quantities you are 
concerned about, it generally imposes a fairly significant 
weight penalty on the cargo container. So up to now that has 
not been implemented. However----
    Senator Boxer. What I would like to do, Dr. Albright, is 
get together with you, because I have other information with 
some folks who have come to me. So how about that. We will not 
go into it here.
    Mr. Albright. Sure, sounds good.
    Senator Boxer. I think it is something we ought to look at.
    These are a really good cargo security bill that, Mr. 
Chairman, was voted out of your Committee and it is just 
sitting there. And Senator Hutchison has really taken the lead 
on this cargo inspection. This whole notion of the Known 
Shipper deal I think was proven fairly faulty, if you do not 
mind my saying this, when we had a gentleman have his friend 
put him into a box and ship him from New York to Texas, Mr. 
McKinley. That kind of said a lot right there.
    So I think we really have got to--hopefully, the House will 
take up this bill. We need to do a lot more about the cargo, 
because the Known Shipper thing is fine. You may have a company 
that becomes a known shipper after some period of time and then 
hires someone who puts something in. I think the trusted 
passenger idea, could work because as somebody who has flown 
for years and you know everything about them, which I hope you 
will be moving on that.
    But this trusted shipper thing is not good, in my opinion. 
We need to have that bill come through because you are not in 
my view doing enough on this front.
    I want to ask you about a couple of, if I might, California 
things, since I have you here and you cannot run away. San 
Francisco Airport has been trying to get a letter of intent. 
They want to install an in-line baggage screening system, and 
they are looking as to when that might happen. Do you have any 
information on that?
    Mr. McHale. I believe, Senator, that we have already 
executed a letter of intent with San Francisco. I will just 
doublecheck that.
    Senator Boxer. Oh, good.
    Mr. McHale. I may have that here.
    Senator Boxer. That is very good.
    In San Jose we are having a problem. Senator McCain was 
talking about going to an airport thinking you are going to 
miss your plane because the lines are backed up. In San Jose 
they were supposed to have been staffed at a 423 level. They 
have never really had that. They are down about 100, and there 
is attrition, and I know several people myself who have 
actually gotten there an hour, hour and a half, and they missed 
planes.
    Are you working with that airport to solve their problem? 
They are just--my God, it is named Mineta Airport.
    Mr. McHale. I used to work directly for Senator Mineta, so 
yes, it has always been an airport of great----
    Senator Boxer. Congressman Mineta.
    Mr. McHale. Congressman Mineta, Secretary Mineta.
    Senator Boxer. Secretary Mineta.
    Mr. McHale. Actually, let me say I did misspeak. San 
Francisco, we do not yet have a letter of intent with them. 
That is something we have been working with them on.
    Senator Boxer. Could you talk to me about that later in the 
week?
    Mr. McHale. Yes, I will, absolutely.
    Senator Boxer. And San Jose, you are working with them?
    Mr. McHale. San Jose is one of the most challenging 
airports in the country because of its layout. It does not have 
really any room, particularly at one end of it, where there is 
a funnel that leads you into both the airline ticket counters 
and immediately to the checkpoints. So the lines back up on 
each other.
    Senator Boxer. Well, be that as it may. I agree, it is 
tough. But my question is, are you working with them actively, 
because things are not good there. Really, things are not good 
and people are missing planes.
    Mr. McHale. We are working with them actively. We have 
worked with them on the design of their new terminal. We are 
trying to figure out ways, better layout ways of just handling 
those lines.
    Senator Boxer. Good.
    Mr. McHale. But there is just not enough room there, is 
really the problem.
    Senator Boxer. Well, they are saying they do not have 
enough people working there, so look into that. They say they 
are 100 down, that has hurt. First you have a problem because 
your layout is not good, and then you do not have the people 
you are supposed to have.
    Last question: Flight attendant training. We all know what 
happened that horrible day, September 11th, where the flight 
attendants were----
    The Chairman. Murdered.
    Senator Boxer. ``Murdered'' is the right word, yes. And 
flight attendants are really in the plane the first line of 
defense. Some of us have worked hard to have qualified pilots 
armed and I am glad that passed and hope you are moving along. 
But I am worried about the training. What is the timetable for 
getting the training completed? When is the rule on flight 
attendant security training going to be issued?
    Mr. McHale. We have worked hard on a curriculum and the 
requirements of flight attendant training. One of the 
challenges we have got right now is actually the FAA 
authorization, reauthorization bill you mentioned, changes the 
rules quite considerably for that.
    Senator Boxer. Right. They weaken them.
    Mr. McHale. Changed it from compulsory to voluntary.
    Senator Boxer. It weakened it.
    Mr. McHale. It also causes us to do the training, pick up 
some of the cost of that. So part of what we are trying to deal 
with here is are we going to have a very different set of rules 
that we have to operate under in the next few weeks. So we are 
working----
    Senator Boxer. So you are waiting to see the fate of that--
--
    Mr. McHale. That is part of it, yes.
    Senator Boxer.--aforementioned bill.
    Mr. McHale. It would be a very different program.
    Senator Boxer. Thank you.
    The Chairman. Well, I want to thank you, Senator Boxer, for 
your obvious deep involvement in this issue and your expertise, 
and I thank you very much. I also share your concern about the 
San Diego Airport, given that so many of my constituents use 
that airport, particularly in this summer months, where I might 
say they are not well treated by the people of San Diego. But 
we have to work on that as a long-term issue.
    But I do want to thank you, Senator Boxer, for your 
involvement. We would not have probably had this hearing if it 
had not been for you. We will be having hearings in the future 
on this issue.
    Mr. McHale, the one thing I want to emphasize to you, we do 
not want to be surprised. If there are problems and there are 
issues, we want to be informed. We do not want to be surprised. 
We want to work with you. My view is that the work of TSA has 
been overall well, with the understandable problems that are 
associated with the formation of a huge Federal bureaucracy. 
But we also acknowledge we have a long way to go.
    I hope you will work with Ms. Berrick in designing a way 
for us to gauge the progress or lack of progress as you move 
forward to a more efficient and professional organization.
    Dr. Albright, if there is one thing I know about this 
issue, it is we need technology. We need technology. We 
predicted a long time ago that we would have some kind of 
system where people who are, quote, ``trusted'' could move 
right through, and we get hung up in racial profiling and all 
kinds of other issues, and they are understandable.
    But I cannot see, frankly, from my eyesight any significant 
improvement in the process that passengers go through since the 
day that these procedures were installed. I will not say that. 
I have seen some improvement. Do not get me wrong. I do not see 
grandmothers and little teeny kids being frisked, as we did 
perhaps some time ago.
    Senator Boxer. I am a grandmother and I get frisked.
    The Chairman. But you do not look like one, Senator Boxer.
    So we really need to focus on this technology, not only on 
the issue that was discussed in the closed hearing, but just to 
provide the American people who are using their primary mode of 
transportation outside of automobiles as a way of getting from 
one place to another with a certain confidence that they will 
be able to go in a safe and secure and yet expeditious fashion.
    So I hope that you will be able to report back to us, Dr. 
Albright, some improvements that have been made.
    Mr. McHale, again I would much rather hear about it than 
read about it.
    Mr. McHale. Absolutely.
    The Chairman. Because then obviously we have not done our 
respective jobs of oversighting and assisting and your job of 
keeping us informed and working with us.
    It has been a very helpful hearing. I thank the witnesses 
and this hearing is adjourned.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]

                            A P P E N D I X

 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                          Cathleen A. Berrick
Budget Issues
    Question 1. How much funding do you think they need to do the job 
right in Fiscal Year 2004?
    Answer. We have not specifically evaluated the amount of funding 
TSA needs to adequately carry out its mission during Fiscal Year 2004. 
However, we identified that TSA faces the following three key funding 
and accountability challenges in securing commercial aviation: (1) 
focusing limited financial resources on the areas of highest priority; 
(2) ensuring that costs for aviation security enhancements are 
controlled; and (3) measuring the effectiveness of security initiatives 
already implemented to determine whether they are achieving intended 
results. The Department of Homeland Security received an appropriation 
of $3.7 billion for aviation security for Fiscal Year 2004. In 
addition, the Aviation and Transportation Security Act (ATSA) created a 
passenger security fee to pay for specified costs of providing civil 
aviation; however, the fee has not generated enough money to cover the 
costs. The Department of Transportation's Inspector General reported 
that the security fees are estimated to generate only about $1.7 
billion during Fiscal Year 2004.
    Due to limited funding, TSA needs to set priorities so that its 
resources can be focused and directed to those aviation security 
enhancements most in need of implementation. We have recommended that 
TSA apply a risk management approach to focus its limited resources to 
strengthen security in aviation as well as in other modes of 
transportation.\1\ A risk management approach is a systematic process 
to analyze threats, vulnerabilities, and the criticality (or relative 
importance) of assets. Implementing this approach would enable TSA to 
better support key decisions and link available funding with efforts 
that are of the highest priority. TSA has agreed with our 
recommendation and expects to complete the development and automation 
of its risk management tools by September 2004.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Aviation Security: 
Vulnerabilities and Potential Improvements for the Air Cargo System, 
GAO-03-344 (Washington, D.C.: Dec. 20, 2002); and U.S. General 
Accounting Office, Homeland Security: A Risk Management Approach Can 
Guide Preparedness Efforts, GAO-02-208T (Washington, D.C.: Oct. 31, 
2001).
---------------------------------------------------------------------------
    TSA has implemented numerous initiatives designed to enhance 
aviation security, but it has collected limited information on the 
effectiveness of these initiatives, particularly the passenger 
screening program. We have found that for its passenger screening 
program, TSA's performance data has been focused on progress in meeting 
deadlines mandated by ATSA, rather than on the effectiveness of the 
program. To measure the effectiveness of security initiatives already 
implemented, we have advocated that TSA develop outcome-oriented 
strategic goals and performance measures, and have recommended steps 
that TSA should take to strengthen its strategic planning efforts.\2\ 
These steps include establishing security performance goals and 
measures for all modes of transportation, and applying practices that 
have been shown to provide useful information in agency performance 
plans.\3\ Without information on the effectiveness of its programs and 
a process for prioritizing spending on security initiatives based on an 
assessment of threats and vulnerabilities, TSA and the public have 
little assurance regarding whether TSA is using its resources to 
maximize security benefits. TSA has agreed to our recommendations, and 
has reported that it is in the process of developing outcome-based 
performance measures for incorporation in its 5-year performance plan. 
TSA is also implementing several efforts to collect performance data on 
passenger screening.
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Transportation Security 
Administration: Actions and Plans to Build a Results-Oriented Culture, 
GAO-03-190 (Washington, D.C.: Jan. 17, 2003).
    \3\ An annual performance plan is to provide the direct linkage 
between the strategic goals outlined in an agency's strategic plan and 
the day-to-day activities of managers and staff. Additionally, annual 
performance plans are to include performance goals for an agency's 
program activities as listed in the budget, a summary of the necessary 
resources that will be used to measure performance, and a discussion of 
how the performance information will be verified.

    Question 2. Does the reprogramming of more than $854 million in 
Fiscal Year 2003 funding by TSA have a negative effect on the mission 
of the agency as a whole?
    Answer. As you are aware, TSA has a multi-faceted mission. It 
includes ensuring the security for all modes of transportation, 
including commercial aviation. Although we have not specifically 
examined the effects of TSA's reprogramming of $854 million on its 
mission, we believe that there are often consequences associated with 
reprogramming. The effect of reprogramming on an agency's mission 
depends on the amount of funds a program loses or gains and the 
criticality of the program or activity to the agency's mission. TSA's 
reprogramming was largely directed at paying for costs associated with 
hiring, training, and deploying screeners, and was done at the expense 
of transportation security research and development projects, primarily 
next-generation explosives detection systems. Consequently, although 
TSA was able to meet its mandate related to the deployment of 
screeners, other aspects of its mission, such as researching and 
developing new technologies, were delayed. In the past, we and the 
Department of Transportation's Inspector General identified that TSA 
needed to address some of the causes that may have contributed to its 
reprogramming of $854 million in Fiscal Year 2003 funding. For example, 
we and the Inspector General recommended that TSA put in place the 
necessary infrastructure, including a cost accounting system, contract 
oversight, and risk management principles, to help prioritize its 
resources.\4\ In response to these recommendations, TSA has taken some 
actions, including performing criticality, threat, and vulnerability 
assessments. We believe these efforts are a step in the right direction 
and warrant close monitoring by the Congress to ensure funds are 
appropriately spent.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, Aviation Security: Progress 
Since September 11, 2001, and the Challenges Ahead, GAO-03-1150T, 
(Washington, D.C.: Sept. 9, 2003); and U.S. General Accounting Office, 
Aviation Security: Transportation Security Administration Faces 
Immediate Long-Term Challenges, GAO-02-971T, (Washington, D.C.: July 
25, 2002).

    Question 3. Has GAO done any evaluation of TSA's current staffing, 
its staffing standards, and the funding needed to perform this task 
efficiently each year?
    Answer. GAO has two reviews underway that address TSA's efforts to 
adequately staff commercial airports with screeners. At the request of 
the House Subcommittee on Aviation, Committee on Transportation and 
Infrastructure, GAO is currently reviewing, among other issues, TSA's 
efforts to address airport-specific staffing needs, while reducing the 
screener workforce. We also recently initiated a review for this 
committee examining TSA's efforts to deploy its screener workforce to 
ensure the efficient utilization of electronic baggage screening 
equipment.
    In September 2003, we issued a report on our preliminary 
observations on our passenger screeners review that we are conducting 
for the House Subcommittee on Aviation.\5\ We reported that initially, 
screener staffing levels for all airports were developed by TSA 
headquarters without active input from the agency's Federal security 
directors who are responsible for overseeing security at each of the 
Nation's commercial airports. This led to staffing imbalances and 
concern by Federal security directors that they had limited authority 
to respond to airport specific staffing needs, such as reacting to 
fluctuations in daily and seasonal passenger flow. TSA officials 
acknowledged that their initial staffing efforts created imbalances in 
the screener workforce, and reported that as they work to further 
reduce the screener workforce, they will solicit input from the Federal 
security directors as well as airport and air carrier officials.
---------------------------------------------------------------------------
    \5\ U.S. General Accounting Office, Airport Passenger Screening: 
Preliminary Observations on Progress Made and Challenges Remaining, 
GAO-03-1173 (Washington, D.C.: Sept. 24, 2003).
---------------------------------------------------------------------------
    TSA also recently hired a consultant--Regal Decision Systems, 
Inc.--to examine its screener staffing levels at commercial airports. 
Based on Regal's study, TSA anticipates having a model for screener 
staffing that incorporates proven features that Regal has developed in 
its work for the Immigration and Naturalization Service (now the Bureau 
of Immigration and Customs Enforcement) Workforce Analysis Model (WAM). 
According to a TSA official, this model has been used to support the 
Immigration and Naturalization Service budgetary staffing analysis and 
builds upon existing TSA staffing models. We plan to complete our 
review of screener staffing levels and issue a report on our results by 
June 30, 2004.
    GAO has also reported that TSA faces the challenge of strategically 
sizing and managing its workforce as efficiency is improved with new 
security-enhancing technologies, processes, and procedures.\6\ For our 
recently initiated review of the checked baggage screener workforce, we 
will determine the impact of screener staffing levels on the 
effectiveness of baggage screening operations. As part of this review, 
we will determine to what extent TSA has implemented alternative 
baggage screening methods as a result of imbalances in screener 
staffing levels. We will also examine the impact of recent TSA screener 
workforce initiatives, such as cross-training passenger and baggage 
screeners and hiring part-time screeners, on the effectiveness of 
checked baggage-screening operations (e.g., utilization of explosive 
detection systems). Finally, in a separate review, we plan to identify 
the potential impacts of installation of airport in-line checked 
baggage screening systems, (e.g., reduced checked baggage screener 
staffing levels). We expect to issue reports on the results of these 
reviews in the spring of 2004.
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, Aviation Security: Efforts to 
Measure Effectiveness and Address Challenges, GAO-04-232T (Washington, 
D.C.: Nov. 5, 2003).
---------------------------------------------------------------------------
Cockpit Security
    Question 4. Has GAO looked at security training for flight 
attendants, what are your feelings concerning the ability of a group of 
hijackers to overpower the flight crew to get to the cockpit, and what 
does GAO believe needs to be done to improve the current training and 
the flight deck and cabin security procedures?
    Answer. GAO has not conducted a review of the security training for 
flight attendants, or current security procedures employed by the 
flight deck and cabin crew. However, due to the importance of the 
flight deck and cabin crew's role in providing a last line of defense 
for security, and limited information on TSA's progress in this area, 
we believe a review of these issues would be valuable. Security 
provided by flight and cabin crew members is one element of TSA's 
layered approach to security that has not been closely examined.
    GAO is aware that ATSA and the Federal Aviation Administration's 
(FAA) reauthorization act--Vision 100: Century of Aviation 
Reauthorization Act (as passed by the House and Senate)--include 
requirements for establishing security training for flight and cabin 
crew members. Specifically, ATSA required that not later than 60 days 
after enactment of the act, FAA and TSA develop detailed guidance for a 
scheduled passenger air carrier flight and cabin crew training program 
to prepare crew members for potential threat conditions. The act 
required that the program address the:

  <bullet> determination of the seriousness of an occurrence,

  <bullet> crew communication and coordination,

  <bullet> appropriate responses to defend oneself,

  <bullet> use of protective devices assigned to crew members (if such 
        devices are required by FAA or TSA),

  <bullet> psychology of terrorists to cope with hijacker behavior and 
        passenger responses,

  <bullet> live situational training exercises regarding various threat 
        conditions,

  <bullet> flight deck procedures or aircraft maneuvers to defend the 
        aircraft, and

  <bullet> any other subject matter deemed appropriate by FAA.

    ATSA also requires that (1) FAA review, approve, or suggest 
revisions to the air carrier's proposed training program within 30 days 
of receiving the proposal, and (2) the air carrier complete the 
training within 180 days after approval from TSA.
    FAA's reauthorization act (as passed by the House and Senate) would 
require that air carriers providing scheduled passenger air 
transportation carry out a training program for flight and cabin crew 
members to prepare them for potential threats. The program would be 
required to address the same elements as required by ATSA in addition 
to instruction on the proper commands for passengers and attackers and 
procedures for conducting a cabin search, including explosive device 
recognition. The act also would provide TSA with the discretion to 
decide whether to set minimum guidelines for airlines to follow, and 
would require the Under Secretary for Border and Transportation 
Security to develop and provide a voluntary advanced self-defense 
training program not later than one year after enactment of the Act.
Surface-to-Air Missile Defense
    Question 5. How much is being spent to research what procedures and 
devices work and what won't work?
    Answer. The Department of Homeland Security plans to spend $120 
million during Fiscal Years 2004 and 2005 to support the development 
and demonstration of an antimissile device for commercial aircraft. 
Congress earmarked $60 million in FY04 for this ongoing effort in the 
conference report (H.R. Conf. Rep. No. 108-280) accompanying DHS' FY 
'04 appropriations act (PL 108-90). Additionally, both the House and 
the Senate introduced legislation (H.R. 580 and S. 311) that would (1) 
direct the Secretary of Transportation to issue regulations requiring 
all air carriers' turbojets to be equipped with a missile defense 
system, (2) require the Secretary to purchase missile defense systems 
and make them available to all air carriers, and (3) establish certain 
interim security measures to be taken before the deployment of missile 
defense systems.
    According to some estimates, there are nearly half a million ``man-
portable air defense'' systems (MANPADs) in the world today. A single 
person can use these shoulder launched missiles to destroy aircraft, 
raising terrorism and other security concerns for the U.S. and 
international commercial aviation. Consequently, there are significant 
questions about the nature and effectiveness of U.S. and international 
efforts to control the proliferation of these weapons. We have a review 
underway for the House Armed Services Committee and the House Aviation 
Subcommittee that addresses several of these questions, including the 
(1) nature and extent of the threat from MANPADs, (2) effectiveness of 
U.S. controls on the use of exported MANPADs, (3) the ways in which 
multilateral efforts attempt to stem MANPAD proliferation, and (4) 
types of countermeasures available to minimize the threat of MANPADs 
and the cost of implementing these countermeasures. We plan to issue a 
report on the results of our review in March 2004.
Passenger Screening & Checkpoint Issues
    Question 6. Does the cap of 45,000 full-time-equivalent screeners 
included in the Homeland Security Appropriations bill provide TSA the 
flexibility it needs to devise appropriate staffing levels for 
individual facilities?
    Answer. A cap on TSA's full-time equivalent screeners limits the 
flexibility that TSA has to devise appropriate staffing levels for 
individual airports. TSA's current staffing model was developed using 
45,000 screeners as the required outcome, rather than building a 
staffing allocation model based on actual needs. In September 2003, we 
reported that initially, TSA headquarters determined screener-staffing 
levels for all airports without actively seeking input from Federal 
security directors.\7\ As mentioned earlier, this led to staffing 
imbalances and concern by Federal security directors that they had 
limited authority to respond to airport-specific staffing needs, such 
as reacting to fluctuations in daily and seasonal passenger flow. TSA 
officials acknowledged that their initial staffing efforts created 
imbalances and reported that as they work to further reduce the 
screener workforce, they will solicit input from Federal security 
directors as well as airport and air carrier officials.
---------------------------------------------------------------------------
    \7\ See footnote 5.
---------------------------------------------------------------------------
    TSA reported that they determined the current screener staffing 
levels using a computer-based modeling process that took into account 
the number of screening checkpoints and lanes at an airport; 
originating passengers; the number of airport workers requiring 
screening; projected air carrier service increases and decreases during 
calendar year 2003; and hours needed to accommodate screener training, 
leave, and breaks. TSA also recently hired a consultant--Regal Decision 
Systems, Inc.--to examine its screener staffing levels at commercial 
airports. The study is expected to be completed by the second quarter 
of 2004.
    As part of our ongoing work on passenger and baggage screening, we 
are conducting a survey of all Federal security directors to obtain 
their input on staffing levels at airports, including whether they have 
the authority to respond to airport specific staffing needs. 
Additionally, we will continue to examine TSA's efforts to address 
airport-specific staffing needs, while reducing the screener workforce, 
and plan to issue a report by June 30, 2004. For our recently initiated 
review of the checked baggage screener workforce, we will also 
determine the impact of screener staffing levels on the effectiveness 
of baggage screening operations. We plan to issue a report on this 
review in the spring of 2004.

    Question 7. How will TSA deal with the cap as air traffic returns 
to more normal traffic growth levels, and do you believe that this is a 
situation where budgetary issues may end up driving operational issues 
rather than the actual threat levels?
    Answer. We believe that it will be a challenge for TSA to respond 
to traffic growth while operating at capped screener levels. Operating 
under these levels inherently limits TSA's flexibilities in responding 
to airport specific staffing needs. In an effort to overcome these 
limitations, TSA recently began hiring part-time screeners to 
adequately staff airports based on daily and seasonal fluctuations in 
passenger flow. Additionally, TSA anticipates that it will gain 
staffing efficiencies through implementing new security-enhancing 
technologies, processes, and procedures. For example, as explosive 
detection systems are integrated with baggage-handling systems, the use 
of more labor-intensive screening methods, such as trace detection 
techniques and manual bag searches, may be reduced. Other planned 
security enhancements, such as the Computer-Assisted Passenger 
Prescreening System and the registered traveler program, also have the 
potential to make screening more efficient. Additionally, if airports 
choose to apply to opt out of the Federal screener program beginning in 
November 2004 and use their own or contract employees to provide 
screening instead of TSA screeners, a significant impact on TSA 
staffing could occur.
    As part of our passenger screeners review, we currently are 
examining TSA's efforts to adequately staff airports, while reducing 
the overall size of the screener workforce. We also recently initiated 
a review of TSA's efforts to deploy its screener workforce to ensure 
the efficient utilization of explosive detection systems and explosive 
trace detection equipment. We believe the results of these reviews will 
identify the extent to which TSA can support airport security needs 
through available staffing.

    Question 8. How many people does TSA need to process security 
checks at airports in the U.S. expeditiously?
    Answer. While GAO has not independently determined the appropriate 
number of screeners TSA needs to process security checks at commercial 
airports, we are currently examining TSA's efforts to (1) address 
airport-specific staffing needs, while reducing the screener workforce, 
and (2) deploy its screener workforce to ensure the efficient 
utilization of electronic baggage screening equipment. As mentioned 
earlier, we believe these reviews will identify the extent to which 
available staff can support airport security needs. Additionally, TSA 
recently hired an outside consultant (Regal Decision Systems, Inc.) to 
conduct a study of screener staffing levels at various airports and 
expects the study to be completed by the first quarter of 2004. TSA is 
also continuing to review the staffing allocation provided through its 
initial modeling efforts to assess air carrier and airport growth 
patterns and will make adjustments as appropriate. We plan to review 
the results of these initiatives during our ongoing review.
Cargo Screening
    Question 9. Does GAO believe that TSA's reprogramming of $61.2 
million of its $75 million research and development (R&D) budget in 
Fiscal Year 2003 limits TSA's ability to sustain and strengthen 
aviation by making greater investments in R&D for more effective 
equipment to screen passengers, baggage, and cargo?
    Answer. TSA's reprogramming of over 80 percent of its Fiscal Year 
2003 research and development budget to help pay for staff salaries and 
other programs personnel costs during Fiscal Year 2003 could limit 
TSA's ability to sustain and strengthen passenger, baggage, and air 
cargo security. The reprogramming was largely directed at paying for 
costs associated with hiring, training, and deploying screeners and was 
done at the expense of transportation security research and development 
projects, particularly related to next generation explosive detection 
systems. For Fiscal Year 2004, TSA has been appropriated $ 155 million 
for R&D, of which the Conference Report (H.R. Conf. Rep. No. 108-280) 
earmarked $45 million for R&D on next-generation explosive detection 
systems and $55 million for air cargo security.
    As you know, vulnerabilities exist in ensuring the security of 
cargo carried aboard commercial passenger and all-cargo aircraft. To 
reduce these vulnerabilities, ATSA requires that all cargo carried 
aboard commercial passenger aircraft be screened and that TSA have a 
system in place as soon as practicable to screen, inspect, or otherwise 
ensure the security of cargo on all-cargo aircraft. Despite these 
requirements, it has been reported that less than 5 percent of cargo 
placed on passenger airplanes is physically screened.\8\ TSA's primary 
approach to ensuring air cargo security and safety is to ensure 
compliance with the ``known shipper'' program, which allows shippers 
that have established business histories with air carriers or freight 
forwarders to ship cargo on planes. However, we and the Department of 
Transportation's Inspector General have identified weaknesses in the 
known shipper program and in TSA's procedures for approving freight 
forwarders, such as possible tampering with freight at various handoff 
points before it is loaded onto aircraft.\9\
---------------------------------------------------------------------------
    \8\ Congressional Research Service, Air Cargo Security, September 
11, 2003.
    \9\ U.S. General Accounting Office, Aviation Security: 
Vulnerabilities and Potential Improvements for the Air Cargo System, 
GAO-03-344 (Washington, D.C.: Dec. 20, 2002).
---------------------------------------------------------------------------
    Since September 2001, TSA has taken a number of actions to enhance 
cargo security, such as implementing a database of known shippers in 
October 2002. However, in December 2002, we reported that additional 
operational and technological measures, such as checking the identity 
of individuals making cargo deliveries, have the potential to improve 
air cargo security in the near term. \10\ We also recommended that TSA 
develop a comprehensive plan for air cargo security that incorporates a 
risk management approach, includes a list of security priorities, and 
sets deadlines for completing actions. TSA agreed with our 
recommendation and developed an air cargo strategic plan, which it 
released in November 2003. According to the plan, TSA evaluated the 
feasibility of physically screening 100 percent of all air cargo and 
determined that limitations of technology and infrastructure make such 
an undertaking impractical, from both a flow-of-commerce and resource 
point of view. Instead, TSA plans to focus its currently available 
tools, resources, and infrastructure in a targeted manner to secure air 
cargo and to accelerate research and development of more effective and 
comprehensive tools for the future. For example, TSA is developing a 
Cargo Prescreening System that will take shipment data as well as 
information from the Known Shipper and other indirect air carriers 
databases and develop a risk score for that specific shipment based on 
terrorist watch list information, other intelligence, and advanced 
targeting algorithms. Because it will take time to develop the system, 
TSA will require that aircraft operators begin to randomly inspect 
cargo to be transported on passenger aircraft. TSA also plans to 
initiate a number of pilot projects to study the applicability of 
current and emerging non-intrusive cargo inspection technologies.
---------------------------------------------------------------------------
    \10\ See footnote 9.
---------------------------------------------------------------------------
    In our ongoing work, we are continuing to collect and analyze 
information on how TSA (1) spent transportation security research and 
development funds during Fiscal Year 2003, and plans to spend funds 
during Fiscal Year 2004, (2) determines and prioritizes research and 
development needs, (3) coordinates with and reaches out to Federal and 
private sector research and development organizations to understand 
available and emerging transportation security technologies, and (4) 
plans to accelerate the development and deployment of transportation 
security technologies. The results of our review will be reported to 
our requesters in the spring of 2004.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Cathleen A. Berrick
    Question 1. In your opinion, has TSA been requesting a sufficient 
level of funding to carry out its mission? If not, where are the most 
dramatic shortfalls and what impact are insufficient resources having 
on the agency's ability to carry out its mission?
    Answer. We have not specifically evaluated the amount of funding 
TSA needs to adequately carry out its mission during Fiscal Year 2004. 
However, we identified that TSA faces the following three key funding 
and accountability challenges in securing commercial aviation: (1) 
focusing limited financial resources on the areas of highest priority; 
(2) ensuring that costs for aviation security enhancements are 
controlled; and (3) measuring the effectiveness of security initiatives 
already implemented to determine whether they are achieving intended 
results. The Department of Homeland Security received an appropriation 
of $3.7 billion for aviation security for Fiscal Year 2004. In 
addition, the Aviation and Transportation Security Act (ATSA) created a 
passenger security fee to pay for specified costs of providing civil 
aviation; however, the fee has not generated enough money to cover the 
costs. The Department of Transportation's Inspector General reported 
that the security fees are estimated to generate only about $1.7 
billion during Fiscal Year 2004.
    Due to limited funding, TSA needs to set priorities so that its 
resources can be focused and directed to those aviation security 
enhancements most in need of implementation. We have recommended that 
TSA apply a risk management approach to focus its limited resources to 
strengthen security in aviation as well as in other modes of 
transportation.\11\ A risk management approach is a systematic process 
to analyze threats, vulnerabilities, and the criticality (or relative 
importance) of assets. Implementing this approach would enable TSA to 
better support key decisions and link available funding with efforts 
that are of the highest priority. TSA has agreed with our 
recommendation and expects to complete the development and automation 
of its risk management tools by September 2004.
---------------------------------------------------------------------------
    \11\ U.S. General Accounting Office, Aviation Security: 
Vulnerabilities and Potential Improvements for the Air Cargo System, 
GAO-03-344 (Washington, D.C.: Dec. 20, 2002); and U.S. General 
Accounting Office, Homeland Security: A Risk Management Approach Can 
Guide Preparedness Efforts, GAO-02-208T (Washington, D.C.: Oct. 31, 
2001).
---------------------------------------------------------------------------
    TSA has implemented numerous initiatives designed to enhance 
aviation security, but it has collected limited information on the 
effectiveness of these initiatives, particularly the passenger 
screening program. We have found that for its passenger screening 
program, TSA's performance data has been focused on progress in meeting 
deadlines mandated by ATSA, rather than on the effectiveness of the 
program. To measure the effectiveness of security initiatives already 
implemented, we have advocated that TSA develop outcome-oriented 
strategic goals and performance measures, and have recommended steps 
that TSA should take to strengthen its strategic planning efforts.\12\ 
These steps include establishing security performance goals and 
measures for all modes of transportation, and applying practices that 
have been shown to provide useful information in agency performance 
plans.\13\ Without information on the effectiveness of its programs and 
a process for prioritizing spending on security initiatives based on an 
assessment of threats and vulnerabilities, TSA and the public have 
little assurance regarding whether TSA is using its resources to 
maximize security benefits. TSA has agreed to our recommendations, and 
has reported that it is in the process of developing outcome-based 
performance measures for incorporation in its 5-year performance plan. 
TSA is also implementing several efforts to collect performance data on 
passenger screening.
---------------------------------------------------------------------------
    \12\ U.S. General Accounting Office, Transportation Security 
Administration: Actions and Plans to Build a Results-Oriented Culture, 
GAO-03-190 (Washington, D.C.: Jan. 17, 2003).
    \13\ An annual performance plan is to provide the direct linkage 
between the strategic goals outlined in an agency's strategic plan and 
the day-to-day activities of managers and staff. Additionally, annual 
performance plans are to include performance goals for an agency's 
program activities as listed in the budget, a summary of the necessary 
resources that will be used to measure performance, and a discussion of 
how the performance information will be verified.

    Question 2. Has GAO looked at where TSA is spending its research 
dollars in Fiscal Year 2003, and its plans for Fiscal Year 2004? Do 
they have enough funds to carry out an aggressive research program for 
things like biometrics and next general explosive detection systems?
    Answer. We are currently reviewing TSA expenditures related to its 
transportation security research and development (R&D) program. This 
work was requested by the House Subcommittee on Aviation, Committee on 
Transportation and Infrastructure; the House Subcommittee on Homeland 
Security, Committee on Appropriations; the House Committee on 
Technology; and the Senate Committee on Governmental Affairs. According 
to our preliminary analyses, during Fiscal Year 2003, TSA was 
appropriated about $109 million for R&D, of which $74 million was for 
next-generation explosive detection systems. However, TSA reprogrammed 
about $61 million in R&D funding on next-generation explosive detection 
systems to help pay for staff salaries and other programs. For Fiscal 
Year 2004, TSA has been appropriated $155 million for R&D, of which the 
Conference Report accompanying the Fiscal Year 2004 Department of 
Homeland Security Appropriation Act earmarked $45 million for R&D on 
next-generation explosive detection systems.
    According to TSA, the reprogramming resulted in TSA spending 
significantly less than planned during Fiscal Year 2003 on R&D projects 
such as biometrics and next-generation EDS. However, the funds that 
have been appropriated during Fiscal Year 2004 should permit TSA to 
carry out its plans to pursue new technologies, including biometrics 
and next generation explosive detection systems to scan for explosives 
at security checkpoints and to inspect air cargo. Our preliminary 
analyses of ongoing and planned TSA R&D projects has shown that there 
are numerous projects related to biometrics and next-generation 
explosive detection systems. We plan to continue to collect and analyze 
information on TSA's R&D program. The results of our review will be 
reported to our requesters in the spring of 2004.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                             Stephen McHale
Access to Secure Areas
    Passengers and aircrew members are screened when they enter the 
boarding areas, but airport employees, vendors, and contractors are 
not. Yet they have access to secure areas as well. TSA contends that 
screening airport employees, vendors, and contractors is ``just too 
difficult.''
    Question 1. Why are airport employees, vendors, and contractors 
(and their personal belongings) not screened when they enter the 
airport security identification areas (SIDAs)/airport operations areas 
(AOAs)?
    Answer. TSA is actively strengthening safeguards regarding access 
to Security Identification Display Area (SIDA) and sterile areas of our 
Nation's airports. Approximately 1.2 million aviation personnel 
including airport, airline, and vendor employees work in U.S. airports. 
More than 90 percent of these employees work in the Security 
Identification Display Area (SIDA) because they require access to 
aircraft to load luggage and cargo, provide catering services, fuel 
airplanes, perform maintenance, or serve as flight crew. Approximately 
10 percent of these workers require access only to the airport sterile 
area, which is located past the screening checkpoint. The quantity of 
airport workers with SIDA credentials and the fact that they have 
access to a wide variety of tools and equipment within the SIDA area 
represent significant challenges.
    TSA agrees that those vendor employees that work in the sterile 
area of the airport should be physically screened as they have access 
to screened passengers, and has had Security Directives and Emergency 
Amendments in place for quite some time requiring this practice to be 
instituted. TSA is currently taking steps to address vulnerabilities in 
this arena by enhancing enforcement of this requirement and introducing 
enhanced measures to increase security in the SIDA and secure areas of 
the airports. Those measures include reducing the number of access 
points to the SIDA, increasing the number of random patrols by Law 
Enforcement Officers (LEOs) and more random identification checks. This 
approach is consistent with TSA's overall security strategy of a 
``system of systems,'' whereby each security ring contributes to TSA's 
overall security system but the overall system does not rely 
exclusively on any one component. In other words, the different 
security components complement and reinforce each other.
    In applying this ``system of systems'' strategy to securing SIDA 
and sterile area access, TSA is also in the process of strengthening 
background checks for these workers. TSA currently requires 
fingerprint-based criminal history record checks of all airline and 
airport workers who have access to SIDA and vendor employees who work 
in the sterile area of an airport. In June 2004, TSA will begin 
conducting enhanced background checks on all commercial aviation 
workers in the U.S. who have access to the secure and sterile areas of 
our Nation's airports. This initiative will also include vetting new 
employees as they join the workforce, and the integration of newly 
available threat information. These enhanced checks will include 
advanced analysis of the best available information to determine 
whether an individual poses a potential terrorist threat. This 
initiative will focus on preventing known terrorists from gaining 
credentials allowing access to SIDA and sterile areas, thereby 
diminishing threats to our aviation system.
Information Dissemination
    Question 2. TSA forwards security directives (SD's) and Information 
Circulars (IC's) to the airline corporate security departments, but it 
is my understanding that only American Airlines and UPS forward them 
directly to their Captains. Most airline corporate security managers 
still limit who gets them even though they are marked as ``distribute 
to those with an operational need to know.'' Should airline Captains 
get ``Security Directives'' and ``Information Circulars,'' which 
provide updated threat information, directly?
    Answer. Security Directives (SDs) and Information Circulars (ICs) 
do not contain specific threat information. ICs contain information of 
concern to transportation security personnel, while SDs contain changes 
in procedures to security programs and/or plans. SDs and ICs are 
provided to the regulated party (i.e., air carriers). The carriers have 
a responsibility to safeguard sensitive security information, but also 
distribution authority to forward to those with an operational need to 
know. Title 49 Code of Federal Regulations (CFR) Sec. 1544.215 states 
that each aircraft operator must designate and use the pilot in command 
as the In-flight Security Coordinator for each flight to perform duties 
specified in the aircraft operator's security program. Those duties 
include reviewing pertinent security information for each flight with 
the ground security coordinator. It is the responsibility of the 
aircraft operator to keep both ground security and in-flight security 
coordinators properly informed, particularly with regard to threats and 
threat response as noted in 49 CFR Sec. Sec. 1544.301 and 303.

    Question 3. Are there any steps that you intend to take to improve 
this process?
    Answer. TSA is working to simplify the language and framework of 
SDs to reduce the opportunity for misinterpretation. TSA expects 
aircraft operator ground security and in-flight security coordinators 
to perform their duties as assigned in the TSA approved aircraft 
operator's security program.
Flight Attendants
    Question 4. The need for flight attendant training, which includes 
the ability of flight attendants to communicate discreetly with the 
cockpit, dates back to a White House Commission in 1999 on flight 
attendant injuries caused by unruly passengers and turbulence. The new 
types of dangers flight attendants face has sharply focused the need 
for this type of training. Why has flight attendant crew defense 
training not been adopted and funded?
    Answer. TSA continues to pursue a dual solution to meet the needs 
of crew member security training. First, with respect to basic 
training, TSA is in the process of establishing new training standards. 
These standards will address all crew security training requirements 
including those found in Visionl00--Century of Aviation Reauthorization 
Act (P.L. 108-76). TSA intends to issue the new standards in the late 
summer, 2004 to coincide with the approval of the New Common Strategy. 
In finalizing these standards, we will continue to seek input from the 
stakeholder community.
    Second, TSA is in the process of finalizing a voluntary Advanced 
Crew Member Self Defense Program. As currently envisioned, this program 
will be approximately 24-28 hours in length, 85 percent of which will 
be hands on learning and practicing of self defense techniques. We are 
in the process of meeting with various stakeholders, including 
representatives of flight attendants, to receive input so we can 
finalize this curriculum. We intend to conduct five (5) prototype 
training sessions beginning in August 2004 and look forward to 
stakeholders participating and providing their feedback.
    TSA is on schedule to meet the deadlines set forth in Vision 100 to 
establish an Advanced Crew Member Self-Defense Program and minimum 
standards for basic security training.
Budget Issues
    Question 5. Each year, the Bush Administration's budget requests 
for TSA do not meet the agency's needs, and Congress is forced to bail 
TSA out with emergency funding. In addition, TSA has reprogrammed 
hundreds of millions of dollars within its budget which has created 
confusion and led to concerns about accountability and spending 
priorities within the agency. With an appropriation of $5.2 billion, do 
you believe that TSA is funded at the proper level for FY 2004?
    Answer. TSA's final enacted appropriation for FY 2004 is $4.6 
billion, and the funding level is proper and sufficient.

    Question 6. Is TSA taking steps to commit monies in the coming 
Fiscal Year to those programs that were left underfunded due to 
reprogramming or a budget shortfall?
    Answer. Current FY 2004 spending plans should address funding needs 
adequately in FY 2004 and FY 2005.
Explosive Detection System (EDS) Issues
    In an effort to aid the installation of EDS, the FY 2004 Homeland 
Security Appropriations Act included $250 million for Letters of Intent 
(LOI) to place EDS in-line, and $150 million to procure more EDS 
machines.
    Question 7. How many LOI requests have you received to date?

    Question 8. Is the $250 million allocated for FY 2004 going to meet 
your needs for EDS installations this year?
    Answer 7-8. As of the date of this hearing, TSA had issued six LOIs 
covering seven airports.
    Additional Information: Since the hearing, two more LOIs were 
signed, bringing the total of eight LOIs covering nine airports. The 
$250 million allocated in FY 2004 for explosives detection system (EDS) 
installations will cover installment payments on these eight LOIs based 
on a 75 percent Federal contribution.
    The President's FY 2005 budget proposal to the Congress requests 
funding to support the eight currently signed LOIs. While LOI's are an 
important tool to assist airports in realizing efficiencies in handling 
checked baggage, TSA also pursues other mechanisms that provide EDS 
technology to the airports. An additional 26 airports have expressed an 
interest in entering into an LOI with TSA for an in-line baggage 
screening solution.
    At the current funding level, and applying the 75/25 cost share 
formula, TSA's FY 04 and FY 05 budget allocations for EDS installation 
can financially support:

  <bullet> Reimbursement payments for the 8 existing LOIs (covering 9 
        airports);

  <bullet> Installation and multiplexing of EDS equipment at the 9 LOI 
        airports;

  <bullet> EDS installation work needed at 13 airports that are 
        building in-line systems; and

  <bullet> Using FY03 FAA AIP grant money and EDS and ETD non-LOI 
        installation work needed at airports to provide equipment 
        capacity. The airports selected have a need for increased 
        equipment capacity because of increased passenger loads and 
        airport terminal expansion projects to support increases to air 
        carrier service.
Cargo Screening
    Question 9. TSA is moving ahead on an initiative to establish an 
Air Cargo Program this year for which Congress provided $85 million in 
the FY 2004 Homeland Security Appropriations Act. Of these funds, $30 
million has been directed towards strengthening the agency's oversight 
of air cargo security, and $55 million has been provided for air cargo 
security research and development (R&D) activities. What steps has TSA 
taken on this initiative to date?
    Answer. Known Shipper Program Enhancements: TSA is currently 
enhancing the Known Shipper database which will allow verification of 
information and the authenticity of the entity from which the 
information is received. Enhancements include developing an automated 
Indirect Air Carrier (IAC) validation system that will allow us to 
better manage the program by providing the means to collect the data 
required to conduct criminal history records checks. The electronic 
system will replace the current labor intensive paper-based system, and 
will allow for immediate disqualification of noncompliant IACs. 
Furthermore, we are working with U.S. Customs and Border Protection to 
develop a compliance measurement program that will enhance the level of 
security, scrutiny and vetting of Known Shippers. Additionally, TSA is 
exploring the development of a freight assessment system that proposes 
to evaluate the risk associated with each shipment. Shipments deemed 
``high risk'' will be identified for additional inspection before being 
transported on a passenger aircraft. As TSA does not currently capture 
this information, TSA is collaborating with CBP on the development of 
this program. TSA is hiring 100 air cargo inspectors to strengthen the 
field inspection workforce, in order to enhance regulatory compliance 
and supply chain security. TSA issued an announcement for these 
positions in November 2003 and is currently accepting applications.
    Additional Information: Since this hearing, the funding provided in 
the Department of Homeland Security Appropriations Act, 2004 (P.L. 108-
90) enabled TSA to hire 100 new cargo inspectors. All 100 cargo 
inspector positions have been selected, and paperwork is being 
processed by TSA Human Resources. We anticipate extending job offers to 
these applicants and bringing them on board by mid-2004.

    Question 10. Air Cargo Canine Screening Pilot Program: TSA-
certified explosives detection canine teams have been screening 
priority mail at eleven different airports across the country. Thus far 
the effective program has screened over 8.5 million pieces of mail. 
TSA-certified explosives detection canine teams have increased their 
efforts to focus on cargo areas and cargo shipments within the airport 
environment. Recently, the TSA Office of Aviation Operations (AVOPS) 
Cargo Group and the National Explosives Detection Canine Team Program 
(NEDCTP), in cooperation with DHS Customs and Border Protection, 
initiated a combined operation at eight U.S. airports in which outbound 
international cargo and aircraft were screened by TSA-certified 
explosives detection canine teams. TSA has initiated plans to conduct 
an Operational Test and Evaluation (0, T and E) to determine the 
effectiveness of TSA-certified explosives detection canine teams in 
order to facilitate the most efficient means of screening cargo with 
canines, while at the same time maintaining an acceptable detection 
rate. Over the next few months, the TSA NEDCTP staff will continue to 
work with other existing DRS programs in order to facilitate an 
efficient use of canine resources. What are your plans for the $55 
million for R&D activities?
    Answer. We have divided the $55 million for cargo screening 
research and development into three areas. The breakout is as follows:

  <bullet> $26 million directed to the explosives detection system 
        (EDS) air cargo inspection pilot program, which will deploy 
        commercially available or non-developmental explosives 
        detection equipment to airports to inspect high-risk cargo;

  <bullet> $21.5 million directed for research and development to 
        determine what existing technology can be used to build air 
        cargo inspection systems; and

  <bullet> $7.5 million directed for research and development to 
        determine what existing technology can be used to build 
        automated inspection systems for U.S. mail to be carried on a 
        passenger aircraft.

    Question 11. Members of Congress agreed during the development of 
ATSA, and later in the Homeland Security Act (PL 107), that Aviation 
Security affected both passenger airlines and cargo carriers. Did the 
TSA Cargo working group focus only on cargo security for passenger 
aircraft, if so, why?
    Answer. No. In March 2003, TSA established a chartered internal Air 
Cargo Working Group (ACWG) to coordinate and unify TSA air cargo 
security initiatives for passenger and all-cargo aircraft through the 
development and implementation of a comprehensive strategic plan as 
recommended by GAO. This plan was completed and an executive summary 
released on November 17, 2003, and included as one of its four 
strategic objectives measures for securing the all-cargo aircraft 
through appropriate facility security measures. TSA is currently 
developing a Notice of Proposed Rulemaking to implement this strategic 
objective.
    In developing the details of this objective, TSA relied heavily on 
the recommendation of the Aviation Security Advisory Committee (ASAC). 
ASAC is a standing committee organized under the Federal Advisory 
Committee Act and composed of approximately 30 non governmental 
organizations and Federal agencies. It was created in 1989 in the wake 
of the destruction of Pan Am 103 over Lockerbie, Scotland, to provide 
the Federal Government with expert consultation and advice on aviation 
security issues.

    Question 12. What additional restrictions being established on 
shippers and passenger carriers?
    Answer. On November 17, 2003, TSA issued two executive summaries, 
detailing restrictions on shippers and passenger carriers: (1) The Air 
Cargo Strategic Plan; and, (2) Security Directives to require random 
inspections of air cargo, and other security enhancements.
    The Air Cargo Strategic Plan details a multiphased, risk-based 
blueprint for implementing a comprehensive air cargo security approach 
by applying existing capabilities and pursuing emerging technologies. 
TSA has tailored the air cargo security program to manage various 
security risks in a cost effective manner. It is based on the 
Department's goal of securing the air cargo supply chain, including 
cargo, conveyances and aircraft, through the implementation of a 
layered solution that includes: screening all cargo shipments in order 
to determine their level of relative risk; working with our industry 
and Federal partners to ensure that 100 percent of items that are 
determined to be of elevated risk are inspected; developing and 
ensuring that new information and technology solutions are deployed; 
and, implementing operational and regulatory programs that support 
enhanced security measures.
    TSA's agenda for achieving this goal can be divided into four 
strategic objectives: (1) Enhance Shipper and Supply Chain Security; 
(2) Identify Elevated Risk Cargo through Prescreening; (3) Identify 
Technology for Performing Targeted Air Cargo Inspections; and, (4) 
Secure All-Cargo Aircraft Through Appropriate Facility Security 
Measures. The Air Cargo Strategic Plan will be supported by a Notice of 
Proposed Rule Making, which TSA will publish in the coming months, and 
accompanying specific programs and initiatives.
    Random Screening Security Directives. The security directives 
require random inspection of air cargo and also require foreign all-
cargo air carriers to comply with the same cargo security procedures 
that domestic air carriers must follow. Passenger aircraft that carry 
cargo and all cargo planes, both foreign and domestic, will be subject 
to the random inspections on flights within, into, and out of the 
United States. The carriers will conduct the inspections. TSA will 
ensure that inspections are completed properly.
    Foreign all-cargo air carriers operating into and out of the United 
States also will be required to follow security plans approved by TSA 
which detail procedures for screening. In addition, plans will verify 
the identities of persons with access to planes and ensure the security 
of parked aircraft. The directives also outline reporting requirements 
for foreign air carriers should potential threats arise.
Passenger Screening and Checkpoint Issues
    Question 13. A provision in the FY 2004 Homeland Security 
Appropriations bill that was signed into law by President Bush on 
October 1, 2003, maintains a cap on TSA's full-time staffing at 45,000 
positions. TSA has been trying to meet this employment cap since it was 
first imposed, and over the last six months has cut more than 6,000 
screener positions from its workforce. How many screening employees do 
you currently have?
    Answer. As of November 1, 2003, the TSA screening workforce 
headcount of paid employees was approximately 45,600 full-time and 
part-time employees. Because this headcount includes part-time 
screeners, the number of Full-Time Equivalent (FTE) remained under the 
45,000 FTEs cap. The use of part-time screeners provides Federal 
Security Directors with additional flexibility in scheduling screeners, 
allowing them to achieve greater efficiencies in matching capacity to 
the high and low periods of demand for screener services.

    Question 14. Do you plan to make additional cuts?
    Answer. TSA seeks to maintain as many screeners as necessary within 
the current 45,000 FTE statutory cap to provide adequate security 
screening at U.S. airports as required by law while maintaining a 
satisfactory level of customer service. As part of the overall review 
of the funds available for FY 2004, TSA will make every attempt to 
maximize resources for the screening operations payroll to meet airport 
security requirements.
    While the overall size of the workforce is declining, TSA is also 
creating additional capacity by achieving greater efficiencies in the 
scheduling of screeners. Federal Security Directors at each airport now 
have access to scheduling tools that provide real-time information 
enabling them to forecast periods of peak demand for screening. TSA 
uses mores split shifts and has restructured the workforce to reach a 
higher ratio of part-time screeners to maximize operational 
flexibility. As a result of this restructuring, TSA can more 
efficiently schedule screeners to match capacity with the level of 
demand.

    Question 15. Does the cap provide TSA the flexibility it needs to 
devise appropriate staffing levels for individual facilities?
    Answer. TSA reviews the workforce requirements for each airport on 
a periodic basis. TSA has contracted with Regal to develop a ``bottom-
up'' model designed to use airport-specific data to derive highly 
accurate staffing and throughput projections. This tool, once 
operational, will be an important asset in TSA's efforts to ensure that 
our screeners are deployed effectively to maximize the safety and 
security of the traveling public.

    Question 16. How will TSA deal with the cap as air traffic returns 
to more normal traffic growth levels?
    Answer. TSA monitors the recovery and growth of aviation traffic 
levels and will adjust for changing security needs. TSA will continue 
to work hard to achieve efficiencies in the screener workforce and 
maximize the use of available resources. To the extent that resources 
restrict our ability to provide security while maintaining a 
satisfactory level of customer service, we will inform the Department 
of Homeland Security (DHS), the Office of Management and Budget (OMB), 
and Congress of the probable impact. TSA will also suggest approaches 
to mitigate any adverse impact on effective security operations and 
work with Congress to reach solutions.

    Question 17. Do you believe that this is a situation where 
budgetary issues may end up driving operational issues rather than the 
actual threat levels?
    Answer. Our goal remains effective security, efficiently applied. 
Identifying the most appropriate level of resources to eliminate a 
specific security threat or mitigate a known vulnerability is a 
significant challenge. TSA continues to pursue risk assessment and 
vulnerability analysis to determine the most effective method of using 
scarce resources to protect the transportation system worldwide. In 
this way, we can make sure that we use available funds to achieve the 
most effective protection for the traveling public.

    Currently, TSA has certification standards for checked baggage 
devices, but it is our understanding that there are no similar 
standards for carry-on bags or passenger screening.
    Question 18. When do you expect to establish a certification 
standard for carry-on bags and passenger screening?

    Question 19. How can we expect companies to develop solutions 
without these standards?

    Question 20. What guidance are you giving to companies?

    Question 21. How much funding will be available from the TSA for 
checkpoints, and what will be the time frame/mechanism for distributing 
it during FY04?
    Answer 18-21. TSA has certification standards for the screening 
equipment it uses for carry-on baggage, including trace explosives 
detection devices that it uses for carry-on bags at screening 
checkpoints. TSA is also exploring new technology, and will be 
communicating Qualification Criteria and Specification Requirements for 
explosives detection technology to be used for carry-on baggage and 
persons through a Request for Proposal (RFP) solicitation. TSA has 
programmed $10.2 million from its FY 2004 Applied R&D appropriation for 
advanced checkpoint technology development and improvement to existing 
technologies. Additionally, $11.5 million of the FY 2004 Next 
Generation EDS R&D appropriation will be used for investigations into 
automated inspection for explosives in carry-on items, explosives 
detection trace portals for screening individuals, document scanners 
for detecting the presence of explosives residue on travel documents 
such as boarding passes, and use of quadrupole resonance for inspecting 
shoes and other carry-on items.

    Question 22. On October 20, 2003, Mr. Nat Heatwole was charged with 
placing weapons on an aircraft. He carried box cutters and other 
dangerous items through checkpoints, and hid them aboard two Southwest 
Airlines aircraft. According to reports, this college student notified 
the TSA and yet no action was taken. Can you explain how the breach in 
security on the two Southwest Airlines planes occurred and how TSA 
plans to rectify this situation?
    Answer. It would be inappropriate to discuss the specific details 
about this incident in a manner that could provide information on how 
security at our Nation's airports could be breached in the future. 
Instead, we will focus on the steps that TSA has taken to prevent 
similar incidents from reoccurring.
    First, the channel through which TSA received the e-mail has been 
revised. TSA has swiftly changed procedures at its Contact Center and 
throughout TSA. Contact Center electronic mail, telephone calls, and 
other communications are filtered for security content, reviewed by a 
security analyst, and when appropriate, transmitted to our 
Transportation Security Coordinating Center and other units for action. 
Contact Center personnel are trained each month on how to identify 
potential security violations, threat information, and criminal 
activity conveyed through telephone calls or other means. In addition, 
all TSA employees and contractors have been given specific protocols to 
follow in identifying, documenting, and reporting potential threat 
communications.
    TSA continually assesses vulnerabilities and adjusts plans for 
screener improvement. In July 2003, TSA conducted a Screener 
Performance Improvement Study to determine the root causes for 
deficiencies in screener performance. After identifying the desired 
level of screener performance, we gathered data from multiple sources 
to determine the actual, current level of performance and the root 
causes for the gap between desired and actual performance.
    Based upon the Screener Performance Improvement Study, TSA worked 
closely with the BTS Directorate to identify an array of specific 
follow-up actions. These enhancements are now being implemented under 
TSA's Short-Term Screening Improvement Plan, which includes the 
following elements:

  <bullet> Increased Federal Security Director (FSD) support and 
        accountability;

  <bullet> Enhanced training for screeners and supervisors;

  <bullet> Increased frequency of covert testing conducted by TSA's 
        Office of Internal Affairs;

  <bullet> Human performance improvements;

  <bullet> Development and deployment of new screening technologies;

  <bullet> Complete deployment of Threat Image Projection (TIP) 
        systems;

  <bullet> Expedited IT connectivity to checkpoints and training 
        computers;

  <bullet> Continuously updated Aviation Operations policies and 
        procedures; and

  <bullet> Improved workforce management, staffing, and scheduling.

    Additional Information: On June 24, 2004, U.S. District Judge Paul 
Grimm sentenced Nathaniel Heatwole to two years supervised probation 
and a $500 fine. Nathaniel Heatwole must also serve 100 hours of 
community service and reimburse his parents for up to $500 in legal 
expenses.

    Question 23. We have been informed that the TSA is meeting with 
industry groups to set regulatory policy regarding aircraft security? 
Who has been included in these meetings and why?
    Answer. When TSA was being stood up, TSA held meetings with airline 
industry groups such as Air Line Pilots Association, Air Carrier 
Association, Air Transport Association, American Association of Airport 
Executives, Airports Council International-North America, and Regional 
Airline Association to better understand existing regulatory policy in 
the area of aviation security. These meetings were instrumental for TSA 
to understand better the potential impact of possible security policies 
and regulations on the aviation community.
    As a course of business, TSA meets regularly with carrier, airport, 
and employee associations to discuss security policies. In 2002, TSA 
assumed FAA's responsibility to lead the Aviation Security Advisory 
Committee (ASAC). ASAC, a standing body under the Federal Advisory 
Committee Act (P.L. 92-463), was created in 1989 in the wake of the 
crash of Pan Am 103 to provide the Federal Government with expert 
consultation on aviation security issues. Through this forum, TSA 
receives input from a wide ranging group of aviation associations 
regarding aviation security issues.

    Question 24. Lines at Myrtle Beach Airport on weekends are 
averaging 40 minute waits. We have new carriers and new flights. In 
Charleston, SC, we are anticipating service from a new carrier that 
will require more screeners. We have only 100 screeners now, although 
we are supposed to have 110, and TSA is currently counting supervisors 
as line screeners. Charleston cannot even hire new people without TSA 
opening up an assessment center-a process that can take months to carry 
out. On top of that, TSA has threatened to fire people unless they 
agree to become part-time screeners, and many have since quit. We need 
to get this process straight. How many people does TSA need to process 
security checks at airports in the U.S. expeditiously?
    Answer. TSA has contracted with Regal to develop a ``bottom-up'' 
model designed to use airport-specific data to derive highly accurate 
staffing and throughput projections. This tool, once operational, will 
be an important asset in TSA's efforts to ensure that our screeners are 
deployed effectively to maximize the safety and security of the 
traveling public.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             Stephen McHale
Passenger Security Screeners
    Question 1. Earlier this year, based on a TSA on-site assessment of 
passenger throughput at Honolulu International Airport, the Hawaii 
Department of Transportation, constructed additional passenger 
screening lanes in an effort to reduce the time passengers must wait 
for the screening process. Although six of these lanes were built at 
the direction of the TSA, no additional screeners were provided. As a 
result, passengers at Honolulu International Airport continue to suffer 
from long wait times. During the summer peak, wait times were as long 
as 90 minutes.
    Even with this shortage of screeners, Hawaii was identified by TSA 
headquarters as an ``overstaffed airport'' and ordered to reduce its 
full time workforce.
    How does TSA plan to resolve the staffing problems at Honolulu 
International Airport and ensure efficient and expeditious processing 
of passengers?
    Answer. TSA continues to develop its expertise to make workforce 
decisions not only more attuned to the needs of different categories of 
airports, but also customized to individualized airport requirements. 
Factors considered in our staffing decisions include: lane counts at 
each airport to determine preliminary requirements for passenger 
screeners; baggage screening flow and configurations; the quantity and 
distribution of originating passengers; seasonal fluctuations in 
passenger flows; upcoming construction at airport facilities; changes 
in the quantity or frequency of air carrier service; and, variations in 
airline load factors. In order to adjust for mitigating factors at 
individual airports, TSA also gathers information on their needs from 
Federal Security Directors (FSDs), airport operators, and local 
community leaders.
    TSA recognizes the need to create a more flexible workforce in 
order to match screener work schedules to meet fluctuations in 
originating passenger traffic. We are increasing the number of part-
time screeners and using more split shifts to provide the necessary 
scheduling flexibility. TSA began FY 2004 with a screener workforce of 
approximately 47,500, which equates to approximately 45,000 FTE. As of 
mid-February, we have about 45,700 screeners, equating to 43,700 FTE, 
with 14 percent of the screener workforce as part-time.
    A more flexible workforce allows TSA to better align throughput 
capacity with the needs of airports like Honolulu International Airport 
(HNL). TSA's staffing model was used to provide the HNL's FSD with that 
airport's FTE numbers and annual manpower hours. The FSD has researched 
the staffing at HNL to determine how many current full-time screeners 
at HNL must convert to part-time status, voluntarily where possible but 
involuntarily where necessary. Based on analyses of other airports and 
their staffing, it is estimated that between 20 to 40 percent of the 
total workforce at HNL will be converted to part-time work in order to 
maximize the effectiveness of the allotted FTEs in addressing peak 
periods of passenger screening. Like other airports where involuntary 
conversions must take place, employees who are affected will have 
priority consideration to convert back to full-time if and when such 
positions become available again.
    TSA is continually monitoring screener workforce staffing at 
individual airports to determine where adjustments are needed. Regular 
communication with FSDs and stakeholders allow us to adjust the 
staffing levels to reflect changes in checkpoints and baggage screening 
processes, while remaining sensitive to screener workforce morale and 
performance issues.

    Question 2. Funding for Explosive Detection Systems (Question 
requested by Hawaii Department of Transportation)
    Honolulu International Airport, like other major airports, needs to 
move the TSA's Explosive Detection Systems (EDS) out of the lobby and 
into a permanent in-line installation in the baggage conveyor system. 
Fiscal Year 2004 funds were appropriated by the Congress for this 
purpose. Where on the priority list is Honolulu International Airport? 
Can you estimate when TSA will be in a position to offer Honolulu 
International Airport a Letter of Intent to address this problem?
    Answer. TSA's top priority is security, and as such, TSA is 
focusing its available funding for EDS installation at those airports 
that have not yet fully achieved or cannot maintain compliance with the 
100 percent electronic screening mandate for checked baggage. TSA 
continues to balance many competing priorities and continues to review 
its priorities to maximize the utilization of the funds available. 
Changes to passenger throughput demands, terminal modifications and 
airport expansions make fulfilling TSA's goal of 100 percent electronic 
baggage screening a constantly moving target TSA has set aside funding 
to support purchase and installation of EDS equipment into an in-line 
system currently funded through an FAA Airport Improvement Project 
(AIP) grant issued to HNL. TSA cannot currently support additional 
projects associated with in-line screening solutions at HNL through a 
Letter of Intent (LOI). TSA's EDS installation funding has been 
designated for the following projects:

  <bullet> Reimbursement payments for the 8 existing LOIs;

  <bullet> Installation and multiplexing of EDS technology at the 9 LOI 
        airports;

  <bullet> EDS installation work at 13 airports that are building in-
        line systems using FY 03 FAA AlP grant money (of which HNL is 
        one of those airports); and

  <bullet> EDS and ETD non-LOI installation work needed at airports to 
        provide additional equipment capacity to ensure an airport can 
        maintain 100 percent electronic screening capabilities. The 
        airports selected in this category have a need for increased 
        equipment support increases to air carrier service.

    Question 3. Security Screening for Cruise Ship Passengers
    Thousands of cruise ship passengers transfer to Honolulu 
International Airport, generally on Saturday mornings, for their 
flights back home. Over the next few years, three new cruise ships will 
call Hawaii home, and serve the Hawaii interisland trade.
    In an effort to avoid further congestion and even longer passenger 
screening wait times at Honolulu International Airport, I understand 
the TSA has conducted preliminary discussions about the possibility of 
performing baggage screening for transferring airline passengers at the 
Port of Honolulu rather than at the airport. This screening service 
would require the positioning of TSA equipment and personnel at the 
pier, and would require airline staff coverage at that location as 
well. What are the TSA's recommendations on how to address this 
intermodal issue?
    Answer. TSA is currently participating in two different prototype 
intermodal security initiatives that facilitate the transfer of baggage 
between cruise ship arrival ports and airports. These initiatives were 
proposed by the regions involved and developed cooperatively between 
local and Federal agencies.
    In the first initiative, TSA screeners and equipment from the local 
airport are relocated to the port to screen checked baggage of 
returning cruise ship passengers. The receiving airline then transports 
the bags to the airport through a bonded security company. The goal is 
to alleviate the surge in the baggage screening process created by 
large numbers of cruise ship passengers arriving at the airport 
simultaneously.
    In the second initiative, cruise ship staff collects checked 
baggage of returning passengers the evening before arrival, and 
attaches bar coded identification tags. The cruise ship then transfers 
the baggage to the airport through a bonded security company, where the 
baggage is entered into the existing airport TSA screening process for 
checked baggage. Again, as in the first initiative, the goal is to 
alleviate the surge in the baggage screening process created by a 
sudden influx of arriving cruise ship passengers.
    Stakeholder outreach has been extensive and ongoing. TSA staff has 
weekly contact with cruise lines involved in the prototype program and 
the local airport Federal Security Directors to collect statistics on 
the number of passengers and the amount of baggage screened and to work 
out any issues or problems in the system. TSA also conducted an onsite 
survey of passengers disembarking from cruises who participated in the 
seamless baggage transfer prototype. Passenger feedback was 
overwhelmingly positive.
    While preliminary results of both prototypes appear favorable, TSA 
is currently conducting a more extensive program analysis regarding the 
full impact of these initiatives on industry, TSA resources (both 
personnel and equipment), and the justification and capability to 
expand the prototype programs. These analyses will assist TSA to 
determine how best to address intermodal connection security issues of 
the type that you raised.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Ron Wyden to 
                             Stephen McHale
    On August 1, 2003, the Transportation Security Administration's 
(TSA) published a Federal Register Notice (68 Fed. Reg. 45265) 
concerning its plans to develop and implement a new version of the 
Computer Assisted Passenger Prescreening System, commonly known as 
``CAPPS II.'' I believe that this Notice was a positive first step in 
explaining to the public TSA's plans for CAPPS II, and in providing 
information needed to assess the program's potential impact on privacy. 
However, the Notice also left me with a number of questions as to how 
CAPPS II would operate. I believe that the answers to these questions 
are crucial to understanding the nature and implications of the system 
TSA is proposing. My questions fall into six main areas.

    Question 1. What Goes On in the ``Risk Assessment'' Portion of the 
Process
    According to the explanation contained in the August 1 Federal 
Register Notice, CAPPS II will involve two main steps. The first step 
is authentication, in which the system will compare PNR data with data 
contained in commercial databases ``for the sole purpose of 
authenticating passenger identity.'' The result will be a numeric score 
showing the confidence level that the identity the passenger provided 
is accurate.
    The second step is the risk assessment. This is an area where I 
believe the explanations to date have been insufficient, making 
clarification essential.

    Question 1a. The Federal Register Notice states that ``[t]he risk 
assessment function is conducted internally within the U.S. 
Government.'' Does this mean that, for purposes of the risk assessment, 
CAPPS II will not in any way query or otherwise make use of commercial 
databases?

    Question lb. If the risk assessment process does not involve making 
additional queries of commercial databases, then what information does 
it rely on? At a minimum, it appears that the risk assessment will 
involve checking to see if the passenger is on any Federal list of 
known or suspected terrorists, or persons with outstanding arrest 
warrants for violent crimes. But are there additional sources of 
information, inside or outside government, that the risk assessment 
will use? Or does the risk assessment simply produce a ``yes or no'' 
answer as to whether the passenger is already on a government list of 
persons considered dangerous?

    Question 1c. Checking against existing government watch lists seems 
like a straightforward way of determining whether a passenger is 
already known as a terrorist or suspected terrorist. But according to 
the Federal Register Notice, the risk assessment process will do more 
than that-it will determine the likelihood that the passenger has 
``identifiable links'' to known terrorists or terrorist organizations. 
How can the risk assessment process ferret out such links, if the 
information it relies on consists of existing government watch lists? 
Is it envisioned that the government will compile lists of all persons 
who have any link with a known terrorist or terrorist organization? 
Wouldn't this be an exceedingly broad list?

    Question ld. For example, suppose that a passenger once shared an 
apartment or college dorm room with a person who is now on a U.S. list 
of known terrorists. Would the risk assessment capture this link? If 
so, how? Would the risk assessment process check commercial databases, 
which may contain records of the passenger's past addresses? Or is it 
envisioned that this passenger would already be on a government watch 
list, based on this solely on this possibly innocent link?

    Question 1e. The Federal Register Notice says that CAPPS II will 
generate a ``risk score'' for each traveling passenger. Is this ``risk 
score'' the product solely of the risk assessment process, or does it 
does it take into account the results of the authentication step as 
well? If the latter, does it factor in any data or information from the 
authentication process other than the numeric authentication score?

    Question lf. Suppose a passenger is not on a government watch list 
of known or suspected terrorists. Could the CAPPS II system nonetheless 
produce a high enough ``risk score'' to bar the passenger from flying?
    Answer la-lf. Because of the sensitivity of the response, TSA would 
ask that it be permitted to respond in detail in a classified briefing 
to be provided at your convenience. However, as you know, the 
Department has been reviewing CAPPS II in light of the many 
constructive comments we have received on many issues related to your 
questions. At this point, the proposal for aviation passenger pre-
screening is being reshaped to address those concerns. While it is 
still being developed, our fundamental goals remain unchanged in 
developing an effective security program for passenger pre-screening:

  <bullet> Improve the security and safety of international and 
        domestic travelers, as well as the public at large, by seeking 
        to ensure in advance that airline passengers are not persons 
        who are known to be involved in or associated with terrorism;

  <bullet> Effectively allocate secondary screening resources;

  <bullet> Move the majority of passengers more quickly through airport 
        screening, in part by reducing the number of individuals 
        selected for secondary screening; and

  <bullet> Fully protect privacy and civil liberties.

    This initiative is a priority for the Department and TSA, and we 
look forward to working with you to further the goals of the program.

    Question 2. Process for Detecting and Correcting Mistakes
    The Federal Register Notice states that a passenger will be able to 
request access to the PNR data CAPPS II contains on him/her, and to 
request the modification of that data if the passenger believes it is 
inaccurate. However, the Notice goes on to observe that because CAPPS 
II will not retain data on passengers for any significant time, in most 
cases there will be nothing for the passenger to obtain or correct.

    Question 2a. This suggests that, while a procedure for accessing 
and requesting modifications to records may be important in other 
contexts, this approach really isn't very useful for addressing 
mistakes that may occur under CAPPS II. Does TSA agree that CAPPS II is 
going to require other types of redress procedures?
    Answer. Yes. The specific design of a passenger redress process 
depends on the parameters of the passenger prescreening system which is 
employed. As noted in the above response, the Department is currently 
examining the CAPPS II program. However, the Department is committed to 
developing appropriate mechanisms for passenger redress and will not 
deploy a passenger pre-screening system without such mechanisms in 
place.

    Question 2b. For example, if the system repeatedly flags a 
particular individual as suspicious, what options will that individual 
have to rectify the problem? Suppose the problem stems from inaccurate 
information in a commercial database, which results in a low 
authentication score for that individual. In such a case, accessing 
records held by the CAPPS II system would be useless. How will the 
system deal with mistakes of this kind?
    Answer. An essential part of the redress process is the 
establishment of the Passenger Advocate. The Passenger Advocate is 
being designed to focus on assisting passengers who feel that they have 
been incorrectly or consistently prescreened. When a passenger submits 
a complaint, TSA will work to identify the root cause for the selection 
during prescreening. The Government, with the complainant's permission 
to observe and monitor the results of prescreening during the 
complainant's future flights, will work to analyze the results of 
prescreening. This analysis will determine if the complaint is related 
to prescreening or due to another part of the screening process (e.g., 
random selection). If the complaint is related to prescreening, 
passengers will be afforded the opportunity to pursue redress through 
the Passenger Advocate, the TSA Privacy or Civil Rights Office and 
then, in turn, through the DHS Privacy Office or DHS Office for Civil 
Rights and Civil Liberties, as appropriate.
    As with the No-Fly list redress procedures, TSA will work closely 
with other law enforcement and other government organizations to create 
procedures by which the government may identify and correct 
inconsistent data that derive from law enforcement or other government 
data systems in a timely manner.
    Before the final redress process is completed, TSA will present its 
plans to the public in appropriate forums to receive advice and opinion 
and to help advertise the availability and purpose of the process.

    Question 2c. What is the justification for exempting CAPPS II from 
the Privacy Act's data access and correction requirements?
    Answer. To protect information in the CAPPS II system that is 
classified, SSI, or otherwise sensitive, TSA exempted the system from 
access and amendment as the Privacy Act permits. The passenger 
prescreening system is expected to contain not only airline-provided 
passenger data, but also information about how the system operates, 
which databases, intelligence sources and methods are being used, and 
information about persons on government watch lists whose identities 
cannot be revealed without compromising national and aviation security.
    TSA does not consider the information in passenger name records 
(PNR) to be sensitive such that access to the individual must be 
denied. The August 1st notice does provide a procedure for individuals 
who wish to correct their own PNR data. With respect to correction of 
passenger information, PNR records in the passenger prescreening system 
likely would not be corrected with any meaningful results. Each time a 
passenger flies, a new ''passenger name record'' or PNR will be sent 
from the airline to the CAPPS II system and that PNR will be deleted 
shortly after the passenger completes his or her travel itinerary. 
Correction of longstanding errors in a particular airline's PNR for an 
individual (e.g., one of that airline's frequent fliers) is best 
accomplished directly by the airline. As part of the development of the 
redress system, TSA will work with the airlines to develop the best 
procedure for correcting repeating errors in an individual's PNR data.

    Question 3. Accuracy of the ``Identity Authentication'' Part of the 
Process
    The Federal Register Notice states that ``[o]ne of TSA's primary 
purposes in creating this new system is to avoid the kind of 
miscommunication and improper identification that has, on occasion, 
occurred under the systems currently in use. During the test period, 
TSA hopes to confirm that the use of the CAPPS II program will 
significantly reduce improper identification.''
    However, a recent Associated Press article (``Feds Don't Track 
Airline Watchlist Mishaps,'' by David Kravets, July 23, 2003) reported 
that TSA does not keep information on the number of people who are 
misidentified and wrongly delayed or barred from flights under the 
current system.

    Question 3a. Does TSA have any systematic way oftracking how often 
the current system makes mistakes?
    Answer. TSA tracks possible inaccuracies in the current system that 
fall under our operational control, most notably complaints from 
passengers who suspect that they are improperly included on the ``no 
fly list.'' However, other factors can cause a particular passenger to 
be inconvenienced but that the passenger will attribute to being a 
mistake, including random screening protocols, magnetometer alerts, or 
airline-generated concerns that are independent of TSA. TSA has 
established procedures within the Office of the Ombudsman to receive 
such complaints and to resolve them to the extent of their authority.
    TSA does have a redress system for travelers who believe that they 
are improperly included on the No-Fly List. Currently, a traveler who 
contacts TSA regarding possible discrepancies within the current system 
are asked a series of questions to ascertain that the delay encountered 
in obtaining a boarding pass is No-Fly List related. The traveler is 
required to submit a written description of any problems encountered 
during the check-in process. Valid No-Fly List travelers are sent a 
traveler letter, along with a Passenger Identity Verification Form. The 
traveler must submit certified or notarized copies of three of the 
listed on the form that apply to the individual. Upon receipt of the 
Verification Form and certified or notarized documents, TSA will 
determine whether there is any threat to aviation or national security 
that would prohibit the individual from flying. TSA may conduct a 
background check in making this determination. If the traveler is 
cleared to fly, air carriers and other appropriate parties will be 
notified. The TSA Office of the Ombudsman will forward a letter to 
notify the individual of the results.

    Question 3b. If not, how will TSA determine whether and to what 
extent CAPPS II will reduce the number of cases of mistaken identity?
    Answer. As noted earlier, the Department is currently reshaping the 
CAPPS II program. The passenger prescreening system that is deployed 
will be designed to track the percentage of complaints about multiple 
occurrences of enhanced screening that are resolved because an 
individual has the same or a similar name as a person of interest but 
is not that person of interest. However, the details as to how this 
will work will depend on the parameters of the system which will be 
deployed.

    Question 3c. To what extent will TSA make public the results of its 
testing on the accuracy of the identity authentication process? Will 
the public be permitted to see the numbers behind any claimed decrease 
in misidentification-and to evaluate the rate at which mistakes still 
occur under the new system?
    Answer. As noted above, the Department is currently reshaping the 
CAPPS II program. To the extent that the passenger prescreening system 
utilizes an identity authentication process, TSA will communicate the 
results of the tests to the public, so long as the results do not 
contain classified or sensitive security information or may be 
disclosed only in an appropriate setting to protect the security of the 
system.

    Question 4. Financial and Health Data
    The Federal Register Notice states that the CAPPS II system ``will 
not use measures of creditworthiness, such as FICO scores, and 
individual health records.'' However, this statement appears in the 
explanatory ``Supplementary Information'' section of the Notice. In 
what appears to be the official portion of the Notice--the part headed 
``DHS/TSA 010''--there is no reference to such a limitation.

    Question 4a. What is the legal effect of the statement in the 
``Supplementary Information'' section that CAPPS II will not use 
individual financial and health information?
    Answer. This statement is a statement of policy; it is not intended 
to create enforceable rights on the part of passengers or legal 
restrictions on TSA. Nevertheless, it is a policy to which TSA would 
adhere in implementing the CAPPS II system, and this policy is 
reflected in the body of the Privacy Act notice, which excludes credit 
and health-related records from those TSA may collect under the Notice 
for purposes of CAPPS II. As the Department is currently reshaping the 
CAPPS II program, such a discussion may not be relevant to the 
passenger prescreening system that will be deployed.

    Question 4b. Why is there no comparable statement in the body of 
the official Privacy Notice itself?
    Answer. In fact, the Privacy Notice does contain a specific 
enumeration of the categories of records that maybe stored in the CAPPS 
II system of records. Credit records or health-related records are not 
on the list of specifically enumerated categories of records. 
Therefore, they are not included and, absent a change in the Privacy 
Notice (which would require re-publication in the Federal Register), 
will not be included in any revised passenger prescreening system.

    Question 4c. The Notice makes the CAPPS II system ``exempt from 
publishing the categories of sources of records.'' Why is TSA claiming 
this exemption? As a legal matter, wouldn't this permit TSA, a year or 
two down the road, to reverse its decision to refrain from using 
individual financial and medical data-and to start using such data 
without telling the public? How can the public rely on any current TSA 
description of what information the CAPPS II system will or will not 
use, if TSA is reserving the right to expand or modify the information 
it uses without any public notice or scrutiny?
    Answer. This exemption was deemed necessary in light of the 
classified government records that were envisioned to structure the 
algorithms in the risk assessment engine. To the extent that the 
specific record sources became known, it would be that much easier to 
reverse engineer and thus defeat the system. Medical and financial 
records are not included in the enumeration of the categories of 
records to be used. As a matter of Privacy Act law, moreover, if TSA 
were to decide to change the categories of sources of records to 
include medical and financial records, it would be required to 
republish the system of records notice. Therefore, the scenario posed--
using data without notifying the public-is not permissible under the 
law.

    Question 5. Procedures for Future Changes to CAPPS II
    As noted above, the Notice makes CAPPS II ``exempt from publishing 
the categories of sources of records.'' It also gives the CAPPS II 
system a security classification of ``classified, sensitive.''
    Given this classified status and the exemptions from the Privacy 
Act, could TSA modify significant aspects of the CAPPS II program 
without disclosing the changes to the public? To what extent would TSA 
have the ability, from a legal perspective, to depart from the CAPPS II 
system description set forth in the Notice? Could a future TSA elect to 
make changes regarding the scope or operational characteristics of the 
CAPPS II system--and do so secretly, without a formal and public 
regulatory process? How easily could the various representations and 
assurances made in the Notice be withdrawn?
    Answer. No. The Privacy Act requires that agencies publish in the 
Federal Register a notice concerning the establishment of a system of 
records or a revision in a record system. See 5 U.S.C. Sec. 552a(e)(4). 
Significant changes in the CAPPS II program would in all likelihood 
require a revision in the record system for the program. TSA is 
committed to fair information practices, which would include due notice 
to the public of any major changes in the passenger prescreening 
system. TSA has its own Privacy Officer to ensure adherence to these 
fair information principles. Furthermore, the Chief Privacy Office of 
the Department of Homeland Security must approve of any significant 
revisions in the CAPPS II Program that would affect privacy. Our agency 
is committed to devising an effective passenger screening program that 
protects personal privacy while ensuring the safety of air travel.

    Question 6. Intended Future Link to Immigration Data
    The Federal Register Notice states that ``[i]t is . . . anticipated 
that CAPPS II will be linked with the U.S. Visitor and Immigrant Status 
Indicator Technology (US-VISIT) program at such time as both programs 
become fully operational, in order that processes at both border and 
airport points of entry and exit are consistent.''

    Question 6a. If the sole mission of the CAPPS II system is to 
determine whether a passenger may pose a risk to aviation security, why 
does the system need to be linked with immigration data? Is it 
anticipated that CAPPS II may eventually be used not only for 
safeguarding aviation security, but also for enforcing immigration 
law--for example, for apprehending illegal aliens or visitors who have 
overstayed their visas?
    Answer. Immigration databases may be vital in determining potential 
passenger risk, particularly as they provide details regarding 
individuals who are known and have already been rigorously processed 
for admission into the United States. Again, we would be pleased to 
address details in a classified briefing.

    Question 6b. What are the specific ``processes at both border and 
airport points of entry and exit'' to which the Notice refers? What are 
the specific types of potential inconsistencies that TSA hopes to avoid 
by linking the CAPPS II and US-VISIT systems? Please provide some 
concrete examples of problems that could arise if the two systems were 
not linked.
    Answer. TSA diligently prepared the Notice, as required, to 
highlight potential uses and linkages for the public. The processes in 
question are those related to granting admission and collecting arrival 
and departure information for certain non-immigrant visitors to the 
United States. In deploying a passenger prescreening system, DHS would 
want to use all available information to identify potential terrorists, 
as directed in Homeland Security Presidential Directive-6 and 
consistent with the Privacy Act and all relevant statutes. While no 
decision has been made to link these two systems, there is potential 
that an exchange of information between CAPPS II and US-VISIT will 
strengthen both systems and improve overall consistency of performance 
with regard to identification and assessment of alien visitors to the 
United States.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Stephen McHale
Airport Screener Staffing Level
    The Transportation Security Administration (TSA) continues to 
struggle with staffing. As you attempt to meet an artificial number of 
screeners, and have to cut an additional 4,000 to 5,000 employees this 
year, the lines continue to get longer. At Detroit, for example, 
waiting times no longer meet the 10 minute customer service plan that 
was originally touted by TSA, but instead are more than double that, 
and at times as long as almost 50 minutes.

    Question 1. Have you developed staffing standards for airports, 
large and small and what is your expected wait time? (NOTE: Wait time 
assumptions greatly affect the number of screeners needed to process 
people. TSA is moving to hire more part-time people, but that is being 
done to meet the 45,000 screener cap, not to meet a staffing/processing 
standard time frame.)
    Answer. The challenges in achieving the optimized quantities of 
screeners vary considerably airport by airport. TSA will continue to 
work with the Department of Homeland Security (DHS) and the Office of 
Management and Budget to maximize available resources against the many 
needs of transportation security.
    While the overall size of the workforce is declining per 
Congressional direction [TS1], TSA is creating additional capacity 
through achieving greater efficiencies in the scheduling of screeners. 
Federal Security Directors (FSD) at each airport now have access to 
scheduling tools that provide real-time information enabling them to 
forecast periods of peak demand for screening. TSA uses more split 
shifts and part-time screeners to maximize the operational flexibility 
available to FSDs when scheduling screeners to satisfy varying levels 
of demand. As a result of reducing excess capacity at periods of lower 
demand, fewer Full Time Equivalents can be used to meet the workload.
    Nevertheless, TSA continues to recruit and train screeners to fill 
vacancies at traditionally hard-to-fill and understaffed airports. We 
review on an ongoing basis the workforce requirements for each airport, 
considering the number, location, and mix of full-time and part-time 
screeners. We engage airport operators and air carriers to ensure that 
growth rates, changes in flight schedules, and other concerns are 
incorporated into our planning. TSA shares Congress' desire to ensure 
that our human capital is deployed effectively to maximize the safety 
and security of the traveling public.
General Aviation/Smaller Aircraft Access to Washington National Airport
Background
    General aviation aircraft are currently prohibited from operating 
at Washington National Airport.
    In addition, after September 11, air carriers were forced to 
terminate certain routes to Washington National due to security 
concerns as the Federal Government barred 19-seat aircraft from 
operating at DCA. This included Clarksburg-National and Lewisburg-
National. The Aviation and Transportation Security Act mandates the 
Federal Aviation Administration develop procedures to secure the flight 
deck of commuter aircraft, which would make them eligible to operate at 
DCA in the future. It is not clear when FAA will act on this mandate.

    Question 1. Assuming all security needs are met, when will TSA make 
a decision about allowing a limited amount of general aviation charter 
operations into National Airport?
    Answer. Section 823 of the Vision 100-Century of Aviation 
Reauthorization Act, P.L. 108-176; 117 Stat. 2490 (Dec. 12, 2003) 
requires the Secretary of DHS to develop a security plan to permit 
general aviation aircraft to operate into and out of Ronald Reagan 
Washington National Airport (DCA). Development of this plan is ongoing 
among the various Federal agencies engaged in securing the National 
Capitol Region, including TSA. DHS will be glad to provide the 
Committee with an update once the plan has reached an appropriate stage 
of maturity.

    Question 2. Is the TSA working with the FAA on the developing 
security requirements for 19-seat commuter aircraft? Do you expect to 
eventually allow 19-seat commuter aircraft to resume operations into 
National Airport?
    Answer. Because of the sensitivity of the response, TSA would ask 
that it be permitted to respond in detail in a classified briefing to 
be provided at your convenience.

                                  [all]
</pre></body></html>
